Audit Report




OIG-10-029
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2009 and 2008
January 7, 2010




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report on Special-Purpose
             Financial Statements


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2009 and 2008
THIS PAGE INTENTIONALLY LEFT BLANK
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               January 7, 2010


            MEMORANDUM FOR KAREN HUNTER, DIRECTOR
                           FINANCIAL REPORTS DIVISION
                           FINANCIAL MANAGEMENT SERVICE

                                    LOUISE DIBENEDETTO, ASSISTANT DIRECTOR
                                    FINANCIAL MANAGEMENT AND ASSURANCE
                                    GOVERNMENT ACCOUNTABILITY OFFICE

                                    DANA JAMES, CHIEF
                                    FINANCIAL STANDARDS AND GRANTS BRANCH
                                    OFFICE OF MANAGEMENT AND BUDGET

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Department of the Treasury’s Special-Purpose
                                    Financial Statements for Fiscal Years 2009 and 2008

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2009 and 2008.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the
            Department’s special-purpose financial statements as of September 30, 2009 and
            2008 and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended.

            In its audit, KPMG LLP found:

                    •   that except for (1) the omission of the required disclosure related to
                        unamortized discount and premium information, and (2) misstatements of
                        the SDR Certificates Outstanding with the FRB, Interest Bearing Liability
                        to the IMF for SDR Allocations and Gold Certificates account balances in
                        the special-purpose financial statements notes, the special-purpose
                        financial statements were fairly presented, in all material respects, in
                        conformity with U.S. generally accepted accounting principles and the
                        presentation pursuant to the requirements of the Treasury Financial
                        Manual Volume 1, Part 2 – Chapter 4700 (Chapter 4700),
Page 2

      •   a material weakness related to insufficient staffing resources, accounting
          processes and related controls for the preparation of the special-purpose
          financial statements, and

      •   no instances of reportable noncompliance with Chapter 4700.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express an opinion on the special-purpose financial statements, or make any
conclusions with regard to the effectiveness of internal control over financial
reporting or compliance with Chapter 4700. KPMG LLP is responsible for the
attached auditors’ report dated January 7, 2010 and the conclusions expressed
therein. Our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
             SECTION I

  INDEPENDENT AUDITORS’ REPORT ON
SPECIAL PURPOSE FINANCIAL STATEMENTS
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




               Independent Auditors’ Report on Special-Purpose Financial Statements


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying Closing Package Financial Statement Reports – Balance Sheet of the
U.S. Department of the Treasury (Treasury Department) as of September 30, 2009 and 2008, the related
Closing Package Financial Statement Reports – Statements of Net Cost and Statement of Changes in Net
Position, and the accompanying Financial Report (FR) Notes Reports (except for FR Notes Report
No. 16 – Section F, and the information in the FR Notes Reports entitled “threshold”) for the years then
ended; the accompanying Additional Note No. 29, Special-Purpose Financial Statement Requirements
(Additional Note No. 29), the accompanying Trading Partner Summary Note Report – Balance Sheet as of
September 30, 2009 and 2008, and the related Trading Partner Summary Note Report – Statement of Net
Cost and Statement of Changes in Net Position for the years then ended (hereinafter collectively referred to
as the special-purpose financial statements).

We did not audit the amounts included in the special-purpose financial statements related to the Internal
Revenue Service (IRS), a component entity of the Treasury Department, which reflect total assets of
$36.8 billion and $35.6 billion, net costs of operations of $12.5 billion and $12.2 billion, and custodial
revenues of $2.3 trillion and $2.7 trillion, as of and for the years ended September 30, 2009 and 2008,
respectively. The financial statements of the IRS as of and for the years ended September 30, 2009 and
2008, were audited by another auditor whose report dated November 5, 2009, has been provided to us, and
our opinion, insofar as it relates to the amounts included for the IRS in the special-purpose financial
statements, is based solely on the report of the other auditor. In addition, we did not audit the amounts
included in the special-purpose financial statements related to the Office of Financial Stability (OFS), a
component entity of the Treasury Department, which reflect total assets of $337.4 billion, and net costs of
operations of $41.6 billion as of and for the year ended September 30, 2009. The financial statements of
the OFS as of and for the year ended September 30, 2009, were audited by another auditor whose report
dated December 4, 2009, has been provided to us, and our opinion, insofar as it relates to the amounts
included for the OFS in the special-purpose financial statements, is based solely on the report of the other
auditor. These special-purpose financial statements are the responsibility of the Treasury Department’s
management. Our responsibility is to express an opinion on these special-purpose financial statements
based on our audits, and the reports of the other auditor.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04, as amended, require that we plan and perform the audits to obtain reasonable assurance
about whether the special-purpose financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the Treasury Department’s internal control over financial reporting. Accordingly, we express no such

                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the special-purpose financial statements and assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audits and the reports of the other auditor, related to the
amounts included for the IRS and OFS, provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of complying
with the requirements of Volume I, Part 2 – Chapter 4700 of the U.S. Department of the Treasury’s
Treasury Financial Manual (TFM), as described in Additional Note No. 29A solely for the purpose of
providing financial information to the U.S. Department of the Treasury and the U.S. Government
Accountability Office (GAO) to use in preparing and auditing the Financial Report of the
U.S. Government, and are not intended to be a complete presentation of the Treasury Department’s
consolidated financial statements.

In accordance with TFM Volume I, Part 2 – Chapter 4700, the Treasury Department prepared FR Notes
Report Nos. 1 through 28B, except for FR Notes Report No. 21, which was not applicable to the Treasury
Department. The Treasury Department included Additional Note No. 29 to disclose other data not
contained in the special-purpose financial statements, but which is necessary to make the special-purpose
financial statements more informative.

The Treasury Department did not include information required to be reported by TFM Volume I, Part 2 –
Chapter 4700 in FR Notes Report No. 10B, Treasury Securities Held by the Government Trust, Revolving
and Special Funds (FR Notes Report No. 10B) related to unamortized discount and premium information.
In addition, amounts in Note 2, Cash and Other Monetary Assets (FR Notes Report No. 2) Section A line
item 4, SDR Certificates Outstanding with the FRB, line item 5, Interest Bearing Liability to the IMF for
SDR Allocations, and line item 6, Gold Certificates were misstated resulting in a total overstatement of
assets of $72.2 billion as of September 30, 2009 ($20.9 billion as of September 30, 2008) and an
understatement of liabilities in the same amounts in FR Notes Report No. 2.

In our opinion, based on our audits and the reports of the other auditor, except for the omission of
unamortized discount and premium information required to be presented in FR Notes Report No. 10B and
misstated assets and liabilities amounts in FR Notes Report No. 2, as discussed in the preceding paragraph,
the special-purpose financial statements referred to above present fairly, in all material respects, the
financial position of the Treasury Department as of September 30, 2009 and 2008, and its net cost and
changes in net position for the years then ended in conformity with U.S. generally accepted accounting
principles and the presentation pursuant to the requirements of TFM Volume I, Part 2 – Chapter 4700, as
described in Additional Note No. 29A.

As discussed in FR Notes Report Nos. 1 and 4A, the Treasury Department is a participant in significant
legislation and transactions whose purpose is to assist in stabilizing the financial markets.

Additional Note No. 29B and 29X, respectively, discuss the following matters:

•   The Treasury Department’s financial statements do not include the assets, liabilities, or results of
    operations of commercial entities in which the Treasury Department has a significant equity interest as
    the Treasury Department has determined that none of these entities meet the criteria for inclusion as a
    federal entity and are therefore not included in the Treasury Department’s financial statements.
•   The valuation of certain Treasury Department’s investments, loans, and asset guarantees is based on
    estimates. These estimates are inherently subject to substantial uncertainty arising from the likelihood
    of future changes in general economic, regulatory, and market conditions. As such, there will be
    differences between the net estimated value of these investments, loans, and asset guarantees at
    September 30, 2009, and the amounts that the Treasury Department will ultimately realize from these
                                                     2
    assets. Such differences may be material and will also affect the ultimate cost to the Treasury
    Department.

The Treasury Department also prepared Other Data Report Nos. 1 through 16, except for Other Data
Report Nos. 4 to 8, 11 and 14, which were not applicable to the Treasury Department. The information
included in the Other Data Report Nos. 2 – Other Data Info. – Section B, 9, 10 and 15 is presented for the
purpose of additional analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by U.S. generally accepted accounting principles and the TFM
Volume I, Part 2 – Chapter 4700. We, and the other auditor, have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this supplementary information, and
accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the special-purpose financial
statements taken as a whole. The information included in the Other Data Report Nos. 1 and 3 is presented
for purposes of additional analysis and is not a required part of the special-purpose financial statements.
This information has been subjected to auditing procedures applied in the audits of the special-purpose
financial statements and, in our opinion, is fairly stated in all material respects in relation to the
special-purpose financial statements taken as a whole. The information included in FR Notes Report
No. 16 – Section F, Other Data Report Nos. 2 Other Text Data – Section A, 12, 13, and 16 is presented for
the purpose of additional analysis. This information has not been subjected to the auditing procedures
applied in the audits of the special-purpose financial statements and, accordingly, we express no opinion on
it.

The information entitled “Threshold” in FR Notes Report Nos. 2, 3, 6, 7, 8, 9, 10A, 11, 14, 15, 19, 28A and
28B; the information in the Closing Package Line Reclassification Summary Report – Balance Sheet; and
the information in the Closing Package Line Reclassification Summary Report – Statements of Net Cost,
and Changes in Net Position, and the Closing Package Line Reclassification Summary Report - Custodial
Activity are presented for purposes of additional analysis and are not a required part of the special-purpose
financial statements. This information has not been subjected to the auditing procedures applied in the
audits of the special-purpose financial statements and, accordingly, we express no opinion on it.

The TFM Volume I, Part 2 – Chapter 4700 requires agencies to use the Governmentwide Financial
Reporting System to input certain data as described in Additional Note No. 29. Except as discussed in this
report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended, we have
also issued a combined Independent Auditors’ Report dated December 15, 2009, which presents our, and
the other auditor’s, consideration of the Treasury Department’s internal controls over financial reporting,
and the results of our, and the other auditor’s, tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, and other matters that are required to be reported under
Government Auditing Standards. That report is an integral part of the audits of the consolidated balance
sheets of the Treasury Department as of September 30, 2009 and 2008, and the related consolidated
statements of net cost, and changes in net position, the combined statements of budgetary resources, and
statements of custodial activity (hereinafter collectively referred to as consolidated financial statements) for
the years then ended, performed in accordance with Government Auditing Standards and OMB Bulletin
No. 07-04, as amended, and should be read in conjunction with this report in considering the results of our
audits of the special-purpose financial statements.

Our, and the other auditor’s, consideration of internal control over financial reporting during the audit of
the fiscal year 2009 consolidated financial statements included in the fiscal year 2009 Treasury
Department’s Agency Financial Report (AFR) disclosed significant deficiencies in the following areas:
                                                       3
•   Financial Management Practices at the Departmental Level (Repeat Condition)
•   Financial Systems and Reporting at the IRS (Repeat Condition)
•   Financial Accounting and Reporting at the OFS
•   Information System Controls at the Financial Management Service

We consider the significant deficiencies related to Financial Management Practices at the Departmental
level, and Financial Systems and Reporting at the IRS noted above to be material weaknesses.

During the audit of the consolidated financial statements included in the AFR, the results of our tests, and
the tests performed by the other auditor, of compliance with certain provisions of laws, regulations,
contracts, and grant agreements disclosed an instance of noncompliance with Internal Revenue Code
Section 6325, that is required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and OMB Bulletin No. 07-04, as amended. In addition, the
Treasury Department’s financial management systems did not substantially comply with the Federal
Financial Management Improvement Act of 1996 requirements related to compliance with Federal
financial management system requirements, applicable Federal accounting standards, and the
U.S. Government Standard General Ledger at the transaction level.

Management is responsible for establishing and maintaining effective internal control. In planning and
performing our audit of the fiscal year 2009 special-purpose financial statements, we considered the
Treasury Department’s internal control over financial reporting by obtaining an understanding of the
Treasury Department’s internal control and performing tests as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the special-purpose financial statements, but not
for the purpose of expressing an opinion on the effectiveness of the Treasury Department’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the Treasury
Department’s internal control over financial reporting.

Our consideration of internal control over financial reporting for special-purpose financial statements was
for the limited purpose described in the preceding paragraph and was not designed to identify all
deficiencies in the internal control over financial reporting for special-purpose financial statements that
might be deficiencies, significant deficiencies, or material weaknesses. The objective of the other auditor’s
audits was to express an opinion on the effectiveness of the IRS’s and the OFS’s internal control over
financial reporting. Our report, insofar as it relates to the results of the other auditor, is based solely on the
report of the other auditor. Because of the IRS material weakness in internal controls discussed above, the
other auditor’s opinion on the IRS’ internal control stated that the IRS did not maintain effective internal
control over financial reporting as of September 30, 2009.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or combination
of deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

In our fiscal year 2009 audit, we noted one matter described below involving internal control over financial
reporting for the special-purpose financial statements and its operation that we consider to be a significant
deficiency. We believe that the significant deficiency is a material weakness.



                                                        4
Condition
The Treasury Department did not have sufficient staffing resources, accounting processes and related
controls to ensure that the special-purpose financial statements were compiled accurately and completed in
a timely manner. As a result, the special-purpose financial statements included several errors and omissions
that were identified as part of the audit. In addition, the special-purpose financial statements were
submitted well after the OMB prescribed due date.

Recommendations
We recommend that the Treasury Department:

(1)   Conduct a review of the staffing resources as well as processes for preparation of the special-purpose
      financial statements and develop corrective actions to accurately and timely prepare the
      special-purpose financial statements.
(2)   Develop accounting processes and internal controls to include appropriate supervisory review of the
      special-purpose financial statements prior to submission for audit.

Management Response
Management has agreed with the condition and recommendations to improve the controls over the
preparation and review of the closing package prior to submission for audit.

                                                  *****

Management is responsible for complying with laws, regulations (including TFM Volume I, Part 2 –
Chapter 4700), contracts and grant agreements applicable to the Treasury Department. As part of obtaining
reasonable assurance about whether the Treasury Department’s fiscal year 2009 special-purpose financial
statements are free of material misstatement, we, and the other auditor, performed tests of its compliance
with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which
could have a direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions or on compliance with TFM Volume I, Part 2 –
Chapter 4700 requirements was not an objective of our fiscal year 2009 audit of the special-purpose
financial statements and, accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Volume I, Part 2 – Chapter 4700 disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards or
OMB Bulletin No. 07-04, as amended.

                                   ______________________________

This report is intended solely for the information and use of the Treasury Department’s management, the
Treasury Department’s Office of Inspector General, U.S. Department of the Treasury, OMB, and GAO, in
connection with the preparation and audit of the Financial Report of the U.S. Government, and is not
intended to be and should not be used by anyone other than these specified parties.




January 7, 2010




                                                     5
THIS PAGE INTENTIONALLY LEFT BLANK
             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2009 AND 2008
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                       U.S Department of the Treasury                                         01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                     Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                              365,815                             403,010                            403,010
Accounts and Taxes Receivable                                                30,432                              30,950                             30,950
Loans Receivable                                                            422,479                               3,557                              3,557
Inventory and Related Property                                                  598                                 698                                698
Property, Plant and Equipment                                                 2,036                               2,077                              2,077
Securities and Investments                                                   15,330                              10,576                             17,608
Investment in Government sponsored                                           64,679                               7,032                                  0
enterprises (GSEs)
Other Assets                                                                 29,056                               7,260                              7,260
Total Non-Federal Assets                                                    930,425                             465,160                            465,160

Federal
Fund Balance with Treasury                                                  504,582                             275,368                            275,368
Federal Investments                                                               0                                   0                                  0
Accounts Receivable                                                             298                                 396                                396
Interest Receivable                                                             677                               1,033                              1,033
Loans Receivable                                                            417,895                             274,305                            274,305
Transfers Receivable                                                              0                                   0                                  0
Benefit Program Contributions                                                     0                                   0                                  0
Receivable
Advances to Others and Prepayments                                                5                                 13                                   13
Other Assets (without reciprocals)                                       11,992,719                         10,100,763                           10,100,763
Total Federal Assets                                                     12,916,176                         10,651,878                           10,651,878
Total Assets                                                             13,846,601                         11,117,038                           11,117,038




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Liabilities
Non-Federal
Accounts Payable                                                             (4,678)                            (3,694)                               (3,694)
Federal Debt Securities Held by the                                      (7,559,305)                        (5,812,694)                           (5,812,694)
Public
Federal Employee and Veteran                                                   (576)                               (630)                               (630)
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                          0                                  0                                     0
Loan Guarantee Liabilities                                                        0                                  0                                     0
Keepwell payable                                                            (91,937)                           (13,800)                                    0
Insurance Programs                                                              (22)                               (17)                                  (17)
Other Liabilities                                                           (83,334)                           (32,457)                              (46,257)
Total Non-Federal Liabilities                                            (7,739,852)                        (5,863,292)                           (5,863,292)

Federal
Accounts Payable                                                                (98)                              (111)                                 (111)
Federal Debt                                                             (4,365,592)                        (4,226,059)                           (4,226,059)
Interest Payable                                                            (49,545)                           (50,519)                              (50,519)
Loans Payable                                                                     0                                  0                                     0
Transfers Payable                                                                 0                                  0                                     0
Benefit Program Contributions                                                  (215)                              (199)                                 (199)
Payable
Advances from Others and Deferred                                                (40)                                (40)                                (40)
Credits
Other Liabilities (without reciprocals)                                  (1,263,203)                            (667,107)                           (667,107)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                      01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2009                            Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:   ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                  Previously Reported
Total Federal Liabilities                                                (5,678,693)                         (4,944,035)                      (4,944,035)
Total Liabilities                                                       (13,418,545)                        (10,807,327)                     (10,807,327)

Net Position
Net Position-Non-Earmarked Funds                                           (386,203)                           (271,925)                        (271,925)
Net Position-Earmarked Funds                                                (41,853)                            (37,786)                         (37,786)
Total Net Position                                                         (428,056)                           (309,711)                        (309,711)
Total Liabilities and Net Position                                      (13,846,601)                        (11,117,038)                     (11,117,038)




                                                                                              -3-
                                                                       U.S Department of the Treasury                                          01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2009                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Beginning Net Position                                                     (309,711)                            (121,099)                           (121,099)
Non-Federal Prior Period                                                          0                                    0                                   0
Adjustments (Not Restated)
Federal Prior Period Adjustments                                                   0                                   0                                      0
(Not Restated)
Adjusted Beginning Net Position                                            (309,711)                            (121,099)                           (121,099)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                            (1,696,928)                        (1,924,978)                           (1,924,978)
Witholdings
Corporation Income Taxes                                                   (130,282)                          (299,723)                             (299,723)
Unemployment Taxes                                                           (6,656)                            (7,212)                               (7,212)
Excise Taxes                                                                (64,978)                           (64,644)                              (64,644)
Estate and Gift Taxes                                                       (23,429)                           (28,802)                              (28,802)
Custom Duties                                                                     0                                  0                                     0
Other Taxes and Receipts                                                    (42,279)                           (40,824)                              (40,824)
Miscellaneous Earned Revenue                                                (23,472)                                 0                                     0
Total Non-Federal Nonexchange                                            (1,988,024)                        (2,366,183)                           (2,366,183)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                0                                   0                                      0
Borrowing and other interest revenue                                               0                                   0                                      0
Benefit Program Revenue                                                            0                                   0                                      0
(nonexchange)
Other taxes and receipts                                                           0                                   0                                      0




                                                                                              -4-
                                                                       U.S Department of the Treasury                                          01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2009                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                        2008-SEPTEMBER                     Previously Reported
Total Federal Nonexchange Revenue                                                   0                                  0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                        (851,318)                            (681,362)                           (681,362)
(rescissions and other adjustments)
Appropriation of unavailable special                                                0                                  0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               26                                  0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                   (11)                                (24)                                (24)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                     5                                 10                                  10
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                            (10)                                (13)                                (13)
sources
Expenditure Transfers-out of                                                     (61)                                 13                                  13
financing sources
Other budgetary financing sources                                         2,010,881                         2,382,312                              2,382,312
Total Budgetary Financing Sources                                         1,159,512                         1,700,936                              1,700,936

Other Financing Sources:
Transfers-in Without Reimbursement                                                  5                                  0                                   0
Transfers-out Without                                                              31                                 21                                  21
Reimbursement
Imputed Financing Source                                                       (793)                               (729)                               (729)




                                                                                               -5-
                                                                       U.S Department of the Treasury                                          01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2009                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                      Previously Reported
Other non-budgetary financing                                               187,992                                7,992                               7,992
sources
Total Other Financing Sources                                               187,235                                7,284                               7,284


Net Cost                                                                    522,932                             469,351                             469,351

Ending Net Position Balance                                                (428,056)                            (309,711)                           (309,711)




                                                                                              -6-
                                                                       U.S Department of the Treasury                                         01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2009                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                     Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                      227,278                              32,995                             32,995
Interest on Debt Held by the Public                                         189,148                             241,578                            241,578
Total Non-Federal Gross Cost                                                416,426                             274,573                            274,573

Federal Gross Cost
Benefit Program Costs                                                         1,960                               1,851                              1,851
Imputed Costs                                                                   794                                 730                                730
Buy/Sell Costs                                                                1,635                               1,743                              1,743
Federal Securities Interest Expense                                         191,997                             212,423                            212,423
Borrowing and Other Interest                                                  6,534                               5,044                              5,044
Expense
Borrowing Losses                                                                  0                                   0                                  0
Other Expenses (without reciprocals)                                              1                                   0                                  0
Total Federal Gross Cost                                                    202,921                             221,791                            221,791
Department Total Gross Cost                                                 619,347                             496,364                            496,364

Earned Revenue
Non-Federal Earned Revenue                                                  (77,066)                            (12,398)                            (12,398)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                 0                                   0
Buy/Sell Revenue                                                              (1,371)                             (332)                               (332)
Federal Securities Interest Revenue                                                0                                 0                                   0
(exchange)
Borrowing and Other Interest                                                (16,630)                            (14,239)                            (14,239)
Revenue (Exchange)




                                                                                              -7-
                                                                       U.S Department of the Treasury                                         01-07-2010 06:28:24
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2009                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2009-SEPTEMBER                       2008-SEPTEMBER                     Previously Reported
Borrowings Gains                                                             (2,497)                                (44)                                (44)
Other Revenue (without reciprocals)                                           1,149                                   0                                   0
Total Federal Earned Revenue                                                (19,349)                            (14,615)                            (14,615)

Department Total Earned Revenue                                             (96,415)                            (27,013)                            (27,013)

Net Cost                                                                    522,932                             469,351                            469,351




                                                                                              -8-
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        Note 33, Note 1A,

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Federal Reserve Earnings                                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Treasury securities Credit                      769,160                    476,627                     476,627                          0
                including those
                held by the Federal
                Reserve Bank
                (FRB)
 2              FRB earnings on     Credit                       34,318                     33,598                      33,598                          0
                Treasury securities
                that exceed the
                statutory amount.

       Section: B             Section Name: Related Parties ¿ External to the Reporting Entity for      No Data Flag: YES          Line Attributes: Dollars
                                            the Financial Report                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                              01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                    Agency Notes:       Note 33, Note 1A,

 Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to   Housing Finance Agency Initiative
                   the agency's audited financial statements being issued.
                                                                                                                   Under the Housing and Economic Recovery Act (HERA) of 2008, the Treasury
                                                                                                                   Department, together with the Federal Housing Finance Agency, Fannie Mae, Freddie
                                                                                                                   Mac, and the Department of Housing and Urban Development announced in October
                                                                                                                   2009 an initiative to provide support to state and local housing finance agencies
                                                                                                                   (HFAs). HFAs have historically played a central role in providing a safe, sustainable
                                                                                                                   path to homeownership for working families in all 50 states and many localities across
                                                                                                                   the country. This initiative will continue to support low mortgage rates and expand
                                                                                                                   resources for low and middle income borrowers to purchase or rent homes, making
                                                                                                                   them more affordable over the long term. The HFA Initiative includes two separate
                                                                                                                   programs: (1) the Temporary Credit and Liquidity Program (TCLP) and (2) the New
                                                                                                                   Issue Bond Program (NIBP).

                                                                                                                   The Treasury Department has received preliminary apportionments in the amounts of
                                                                                                                   $9 billion for the TCLP and $19 billion for the NIBP. On December 4, 2009, Treasury
                                                                                                                   entered into a participation interest under the TCLP with the Pennsylvania Housing
                                                                                                                   Finance Agency. As of this date, however, no bonds have been provided to Fannie
                                                                                                                   Mae or Freddie Mac requiring the Treasury Department to disburse funds. On
                                                                                                                   December 9, 2009, under the NIBP, the Treasury Department entered into an obligation
                                                                                                                   of approximately $7 billion to purchase securities of Fannie Mae and Freddie Mac which
                                                                                                                   are backed by HFA revenue bonds and/or escrow funds.

                                                                                                                   Troubled Asset Relief Program

                                                                                                                   On December 9, 2009, the Secretary of the Treasury, pursuant to Section 120(b) of
                                                                                                                   EESA, certified that he was extending the spending authority provided under the Act to
                                                                                                                   October 3, 2010. The spending authority was originally set to expire on December 31,
                                                                                                                   2009. This extension was necessary to assist American families and stabilize financial
                                                                                                                   markets because it will, among other things, enable the Treasury Department to
                                                                                                                   continue to implement programs that address housing markets and the needs of small
                                                                                                                   businesses, and to maintain the capacity to respond to unforeseen threats to the
                                                                                                                   economy stemming from financial instability.

                                                                                                                   On December 9, 2009, Bank of America repaid all amounts received under the CPP
                                                                                                                   and TIP totaling $45 billion plus dividends accrued since November 15, 2009, thereby
                                                                                                                   terminating its participation in TARP. The Treasury Department still holds the warrants
                                                                                                                   issued under these programs, but has no other investment in Bank of America.

2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).              On November 1, 2009, a CPP participant, CIT Group, filed for Chapter 11 Bankruptcy.
                                                                                                                   The Treasury Department had invested $2.3 billion in senior preferred shares of CIT
                                                                                                                   Group and received a warrant for the purchase of common shares. Treasury does not
                                                                                                                   expect a significant recovery of its preferred stock investment. As such, this investment
                                                                                                                   has been reduced to zero. The ultimate amount received, if any, from this investment
                                                                                                                   will depend on the outcome of the bankruptcy proceedings.


                                                                                                            -2-
                                                                                                                                                                                              01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:      Note 33, Note 1A,

 Status: Complete                        The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                       Answer
                                                                                                                  On November 6, 2009, a CPP participant, United Commerce Bank, was closed by its
                                                                                                                  regulators. The Treasury Department had invested approximately $298.7 million in
                                                                                                                  senior preferred stock and received a warrant for the purchase of the common stock.
                                                                                                                  The value of these shares, including the warrant, reflected in these financial statements
                                                                                                                  is approximately $22.5 million as of September 30, 2009. The ultimate amount
                                                                                                                  received, if any, from this investment will depend on the outcome of the receivership.

                                                                                                                  In November 2009, a CPP participant, Pacific Coast National Bank, was closed by its
                                                                                                                  regulators. The Treasury Department had invested approximately $4.1 million in senior
                                                                                                                  preferred stock and received a warrant for preferred stock in the amount of $0.2 million.
                                                                                                                  The value of these shares, including the warrant, reflected in these financial statements
                                                                                                                  is approximately $0.15 million as of September 30, 2009. The ultimate amount
                                                                                                                  received, if any, from this investment will depend on the outcome of the receivership.

                                                                                                                  On December 11, 2009, the Treasury Department announced that it priced a secondary
                                                                                                                  public offering of 88,401,697 warrants to purchase common stock of JPMorgan Chase
                                                                                                                  & Co. at $10.75 per warrant. The net proceeds to the Treasury Department are
                                                                                                                  expected to be approximately $936 million. These proceeds are in addition to the
                                                                                                                  dividend payments received on the related preferred stock. Closing is expected to
                                                                                                                  occur on or about December 16, 2009.

                                                                                                                  Legal Contingency

                                                                                                                  Cobell, et al. v. Salazar

                                                                                                                  On December 8, 2009, a settlement was announced related to the claims raised in this
                                                                                                                  lawsuit, as well as other claims for the mismanagement of assets and land. The
                                                                                                                  settlement is contingent on the passage of new legislation to authorize the settlement
                                                                                                                  terms and court approval, which would not occur until March 2010 at the earliest. If
                                                                                                                  Congress enacts authorizing legislation, the Government will pay $12 million
                                                                                                                  immediately to fund notice to the class. If the court approves the settlement after notice
                                                                                                                  to the class, the government will pay an additional $1.4 billion from the Judgment Fund
                                                                                                                  to settle the claims for an historical accounting and for mismanagement of assets and
                                                                                                                  land. The Government will also make available an additional sum of $2 billion from the
                                                                                                                  Judgment Fund to purchase numerous small interests in land from Native Americans,
                                                                                                                  as well as for other purposes. It has not been determined which federal agency will be
                                                                                                                  assigned responsibility for the payment through the Judgment Fund.

3                  Describe any change in accounting if a collecting entity adopts accounting standards that      The following subsequent events occurred after issuance of the Department¿s AFR:
                   embody a fuller application of accrual accounting concepts that differs from that prescribed
                   by the standard-SFFAS no. 7, par.64.                                                           On December 24, 2009, the Treasury Department announced that it is amending the
                                                                                                                  terms of the Preferred Stock Purchase Agreements (PSPAs) in association with Fannie
                                                                                                                  Mae and Freddie Mac. Treasury is amending the PSPAs to allow the cap on
                                                                                                                  Treasury¿s funding commitment under these agreements to increase as necessary to
                                                                                                                  accommodate any cumulative reduction in net worth over the next three years. At the


                                                                                                           -3-
                                                                                                                                                                                               01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:       Note 33, Note 1A,

 Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                       Answer
                                                                                                                  conclusion of the three year period, the remaining commitment will then be fully
                                                                                                                  available to be drawn per the terms of the agreements.

                                                                                                                  On December 30, 2009, the US Treasury, through the Office of Financial Stability
                                                                                                                  entered into the following transaction with GMAC Inc. (GMAC¿) to assist it in complying
                                                                                                                  with the requirements of the Federal Reserve Board¿s Supervisory Capital Assessment
                                                                                                                  Program:
                                                                                                                  1) Purchased $2.54 billion of 8.0% Trust Preferred Securities and received a warrant for
                                                                                                                  an additional $127 million of the Trust Preferred Securities, which was immediately
                                                                                                                  exercised. GMAC issued $2.747 billion of subordinate debentures to a trust,
                                                                                                                  established by GMAC, which in turn issued the trust preferred securities. The trust
                                                                                                                  preferred securities pay cumulative cash distributions of 8%. GMAC may deferred
                                                                                                                  payments on the debentures (and the trust may defer payments on the trust preferred
                                                                                                                  securities) for a period of up to 20 consecutive quarters, but such distributions will
                                                                                                                  continue to accrue through any such deferral period. The Trust Preferred Securities
                                                                                                                  have no stated maturity date, but must be redeemed upon the redemption or maturity of
                                                                                                                  the debentures (February 15, 2040).
                                                                                                                  2) Purchased $1.25 billion of GMAC¿s Series F-2 Fixed Rate Cumulative Mandatorily
                                                                                                                  Convertible Preferred Stock, (MCP or Series F-2), $50 liquidation preference per
                                                                                                                  share. The MCP is convertible into GMAC common stock at the option of GMAC
                                                                                                                  subject to the approval of the Federal Reserve and consent by the US Treasury or
                                                                                                                  pursuant to an order by the Federal Reserve compelling such conversion. The MCP is
                                                                                                                  convertible at the option of the US Treasury upon certain specified corporate events.
                                                                                                                  Absent an optional conversion, the MCP will automatically convert after 7 years from
                                                                                                                  the issuance date. The initial conversion rate is .00432 and is subject to a "reset" such
                                                                                                                  that the conversion price will be adjusted in 2011, if beneficial to Treasury, based on the
                                                                                                                  market price of private capital transactions occurring in 2010 and certain anti-dilution
                                                                                                                  provisions. The MCP will pay cash dividends at a rate of 9% and may be redeemed by
                                                                                                                  GMAC, subject to certain limitations and restrictions. The US Treasury also received a
                                                                                                                  warrant to purchase $62.5 million of additional MCP, which was immediately exercised.
                                                                                                                  3) Exchanged $5,250,000 shares of Fixed rate Cumulative Perpetual Preferred shares
                                                                                                                  and 97,500,000 shares of Mandatorily Convertible Preferred Stock, previously
                                                                                                                  purchased into 202,500,000 shares of Series F-2.
                                                                                                                  4) Converted 60,000,000 shares of previously purchased Mandatorily Convertible
                                                                                                                  Preferred Stock into 259,200 shares of GMAC common stock. GMAC also paid any
                                                                                                                  accrued and unpaid dividends on the converted shares in cash.


4                  List all of the agency's components whose balances and activities are not combined into the    N/A
                   agency's financial statements and therefore, are not represented in the GFRS data.
5                  List all of the agency's components whose balances and activities are combined into the        Bureau of Engraving and Printing, Bureau of the Public Debt, Community Development
                   agency's financial statements, and, therefore, are represented in the GFRS data.               Fin Institutions, D.C. Pension Fund, Departmental Offices, Exchange Stablization Fund,
                                                                                                                  Federal Financing Bank, Financial Crimes Enforcement, Financial Management
                                                                                                                  Services, Internal Revenue Service, U.S. Mint, International Assistance Program, Office
                                                                                                                  of Comptroller of Currency, Office of Financial Stablisity, Office of Inspector General,


                                                                                                         -4-
                                                                                                                                                                                               01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:       Note 33, Note 1A,

 Status: Complete                        The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
                                                                                                                   Office of Thrift Supervision, Special Inspector General TARP, Treasury Forfeiture Fund,
                                                                                                                   Treasury IG for Tax Admin, Tax and Trade Bureau
6                  Describe the nature of the related party relationship and transactions pertaining to the        N/A
                   amount in the Other Notes Info tab, Related party receivables line.
7                  Describe the nature of the related party relationship and transactions pertaining to the        N/A
                   amount in the Other Notes Info tab, Related party payables¿ line.
8                  Describe the Other Notes Info tab, Related party operating revenue transactions along with      N/A
                   the related party relationship and include transactions with zero or nominal balances,
                   guarantees, and other terms. Also, describe changes in related party terms.
9                  Describe the Other Notes Info tab, Related party net cost of operations transactions along      N/A
                   with the related party relationship and include transactions with zero or nominal balances,
                   guarantees, and other terms. Also, describe changes in related party terms.
10                 Describe related party economic dependency (that is, major customers, suppliers,                N/A
                   franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                   and transactions included in the Other Notes Info tab, Related party economic dependency
                   transactions section.
11                 Provide details on the investments in related parties.                                          N/A
12                 Provide details on related party leases.                                                        N/A
13                 Describe control relationships with entities under common ownership, management control,        N/A
                   and conservatorship if the operating results or financial position could be significantly
                   impacted as a result of the relationship. Include control relationships with and without
                   transactions.
14                 Provide any other useful information on related parties.                                        See Note 29
15                 Provide any other relevant information pertaining to this note.                                 Federal Debt Held by the Public includes federal debt held outside of the U. S.
                                                                                                                   Government by individuals, corporations, Federal Reserve Banks (FRB), state and
                                                                                                                   local governments, foreign governments and central banks. As of September 30, 2009,
                                                                                                                   the FRB had total holdings of $769 billion, with a very small amount lent to dealers and
                                                                                                                   not collateralized by other Treasury securities. As of September 30, 2008, the FRB
                                                                                                                   owned $221
                                                                                                                   billion, net of $256 billion in securities lent to dealers and not collateralized by other
                                                                                                                   Treasury securities, for total holdings of $477 billion. These securities are held in the
                                                                                                                   FRB System Open Market Account (SOMA) for the purpose of conducting monetary
                                                                                                                   policy.




                                                                                                           -5-
                                                                                                                                                                                              01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                 Fiscal Year: 2009                      Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                    Agency Notes:         Notes 6, 7, 14

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                  Type
Cash and Other Monetary Assets                                             D        A                   365,815                 403,010
                                                                               Variance:                      0                       0            Rounding Method: Millions              Decimal: Zero
Line Status Line Description             2009 - SEPTEMBER            2008 - SEPTEMBER               Previously Rptd            Line Item Changes
 1           Operating Cash- not
             restricted
 2           Operating Cash-                               269,052                    364,273                     364,273                               0
             restricted
 3           Other cash - not                                 343                          427                           406                         21
             restricted
 4           Other cash - restricted                           226                        339                         339                               0
 5           International monetary                         71,414                     14,167                      14,167                               0
             assets
 6           Gold                                           11,062                     11,041                      11,041                               0
 7      I    Domestic monetary                                                                                         21
             assets
 8           Foreign currency                               13,718                     12,763                      12,763                                0
             Total                                         365,815                    403,010                     403,010                               21
Threshold

 Line Description                                               Question                                                            Answer
 Line Item Notes - Operating Cash- restricted (2009 -           Please provide explanations for any amounts that have               Government-wide cash flow decreased
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - not restricted (2009 -          Please provide explanations for any amounts that have               Cash for the near future and fluctuates daily.
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - restricted (2009 -              Please provide explanations for any amounts that have               Seized property cash decreased.
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - International monetary assets (2009 -        Please provide explanations for any amounts that have               Purchase of Special Drawing Rights
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -6-
                                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                                 Fiscal Year: 2009                       Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:          Notes 6, 7, 14

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                              Decimal: Zero
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              IMF Letter of Credit Debit                       53,056                     53,012                     53,012                               0
                - available balance
 2              Reserve Position in Debit                        13,469                      4,750                         4,750                            0
                the IMF
 3              SDR Holdings-        Debit                       57,961                      9,464                         9,464                            0
                Exchange
                Stabilization Fund
 4              SDR Certificates     Debit                        5,200                      2,200                         2,200                            0
                outstanding with
                the FRB
 5              Interest bearing     Credit                     -55,953                     -7,630                         7,630                  -15,260
                liability to the IMF
                for SDR Allocations
 6              Gold certificates    Credit                     -11,037                    -11,038                    -11,308                             270
       Section: B              Section Name: Gold                                                                                    Line Attributes: Units


Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Number of fine troy    N/A             261,498,900.0000          261,498,900.0000           261,498,900.0000                         .0000
                ounces of gold
 2              Statutory price of 1   N/A                     42.2222                     42.2222                    42.2222                        .0000
                fine troy ounce of
                gold
 3              Market value of 1      N/A                    995.7500                   884.5000                   884.5000                         .0000
                fine troy ounce of
                gold




                                                                                                         -7-
                                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 02           Cash and Other Monetary Assets                                                                                    Fiscal Year: 2009                    Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                         Agency Notes:      Notes 6, 7, 14

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   This is mainly comprised of reported by the FMS as Other listed in Note 6 of the
                                                                                                                       Department's AFR. It is mainly cash expected to be included in Operating Cash in the
                                                                                                                       near future. It fluctuates daily.
2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and       It is mainly non-entity tax related deposits in the U.S. Territories held by the Internal
                   any statutory authority (law, regulation, or agreement).                                            Revenue Service that cannot be used in its operations. It also inlcudes seized cash
                                                                                                                       reported by the Treasury Forfeiture Fund.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    Internal Revenue Service - held for taxpayers. Treasury Forfeiture Fund - individuals
                   held.                                                                                               or entities who own the seized cash.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     The Office of Internation Affairs maintains funds at the Federal Reserve Bank in New
                   designated bank?                                                                                    York that are restricted for use by the IMF. The articles of agreement with the IMF
                                                                                                                       provicde for return of these funds should the U.S. withdraw from the IMF. Other
                                                                                                                       restricted assets are held at Treasury designated financial institutions.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   Invested cash is displayed on the balance sheet as investments rather than cash.
                   Bureau of the Public Debt security, agency security, and/or non-Federal security?                   Accordingly, it is not displayed on the balance as cash. Investments in BPD securities
                                                                                                                       are eliminated from the Department's balance sheet.
6                  Describe the nature of the amount in the line item "Foreign currency."                              Foreign cash is held by the Exchange Stablization Fund. All operations of the ESF
                                                                                                                       require the explicit authority of the Secretary of the Treasury. FMS Operating Cash
                                                                                                                       also holds foreign currency in a custodial capacity for the use of the entire U.S.
                                                                                                                       Government.
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the         N/A
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury                 Treasury exchange rate
                   exchange rate or prevailing market rate).
9                  Provide any other relevant information pertaining to this note.




                                                                                                                -8-
                                                                                                                                                                                              01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                 Fiscal Year: 2009                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                    Agency Notes:        Note 15

  Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                   Type
Accounts and Taxes Receivable                                               D        A                    30,432                 30,950
                                                                                Variance:                      0                      0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2009 - SEPTEMBER              2008 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Accounts receivable,                                57                         395                         395                            0
             gross
 2           Related interest                                 1,297                      1,556                       1,556                             0
             receivable - accounts
             receivable
 3           Penalties, fines, and                               14                           8                           8                            0
             administrative fees
             receivable
 4           Less: allowance for                                 -3                          -2                          -2                            0
             loss on accounts
             receivable
 5           Less: allowance for                                 -8                         -10                         -10                            0
             loss on interest
             receivable
 6           Less: allowance for                                 -6                          -8                          -8                            0
             loss on penalties,
             fines, and admin. fees
             rec.
 7           Taxes receivable,                              128,108                    112,057                     112,057                             0
             gross
 8           Less: allowance for                            -99,027                    -83,046                     -83,046                             0
             loss on taxes
             receivable
             Total                                           30,432                     30,950                      30,950                             0
Threshold

 Line Description                                                Question                                                          Answer
 Line Item Notes - Accounts receivable, gross (2009 -            Please provide explanations for any amounts that have             Due to decrease in receivables for Deposit of earnings.
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Related interest receivable - accounts        Please provide explanations for any amounts that have             Deacrease in interest received from Tax and Loan Depositaries.
 receivable (2009 - SEPTEMBER)                                   changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Taxes receivable, gross (2009 -               Please provide explanations for any amounts that have             IRS uses a model that recalcutes taxes receivables at the end of each fiscal
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between        year.
                                                                 the current fiscal year and prior fiscal year. (Unaudited)



                                                                                                        -9-
                                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                     Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       Note 15

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                         Line Attributes: Dollars
                                           Labor and Homeland Security)                                                            Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2009 - SEPTEMBER              2008 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1              Interest on         Debit                            8                             10                        10                           0
                uncollectible
                accounts (SFFAS
                No. 1, par. 55)




Tab: Text Data
 Line                Question                                                                                           Answer
 1                   Describe the method(s) used to calculate the allowances on accounts receivable.                    Allowances are calculated differently by each Treasury bureau depending on the nature
                                                                                                                        of the balaces.
 2                   Describe the method(s) used to calculate the allowance on taxes receivable.                        IRS - Uses a sophisticated model to estimate both taxes receivable and the allowance.
                                                                                                                        TTB uses aging, analysis of individual accounts, analysis of offers in compromise etc.
 3                   Explain any material difference between the balance of accounts receivable and the                 No known material differences
                     amounts reported on the Treasury Report on Receivables.
 4                   Provide any other relevant information pertaining to this note.                                    NA




                                                                                                          - 10 -
                                                                                                                                                                                      01/07/2010 06:16:24

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable                                                                                      Fiscal Year: 2009                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                   Agency Notes:      Notes 13, 8, 12

  Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                               Type
Loans Receivable                                                        D        A                   422,479                     3,557
                                                                            Variance:                      0                         0         Rounding Method: Millions          Decimal: Zero
Line Status Line Description           CY: Face Value of Loans     CY: Long-Term Cost of           CY Net Loans             PY: Face Value of Loans      PY: Long-Term Cost of         PY Net Loans
                                              Oustanding                      Loans                                                Oustanding                       Loans
 13          GSE Mortgage Backed                       173,326                   -11,093                       184,419                         3,311                       -74                    3,385
             Securities Purchase
             Program - Treasury
 14          Investments - Credit                      229,607                      26,466                     203,141
             Reform TARP
 15          Credit Program                             61,362                      26,611                      34,751
             Receivable, Direct
             Loans - TARP
 16
 17
 18
 19          All other loans                               186                          18                            168                        190                         18                       172
             receivable
             Total                                      464,481                     42,002                     422,479                          3,501                       -56                    3,557




                                                                                                   - 11 -
                                                                                                                                                                                            01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable                                                                                       Fiscal Year: 2009                    Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                    Agency Notes:          Notes 13, 8, 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Subsidy Expense                                                                       Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd       Line Item Changes
13             GSE Mortgage          Debit
               Backed Securities
               Purchase Program
               - Treasury
14             Loans to Non-Feds     Debit                          20                         20                          20                            0
               - Including Foreign
15             Mortgage backed       Debit                                                                                -74                           74
               Securities
               Purchase Program
16             Investment - Credit   Debit                      17,574
               Reform TARP
17             Credit Program        Debit                      26,032
               Receivable, Direct
               Loans, TARP
18             GSE Mortgage          Debit                     -12,892                        -54                                                      -54
               Backed Securities
19             All other loans       Debit
               receivable
20             Total                 N/A                        30,734                        -34                         -54                           20
       Section: B             Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.          No Data Flag: YES            Line Attributes: Dollars
                                            91)                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd       Line Item Changes
 1             Balances for          Debit
               property held Pre-
               1992
 2             Balances for          Debit
               property held Post-
               1991




                                                                                                       - 12 -
                                                                                                                                                                                             01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 04A        Direct Loans Receivable                                                                                        Fiscal Year: 2009                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                    Agency Notes:       Notes 13, 8, 12

 Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
1                Provide a broad description of foreclosed property.                                             N/A
2                Provide any other relevant information pertaining to this note.                                 The Emergency Economic Stabilization Act of 2008 (EESA) established the Troubled
                                                                                                                 Asset Relief Program (TARP) on October 3, 2008 to be administered by the Treasury
                                                                                                                 Department and established the Office of Financial Stability within the Department¿s
                                                                                                                 Office of Domestic Finance. The Act gave the Treasury Secretary broad and flexible
                                                                                                                 authority to purchase and insure mortgages and other troubled assets, as well as to
                                                                                                                 inject capital into banks and other commercial companies by taking equity positions in
                                                                                                                 those entities, if needed, to stabilize the financial markets or an industry. The TARP is
                                                                                                                 intended to promote market stability and protect the U.S. economy by authorizing
                                                                                                                 Treasury Department to purchase and guarantee troubled mortgage-related assets and
                                                                                                                 other financial assets. EESA also provides for the purchase of any other financial
                                                                                                                 instruments that the Secretary determines, after consultation with the Federal Reserve
                                                                                                                 Banks¿ Board Chairman, is necessary in order to promote financial market stability.

                                                                                                                 The EESA established certain criteria under which the TARP would operate, including
                                                                                                                 provisions that impact the budgeting, accounting, and reporting of troubled assets
                                                                                                                 acquired under the Act. Section 101(a) of the EESA provided the authority for the
                                                                                                                 Secretary to purchase troubled assets, and Section 101(a)(3) of the EESA established
                                                                                                                 the Office of Financial Stability (OFS) to implement the TARP. Section 102 of the
                                                                                                                 EESA required the Secretary to establish a program to guarantee troubled assets
                                                                                                                 originated or issued prior to March 14, 2008, including mortgage-backed securities.
                                                                                                                 Section 115 of the EESA limits the authority of the Secretary to purchase troubled
                                                                                                                 assets to $700 billion outstanding at any one time, calculated at the aggregate
                                                                                                                 purchase prices of all troubled assets held. There was approximately $291 billion
                                                                                                                 outstanding (the amount on the original investment that is due to be repaid to Treasury)
                                                                                                                 against the Section 115 authority as of September 30, 2009. Section 120 of the EESA
                                                                                                                 established that the authorities under Sections 101(a), excluding Section 101(a)(3) and
                                                                                                                 Section 102 of the EESA shall terminate on December 31, 2009. Section 120 of the
                                                                                                                 EESA further establishes that the Secretary, upon submission of a written certification
                                                                                                                 to Congress, may extend the authority provided under the Act to expire no later than 2
                                                                                                                 years from the date of the enactment of the Act (October 3, 2008).

                                                                                                                 TARP has engaged in purchases of equity including preferred stock and common stock
                                                                                                                 Warrants from financial institutions and insurance companies. In addition, the TARP
                                                                                                                 has established a guarantee program for financial institutions. TARP has made direct
                                                                                                                 loans as well as equity investments in preferred stock to support the automotive
                                                                                                                 industry and to unfreeze secondary credit markets. TARP funds are being used to help
                                                                                                                 families stay in their homes. TARP also has funded an initiative to address the
                                                                                                                 challenge of legacy assets in the financial marketplace.




                                                                                                    - 13 -
                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                               Agency Notes:      no data

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2009 - SEPTEMBER            2008 - SEPTEMBER                Previously Rptd        Line Item Changes
 9           Air Transportation
             Stabilization Board
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 14 -
                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 04B          Loan Guarantees                                                                                             Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:    no data

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                               No Data Flag: YES           Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                  Decimal: Zero
Line Status Line Description         NB          CY Face Value of           CY Amount Guaranteed     CY Subsidy Expense D    PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                             Loans Outstanding D             by the Government D                                    Outstanding D        the Government D
 9             Air Transportation    N/A
               Stabilization Board
13                                   N/A
14                                   N/A
15                                   N/A
16                                   N/A
17                                   N/A
18          All other loans          N/A
            guarantee liabilities
19          Total:                   N/A
Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                        Answer
 1                  Provide any other relevant information pertaining to this note.




                                                                                                       - 15 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                             Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        Note 16

  Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2009 - SEPTEMBER         2008 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          598                  698
                                                                            Variance:                         0                    0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2009 - SEPTEMBER            2008 - SEPTEMBER               Previously Rptd            Line Item Changes
 1          Gross Inventory -                              698                          644                           644                            0
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized                                    710                          815                           815                            0
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used                        -770                        -755                         -755                              0
 6          Total allowance for                            -40                          -6                           -6                              0
            inventories and related
            property
            Total                                           598                         698                           698                            0




                                                                                                   - 16 -
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                                Fiscal Year: 2009              Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        Note 16

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                     Decimal: Zero
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating material
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit                           17                         16                          16                          0
                and supplies held
                for use
 6              Operating materials     Debit                           24                         24                          24                          0
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit                           62                        100                         100                          0
11              Other related           Debit                          509                        576                         576                          0
                property
12              Total allowance for     Credit                          14                         18                          18                          0
                inventories and
                related property
13              Total inventories        N/A                           598                        698                         698                          0
                and related
                property, net




                                                                                                           - 17 -
                                                                                                                                                                                      01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                             Fiscal Year: 2009              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        Note 16

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES            Line Attributes: Dollars
                                             by Trading Patrner                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                                                     Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Seized property      Debit                         637                        661                         661                          0
 2              Forfeited property   Debit                          52                         86                          86                          0
 3              Goods held under     Debit                           0
                price support and
                stabilization
                programs




                                                                                                       - 18 -
                                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                            U.S. Department of the Treasury
                                                                                             Financial Management Service
                                                                                        Governmentwide Financial Report System
                                                                                                GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                                Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:       Note 16

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                                              Line Attributes: Units


Line Status Line Description           NB      2009 - SEPTEMBER                 2008 - SEPTEMBER             Previously Rptd         Line Item Changes
 1              Seized property       N/A                   28,788.0000                    26,506.0000            26,506.0000                        .0000
 2              Forfeited property    N/A                   12,939.0000                    11,171.0000            11,171.0000                        .0000
 3              Goods held under      N/A
                price support and
                stabilization
                programs



Tab: Text Data
 Line                Question                                                                                          Answer
 1                   Method used to calculate allowance for each category of inventory.                                All inventory that is not for sale has an allowance of 100% of the original value.
 2                   Significant accounting principles and methods of applying those principles.                       Inventory and related property includes inventory, operating materials and supplies and
                                                                                                                       forfeited property held by Treasury. Treasury's operating materials and supplies are
                                                                                                                       maintained for the production of bureau products. Treasury maintains inventory
                                                                                                                       accounts or balances for use in manufacturing currency and coins. The cost of these
                                                                                                                       items is included in inventory costs and is recorded as cost of goods sold upon delivery
                                                                                                                       to customers. Inventory for check processing activities is also maintained.
 3                    Provide any other relevant information pertaining to this note.                                  N/A




                                                                                                         - 19 -
                                                                                                                                                                                     01/07/2010 06:16:24

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                           Fiscal Year: 2009                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                               Agency Notes:        Note 6

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                     2,036                2,077
                                                                            Variance:                      1                2,077            Rounding Method: Millions           Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                    PY PP&E             PY Accum. Depr.                PY Net PP&E
 1          PP&E - balance                               6,059                       3,982                       2,077                    5,781                          3,695                   2,086
            beginning of year
 2          Prior-period                                                                                                                         1                                                    1
            adjustments (not
            restated)
 3          Capitalized                                     417                                                       417                     434                                                   434
            acquisitions from the
            public
 4          Capitalized                                      45                                                        45                      50                                                    50
            acquisitions from
            Government agencies
 5          Deletions from the                             -776                       -718                            -58                    -207                        -166                       -41
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     445                       -445                                                    453                     -453
            on
            Total                                          5,745                      3,709                       2,036                      6,059                       3,982                    2,077




                                                                                                   - 20 -
                                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                  Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:        Note 6

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Gross cost for PP&E for each category                                                   Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB       2009 - SEPTEMBER             2008 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1              Buildings,              Debit                         676                         669                         669                           0
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                       3,048                       3,377                        3,377                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit                          38                          35                          35                           0
                progress
 4              Land and Land           Debit                          12                          12                          12                           0
                Rights
 5              Internal use            Debit                       1,464                       1,356                        1,356                          0
                software
 6              Assets under            Debit                          25                          29                          29                           0
                capital lease
 7              Leasehold               Debit                         482                         580                         580                           0
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                         5,745                       6,058                        6,058                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                            Answer
 Other Notes Info - Furniture, fixtures, and equipmen               Please provide explanations for any amounts that have               This is not significant to the Department and is not covered in the
 (including aircraf,ships, vessels, small boats, and vehicles)      changed by 10% or more and or greater than 500,000                  flunctuation analysis for our statements
 (2009 - SEPTEMBER)                                                 between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Assets under capital lease (2009 -              Please provide explanations for any amounts that have               The Department has an insignificant amount of capital leases. Most relate
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                  to the Internal Revenue Service and a fluctuations of this amount is not
                                                                    between the current fiscal year and prior fiscal year.              significant.
                                                                    (Unaudited)



                                                                                                             - 21 -
                                                                                                                                                                                                      01/07/2010 06:16:24

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                     Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                         Agency Notes:        Note 6

  Status: Complete                               The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: A               Section Name: Gross cost for PP&E for each category                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                            Decimal: Zero
Threshold
 Line Description                                                    Question                                                             Answer
 Other Notes Info - Leasehold improvements (2009 -                   Please provide explanations for any amounts that have                This is not significant to the Department and is not covered in the
 SEPTEMBER)                                                          changed by 10% or more and or greater than 500,000                   flunctuation analysis for our statements.
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (Unaudited)




       Section: B               Section Name: Accumulated Depreciation/Amortization                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER                  Previously Rptd       Line Item Changes
 1              Buildings,              Credit                         308                         297                          297                           0
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                       2,268                       2,608                         2,608                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                         807                         664                          664                           0
                software
 4              Assets under            Credit                          23                          20                            20                          0
                capital lease
 5              Leasehold               Credit                         303                         392                          392                           0
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                        -3,709                      -3,981                        -3,981                          0
                depreciation/amorti
                zation




                                                                                                              - 22 -
                                                                                                                                                                                                01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                    Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                       Agency Notes:        Note 6

  Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1              General Services      Debit                           44                          47                           47                           0
                Administration
 2              Department of         Debit                                                        1                            1                           0
                Defense
 3              Department of the     Debit
                Interior
 4              Department of         Debit
                Justice
 5              National              Debit
                Aeronautics and
                Space
                Administration
 6              All other             Debit                            1                           2                            2                           0
                departments
 7              Total capitalized      N/A                            45                          50                           50                           0
                assets from
                Federal agencies
       Section: D              Section Name: Gain/Loss on Sale/Disposition                                                            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1              Gain/loss on          Credit                          43                          -2                           -2                           0
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are         3 - (1) Mint Bldg in Denver, (2) Main Treasury, (3) Treasury Annex
                     included in the "Line Item Notes" tab of this note (SFFAS No. 16, par 9).
 2                   Disclose any transfer of land where the book value is not known by the receiving entity, if         N/A
                     material (SFFAS No. 6, par.72).
 3                   Provide any other relevant information pertaining to this note and any material changes from        N/A
                     the prior years' depreciation methods and capitalization thresholds.



                                                                                                           - 23 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 07          Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                    Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        Note 11

  Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2009 - SEPTEMBER         2008 - SEPTEMBER
                                                                                Type
Securities and Investments                                               D        A                     15,330                 10,576
                                                                             Variance:                       0                      0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description           2009 - SEPTEMBER           2008 - SEPTEMBER                Previously Rptd           Line Item Changes
 1          Fixed/Debt Securities                        12,435                      10,543                        17,575                    -7,032
            (FASB 115 par 6 and
            19): Non-U.S.
            Government Securities
 2          Fixed/Debt Securities
            (FASB 115 par 6 and
            19): Commercial
            Securities
 3          Fixed/Debt Securities
            (FASB 115 par 6 and
            19): Mortgage/asset
            backed Securities
 4          Fixed/Debt Securities
            (FASB 115 par 6 and
            19):Corporate and
            other bonds
 5          Fixed/Debt Securities                         1,104                           7                            7                             0
            (FASB 115 par 6 and
            19) All:Other fixed/debt
            securities
 6          Equity Securities                                23                          23                           23                             0
            (FASB 115 par 6 and
            19): Common Stocks
 7          Equity Securities
            (FASB 115 par 6 and
            19): Unit Trusts
 8          Equity Securities                                 3                           3                            3                             0
            (FASB 115 par 6 and
            19): Other Equity
            Securities
 9          Other                                         1,765
            Total                                        15,330                      10,576                        17,608                    -7,032
Threshold

 Line Description                                            Question                                                             Answer




                                                                                                     - 24 -
                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 07           Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)               Fiscal Year: 2009             Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                              Agency Notes:    Note 11

 Status: Complete                       The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                              Question                                                     Answer
Line Item Notes - Fixed/Debt Securities (FASB 115 par 6 and   Please provide explanations for any amounts that have        GSE MBS held by Exchange Stabilization Fund - Economic Stimulus
19) All:Other fixed/debt securities (2009 - SEPTEMBER)        changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 25 -
                                                                                                                                                                                           01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                      Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:         Note 11

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Investment Category - Held-to-Maturity Securities                                       Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                       Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment          PY Basis (Costs) D                PY Unamortized     PY Net Investment
                                                                             Premium/Discount D                                                                    Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                       1,106                          -2                        1,104                           7                                                  7
                Securities: Other
                fixed/debt securities
 6              Equity Securities:      N/A                          28                          -5                          23                           29                      -5                       24
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A                           3                           0                           3                            3                      -1                          2
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A                       1,137                          -7                        1,130                          39                      -6                       33
                Maturity Securities




                                                                                                        - 26 -
                                                                                                                                                                                            01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                      Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:       Note 11

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B              Section Name: Investment Category - Available-for-Sale Securities                                     Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                        Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value          PY Basis (Costs) D        PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                                    D
 1              Fixed/Debt              N/A                      12,080                        356                     12,436                       10,543                        33                    10,576
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed/debt securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Common stocks
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A                       1,765                                                    1,765
10              Total Available-        N/A                      13,845                        356                     14,201                       10,543                        33                    10,576
                for-Sale Securities




                                                                                                        - 27 -
                                                                                                                                                                                     01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                 Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    Note 11

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed/debt securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Trading           N/A
                Securities




                                                                                                        - 28 -
                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                  Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                 Agency Notes:    Note 11

  Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D              Section Name: Other Information (FASB 115, pars. 21a, 21c, 21d,                                   Line Attributes: Dollars
                                             21e, and 22)                                                                      Rounding Method: Millions                 Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit                          356                         33
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 7              Net unrealized        Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive


                                                                                                         - 29 -
                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 07             Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                   Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    Note 11

  Status: Complete                              The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D               Section Name: Other Information (FASB 115, pars. 21a, 21c, 21d,                                   Line Attributes: Dollars
                                              21e, and 22)                                                                      Rounding Method: Millions                 Decimal: Zero
Line Status Line Description             NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Change
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                          - 30 -
                                                                                                                                                                                                01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 07          Securities and Investments (Financial Accounting Standards Board (FASB) Statement No 115)                         Fiscal Year: 2009                Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:      Note 11

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and      CDF - Line 5 represents $.3M in convertible subordinated debt securities and $4m in
                   9.                                                                                                 secondary capital investments in federal credit unions. Line 8 represents $2M of other
                                                                                                                      equity securities with limited partnership.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8        CDF - Line 5 represents $2M in convertible subordinated debt securities (and the
                   and 9 in Sections A through C.                                                                     related $1.7 discount on imputed interest) and $4M in secondary capital investments in
                                                                                                                      federal credit unions. Line 8 represents $3M of other equity securities with limited
                                                                                                                      partnership interess. All of CDFI securities are "Held to Maturity."

                                                                                                                      ESF - On line 5 Government Sponsored Enterprise securities.
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of           N/A
                   accumulated other comprehensive income into earnings was determined (FASB 115 par
                   21b).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-    N/A
                   maturity securities (FASB 115 par 22).
5                  Provide any other relevant information pertaining to this note.                                    N/A




                                                                                                             - 31 -
                                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08           Other Assets                                                                                                           Fiscal Year: 2009                    Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:        Notes 3,11,29

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2009 - SEPTEMBER        2008 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                       29,056                   7,260
                                                                                    Variance:                         0                       0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2009 - SEPTEMBER               2008 - SEPTEMBER                   Previously Rptd           Line Item Changes
 1             Advances and                                        6                          1,703                       1,703                                 0
               prepayments
 2             Regulatory Assets                              23,472
 3             Other Assets                                    5,578                          5,557                       5,557                                 0
               Total                                          29,056                          7,260                       7,260                                 0
Threshold

 Line Description                                                  Question                                                                 Answer
 Line Item Notes - Advances and prepayments (2009 -                Please provide explanations for any amounts that have                    Removal of $1.7B advance for addtional purchasesof GSE MBS and
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               addition of Beneficial Interest in Trust of $23 Billion
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.              Advances to the public consists of cash outlays for criminal investigations (IRS),
                                                                                                                             employee travel, relocation expenses,
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled        $5.575 Billion realtes to Treasury participation in Multilateral Development Banks
                     "Other Assets" on the "Line Item Notes" tab.                                                            (MDB). See PAR Note 11.
 3                   Provide any other relevant information pertaining to this note.                                         $23 Billion as Beneficial Interest in Trust. See Note 29




                                                                                                              - 32 -
                                                                                                                                                                                   01/07/2010 06:16:24

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                            Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                  Agency Notes:        Note 22

  Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                     4,678                  3,694
                                                                             Variance:                      0                      0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd          Line Item Changes
 1          Accounts Payable                              4,678                       3,694                       3,694                             0
            Total                                         4,678                       3,694                       3,694                             0
Threshold

 Line Description                                             Question                                                           Answer
 Line Item Notes - Accounts Payable (2009 - SEPTEMBER)        Please provide explanations for any amounts that have             Increase in refund payables.
                                                              changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 33 -
                                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

      Note: 10A         Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2009                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                       Agency Notes:        notes 19

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                             NB    Account    2009 - SEPTEMBER          2008 - SEPTEMBER
                                                                                     Type
Federal Debt Securities Held by the Public                                    C        L                 7,559,305               5,812,694
                                                                                  Variance:                      0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2009 - SEPTEMBER                2008 - SEPTEMBER               Previously Rptd           Line Item Changes
 1            Marketable Securities                         1,986,174                  1,484,332                     1,484,332                            0
             - Treasury bills
 2            Marketable Securities                         3,772,964                  2,623,364                     2,623,364                            0
             - Treasury notes
 3            Marketable Securities                          677,491                     578,504                      578,504                             0
             - Treasury bonds
 4            Marketable Securities                          551,308                     523,951                      523,951                             0
             - Treasury inflation
             protected securities
 5            Non-marketable                                 563,924                     598,540                      598,540                             0
             securities
 6            Unamortized premium                             10,182                       4,344                        4,344                             0
             on Treasury securities
 7            Unamortized discount                           -44,087                     -40,468                      -40,468                             0
             on Treasury securities
 8           Accrued interest                                 41,349                      40,127                       40,127                             0
             payable on debt
             issued by Treasury
  9          Securities at par
 10           Unamortized premium
             on securities
 11           Unamortized discount
             on securities
 12           Accrued interest
             payable on agency
             securities
             Total                                          7,559,305                  5,812,694                     5,812,694                            0
Threshold

 Line Description                                                  Question                                                            Answer
 Line Item Notes - Marketable Securities - Treasury bills          Please provide explanations for any amounts that have              Increasing deficit and debt issued for economic stabilization programs
 (2009 - SEPTEMBER)                                                changed by 10% or more and or greater than 500,000 between
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Marketable Securities - Treasury notes          Please provide explanations for any amounts that have              Increasing deficit and debt issued for economic stabilization programs
 (2009 - SEPTEMBER)                                                changed by 10% or more and or greater than 500,000 between
                                                                   the current fiscal year and prior fiscal year. (Unaudited)


                                                                                                         - 34 -
                                                                                                                                                                                      01/07/2010 06:16:24

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 10A          Federal Debt Securities Held by the Public                                                              Fiscal Year: 2009                Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                              Agency Notes:      notes 19

 Status: Complete                        The accompanying notes are an integral part of these financial statements.        I = Inactive Line



Threshold

Line Description                                              Question                                                      Answer
Line Item Notes - Marketable Securities - Treasury bonds      Please provide explanations for any amounts that have        Increasing deficit and debt issued for economic stabilization programs
(2009 - SEPTEMBER)                                            changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 35 -
                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 10A           Federal Debt Securities Held by the Public                                                                    Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        notes 19

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Federal Debt Held By the Public: Other Related                                        Line Attributes: Dollars
                                             Information                                                                         Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Changes
 1             Debt subject to        Credit                  11,853,142                  9,959,850                  9,959,850                          0
               statutory limit
 2             Statutory debt limit   Credit                  12,104,000                 10,615,000                 10,615,000                          0




       Section: B              Section Name: Federal Debt Held By The Public: Average Interest                                     Line Attributes: Percent
                                             Rate
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Changes
 1             Marketable              N/A                         .3000                     1.6000                     1.6000                     .0000
               securities -
               Treasury bills
 2             Marketable              N/A                        3.0000                     4.1000                     4.1000                     .0000
               securities - Tresury
               notes
 3             Marketable              N/A                        6.5000                     7.1000                     7.1000                     .0000
               securities -
               Treasury bonds
 4             Marketable              N/A                        2.1000                     2.0000                     2.0000                     .0000
               securities -
               Treasury inflation
               protected securities
 5             Non-marketable          N/A                        3.7000                     4.1000                     4.1000                     .0000
               securities




                                                                                                         - 36 -
                                                                                                                                                                                            01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 10B             Treasury securities held by the Government trust, revolving, and special funds                              Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:         No data

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investments in Federal Debt securities                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                         Decimal: Zero
Line Status Line Description            NB        CY Par value of the                 CY Unamortized CY Unamortized premium        CY Net Investment               PY Par Value of the PY Unamortized discount
                                                      investment D                       Discount C                       D                                            investment D                         C
19             Department of           N/A                        19,816                                                                          19,816                      16,846
               Treasury,
               Exchange
               Stabilization Fund
23                                     N/A
24                                     N/A
25                                     N/A
26             All other programs      N/A                          6,861                            2                     109                     6,968                       6,130                         8
               and funds
27             Total                   N/A                        26,677                            -2                     109                    26,784                      22,976                        -8

Line Status Line Description            NB            PY Unamortized             PY Net Investment
                                                         premium D
19             Department of            N/A                                                     16,846
               Treasury,
               Exchange
               Stabilization Fund
23                                      N/A
24                                      N/A
25                                      N/A
26             All other programs       N/A                           102                        6,224
               and funds
27             Total                    N/A                           102                       23,070
       Section: B               Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                                 Line Attributes: Dollars
                                              Funds with Fiduciary - Activity                                                    Rounding Method: Millions                         Decimal: Zero
Line Status Line Description            NB        CY Par value of the       CY Unamortized discount CY Unamortized premium         CY Net Investment
                                                      investment D                               C                       D
 1             All Other               N/A                             15                                                                               15
 2                                     N/A
 3                                     N/A
 4                                     N/A
 5                                     N/A
 6                                     N/A



                                                                                                            - 37 -
                                                                                                                                                                            01/07/2010 06:16:24

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 10B       Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000    Department of the Treasury                                                                                 Agency Notes:    No data

  Status: Complete                      The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B         Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                                Line Attributes: Dollars
                                        Funds with Fiduciary - Activity                                                   Rounding Method: Millions                 Decimal: Zero
Line Status Line Description      NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment
                                                investment D                               C                       D
 7                               N/A
 8                               N/A
 9                               N/A
10                               N/A
11                               N/A
12                               N/A
13                               N/A
14                               N/A
15                               N/A
       Section: C         Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                        Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                 Decimal: Zero
Line Status Line Description      NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment
                                                investment D                               C                       D
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A
 6                               N/A
 7                               N/A
 8                               N/A
 9                               N/A
10                               N/A
11                               N/A
12                               N/A
13                               N/A
14                               N/A
15                               N/A




                                                                                                        - 38 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                           Fiscal Year: 2009              Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                               Agency Notes:       No data

  Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D            Section Name: Tresury Secrities Held be Governmnet Trust Funds,                                 Line Attributes: Dollars
                                           Revolving Funds, and Special Funds (to be                                       Rounding Method: Millions                       Decimal: Zero
                                           completed only by Treasury)
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment             PY Par Value of the PY Unamortized Discount
                                                   investment D                       Discount C                       D                                       investment D                         C
 1             Social Security       N/A                    2,296,316                                                                   2,296,316                  2,150,651
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2             Office of Personnel   N/A                      742,322                                                                     742,322                    714,850
               Management, Civil
               Service Retirement
               and Disability
 3             Office of Personnel   N/A                       15,367                                                                       15,367                    15,563
               Management,
               Employees¿ Health
               Benefits
 4             Department of         N/A                      309,702                                                                     309,702                    318,741
               Health and Human
               Services, Federal
               Hospital Insurance
 5             Department of         N/A                      240,807                                                                     240,807                    215,949
               Defense, Military
               Retirement Fund
 6             Department of         N/A                      126,821                                                                     126,821                    112,726
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7             Social Security       N/A                      207,932                                                                     207,932                    216,487
               Administration,
               Federal Disability
               Insurance
 8             Department of         N/A                       19,628                                                                       19,628                    72,432
               Labor,
               Unemployment
 9             Federal Deposit       N/A                       16,076                                                                       16,076                    29,937
               Insurance
               Corporation Funds
10             Office of Personnel   N/A                       36,146                                                                       36,146                    34,397
               Management,
               Employees¿ Life
               Insurance



                                                                                                         - 39 -
                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                           Fiscal Year: 2009              Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                               Agency Notes:       No data

  Status: Complete                       The accompanying notes are an integral part of these financial statements.         I = Inactive Line


      Section: D           Section Name: Tresury Secrities Held be Governmnet Trust Funds,                                 Line Attributes: Dollars
                                         Revolving Funds, and Special Funds (to be                                       Rounding Method: Millions                       Decimal: Zero
                                         completed only by Treasury)
Line Status Line Description       NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment             PY Par Value of the PY Unamortized Discount
                                                 investment D                       Discount C                       D                                       investment D                         C
11           Department of        N/A                        44,643                                                                       44,643                    42,570
             Energy, Nuclear
             Waste Disposal
12           Department of        N/A                        61,764                                                                       61,764                    59,090
             Health and Human
             Services, Federal
             Supplementary
             Medical Insurance
13           Housing and Urban    N/A
             Development,
             Federal Housing
             Administration
14           Department of        N/A
             Veterans Affairs,
             National Service
             Life Insurance
             Fund
15           Department of        N/A                        11,484                                                                       11,484                    12,811
             Transportation,
             Highway Trust
             Fund
16           Department of        N/A
             Transportation,
             Airport and Airway
             Trust Fund
17           Pension Benefit      N/A                        17,459                                                                       17,459                    22,367
             Guaranty
             Corporation Fund
18           Department of        N/A                        15,334                                                                       15,334                    14,855
             State, Foreign
             Services
             Retirement and
             Disability Fund
19           Department of the    N/A                        18,615                                                                       18,615                    16,847
             Treasury,
             Exchange
             Stabilization Fund
20           Railroad             N/A
             Retirement Board



                                                                                                       - 40 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                           Fiscal Year: 2009              Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                               Agency Notes:       No data

  Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D            Section Name: Tresury Secrities Held be Governmnet Trust Funds,                                 Line Attributes: Dollars
                                           Revolving Funds, and Special Funds (to be                                       Rounding Method: Millions                       Decimal: Zero
                                           completed only by Treasury)
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment             PY Par Value of the PY Unamortized Discount
                                                   investment D                       Discount C                       D                                       investment D                         C
21             Office of Personnel   N/A                       35,115                                                                       35,115                    32,294
               Management,
               Postal Service
               Retiree Health
               Benefits Fund
22             Housing and Urban     N/A
               Development,
               Ginnie Mae
23             FHA - Liquidating     N/A                       10,664                                                                       10,664                    19,085
               Account
24                                   N/A
25             All other programs    N/A                      119,359                                                                     119,359                    100,352
               and funds
26             Total                 N/A                    4,345,554                                                                   4,345,554                  4,202,004

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
 1             Social Security       N/A                                                  2,150,651
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2             Office of Personnel   N/A                                                    714,850
               Management, Civil
               Service Retirement
               and Disability
 3             Office of Personnel   N/A                                                     15,563
               Management,
               Employees¿ Health
               Benefits
 4             Department of         N/A                                                    318,741
               Health and Human
               Services, Federal
               Hospital Insurance
 5             Department of         N/A                                                    215,949
               Defense, Military
               Retirement Fund
 6                                   N/A                                                    112,726



                                                                                                         - 41 -
                                                                                                                                                                          01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                        Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                            Agency Notes:    No data

  Status: Complete                         The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: D         Section Name: Tresury Secrities Held be Governmnet Trust Funds,                                 Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                       Rounding Method: Millions                 Decimal: Zero
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized            PY Net Investment
                                                premium D
 6             Department of
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7             Social Security       N/A                                                    216,487
               Administration,
               Federal Disability
               Insurance
 8             Department of         N/A                                                     72,432
               Labor,
               Unemployment
 9             Federal Deposit       N/A                                                     29,937
               Insurance
               Corporation Funds
10             Office of Personnel   N/A                                                     34,397
               Management,
               Employees¿ Life
               Insurance
11             Department of         N/A                                                     42,570
               Energy, Nuclear
               Waste Disposal
12             Department of         N/A                                                     59,090
               Health and Human
               Services, Federal
               Supplementary
               Medical Insurance
13             Housing and Urban     N/A
               Development,
               Federal Housing
               Administration
14             Department of         N/A
               Veterans Affairs,
               National Service
               Life Insurance
               Fund
15                                   N/A                                                     12,811




                                                                                                         - 42 -
                                                                                                                                                                        01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                        Fiscal Year: 2009          Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                            Agency Notes:    No data

  Status: Complete                       The accompanying notes are an integral part of these financial statements.      I = Inactive Line


      Section: D          Section Name: Tresury Secrities Held be Governmnet Trust Funds,                               Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                     Rounding Method: Millions                 Decimal: Zero
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized            PY Net Investment
                                                premium D
15           Department of
             Transportation,
             Highway Trust
             Fund
16           Department of         N/A
             Transportation,
             Airport and Airway
             Trust Fund
17           Pension Benefit       N/A                                                     22,367
             Guaranty
             Corporation Fund
18           Department of         N/A                                                     14,855
             State, Foreign
             Services
             Retirement and
             Disability Fund
19           Department of the     N/A                                                     16,847
             Treasury,
             Exchange
             Stabilization Fund
20           Railroad              N/A
             Retirement Board
21           Office of Personnel   N/A                                                     32,294
             Management,
             Postal Service
             Retiree Health
             Benefits Fund
22           Housing and Urban     N/A
             Development,
             Ginnie Mae
23           FHA - Liquidating     N/A                                                     19,085
             Account
24                                 N/A
25           All other programs    N/A                                                    100,352
             and funds
26           Total                 N/A                                                  4,202,004




                                                                                                       - 43 -
                                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                                  Fiscal Year: 2009                  Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        Note 22

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2009 - SEPTEMBER          2008 - SEPTEMBER
                                                                                   Type
Federal Employee and Veteran Benefits Payable                               C        L                           576                 630
                                                                                Variance:                          0                   0            Rounding Method: Millions                Decimal: Zero
Line Status Line Description              2009 - SEPTEMBER            2008 - SEPTEMBER                Previously Rptd           Line Item Changes
 1            Pension and accrued
              benefits
 2            Post-retirement health
              and accrued benefits
 3            Veteran's
              compensation and
              burial benefits
 4            Life Insurance and
              accrued benefits
 5            FECA Benefits                                    533                          594                           594                            0
 6            Liability for other                               43                           36                            36                            0
              retirement and
              postemployment
              benefits
              Total                                             576                         630                           630                            0
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - FECA Benefits (2009 - SEPTEMBER)              Please provide explanations for any amounts that have               Below Treasury's materiality for the flunctuation analysis on the financial
                                                                 changed by 10% or more and or greater than 500,000 between          statements.
                                                                 the current fiscal year and prior fiscal year. (unaudited)
 Line Item Notes - Liability for other retirement and            Please provide explanations for any amounts thathave changed        Below the materiality threshold for Treasury flunctuation analysis on the
 postemployment benefits (2009 - SEPTEMBER)                      by 10% or more and or greater than 500,000 between the              financial statements.
                                                                 current fiscal year and prior fiscal year (unaudited).




                                                                                                        - 44 -
                                                                                                                                                                                   01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    Note 22

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions                 Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Assumption              Credit
                Change Liability
 5              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 6              Interest on pension     Credit
                liability during the
                period
 7              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 8              Actuarial               Credit
                (gains)/losses
 9              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
10              Less Benefits Paid      Debit
11              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




                                                                                                           - 45 -
                                                                                                                                                                                   01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    Note 22

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B                Section Name: Pension Liability Long-Term Significant Assumptions       No Data Flag: YES         Line Attributes: Percent
                                               Used in 2008 and 2007 Valuation (SFFAS No. 5,
                                               par.67)
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Rate of inflation        N/A
 3              Projected salary         N/A
                increases




       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                 Decimal: Zero
Line Status Line Description             NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Other actuarial         Credit
                (gains)/losses
 8              Total                    N/A
                postretirement
                health benefits



                                                                                                           - 46 -
                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    Note 22

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C              Section Name: Postretirement Health and Accrued Benefits               No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                 Decimal: Zero
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                expense
 9              Less claims paid      Debit
10              Postretirement        N/A
                health and accrued
                benefits liability-
                end of period




       Section: D              Section Name: Postretirement Health Liability Significant              No Data Flag: YES         Line Attributes: Percent
                                             Assumptions Used in Determining the 2008 and 2007
                                             Valuation
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest      N/A
 2              Ultimate rate of      N/A
                health care cost
                trend
 3              Single equivalent     N/A
                rate of health care
                cost trend


       Section: G              Section Name: Other                                                    No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined             Decimal: User-Defined
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable      Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of     Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of     Debit
                investments in
                market-based and
                marketable
                securities included



                                                                                                        - 47 -
                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11               Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2009           Period: SEPTEMBER
     Entity: 2000           Department of the Treasury                                                                              Agency Notes:     Note 22

  Status: Complete                             The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: G               Section Name: Other                                                    No Data Flag: YES         Line Attributes: Dollars
                                                                                                                               Rounding Method: User-Defined             Decimal: User-Defined
Line Status Line Description            NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
                in line 2
 4              Total assets of        Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of        Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: O               Section Name: Number of Pension Plans Administrated                    No Data Flag: YES         Line Attributes: Units


Line Status Line Description            NB       2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1        I     Pension plans           N/A
                administrated




                                                                                                         - 48 -
                                                                                                                                                                             01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2009          Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    Note 22

 Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant assumptions used in determining pension
                   liability and the related expense (example of assumptions: actuarial, economic, interest rate,
                   and trend).
4                  Provide the long-term projection of the significant assumptions used in determining the
                   postretirement health benefits liability and the related expense (example of assumptions:
                   actuarial, economic, interest rate, and trend).
7                  Provide the sources(s) of the information entered for "Line Item Notes" tab numbers 4, 5,
                   and 6.
8                  Provide the sources(s) for the components of pension expense entered in Section A.
9                  Provide the source(s) for the interest rate entered in Section B.
10                 Provide the source(s) for the components of postretirement expense entered in Section C.
11                 Provide the source(s) for the interest rate entered in Section D.
14                 Provide any other relevant information pertaining to this note.




                                                                                                             - 49 -
                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2009 - SEPTEMBER          2008 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 50 -
                                                                                                                                                                                         01/07/2010 06:16:24

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                             Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                       Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2009 - SEPTEMBER                 2008 - SEPTEMBER                    Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                 Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note.




                                                                                                                - 51 -
                                                                                                                                                                               01/07/2010 06:16:24

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                              Agency Notes:      No Data

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                      NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                              Type
Benefits Due and Payable                                               C        L                          0                  0
                                                                           Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2009 - SEPTEMBER            2008 - SEPTEMBER               Previously Rptd        Line Item Changes
 9          Other Entitlement                                0
            BenefitsDue and
            Payable
            Total                                            0




                                                                                                  - 52 -
                                                                                                                                                                                                           01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 14            Insurance Programs Other Than Veterans Affairs                                                                         Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                            Agency Notes:       None

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                     I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account     2009 - SEPTEMBER          2008 - SEPTEMBER
                                                                                       Type
Insurance Programs                                                             C         L                            22                      17
                                                                                    Variance:                          0                       0           Rounding Method: Millions                  Decimal: Zero
Line Status Line Description              2009 - SEPTEMBER              2008 - SEPTEMBER                   Previously Rptd            Line Item Changes
 6              Other Insurance                                   22                             17                            17                               0
                Programs
 7
 8
              Total                                                22                            17                            17                               0
Threshold

 Line Description                                                  Question                                                                  Answer
 Line Item Notes - Other Insurance Programs (2009 -                Please provide explanations for any amounts that have                     $5 million is below Treasury's materiality level for fluctuation analysis
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line                 Question                                                                                               Answer
 1                    Provide a description for the type of insurance programs identified in the "Line Item Notes"           The actuarial liability relates to an insurance program at the Office of the Comptroller of
                      tab.                                                                                                   the Currency.
 2                    Provide the name, description, and the related amounts of the insurance programs entered               The actuarial liability relates to an insurance program at the Office of the Comptroller of
                      on the line titled, "Other insurance programs" in the "Line Item Notes" tab.                           the Currency.
 3                    Provide any other relevant information pertaining to this note.                                        None




                                                                                                             - 53 -
                                                                                                                                                                                                01/07/2010 06:16:24

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 15              Other Liabilities                                                                                                Fiscal Year: 2009                  Period: SEPTEMBER
   Entity: 2000             Department of the Treasury                                                                                       Agency Notes:        Note 6,7, 21, 22

  Status: Complete                                The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                                NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                                C        L                    83,334                   32,457
                                                                                     Variance:                      0                        0           Rounding Method: Millions          Decimal: Zero
Line Status Line Description                    2009 - SEPTEMBER           2008 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                   354                          636                           636                            0
 2               Accrued wages and                                  437                          356                           356                            0
                 benefits
 3               Gold certificates                               11,037                      11,037                      11,037                               0
 4               Other debt
 5               Exchange Stabilization                          55,953                       7,630                       7,630                               0
                 Fund
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability                            9,049                      8,803                       8,803                               0
 11              Custodial liabilities                                 0                          1                           1                               0
 12              Accrued annual leave                                584                        625                         625                               0
 14              Advances and
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds                                                                   267                           267                            0
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18              Keep Well GSE                                                                                           13,800                      -13,800
                 Liability
 19              Ceritificates Issued to                           5,200
                 FRB - ESF
 20
 21              Other Liabilities                                  720                       3,102                       3,102                               0



                                                                                                            - 54 -
                                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 15           Other Liabilities                                                                                                    Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                           Agency Notes:       Note 6,7, 21, 22

  Status: Complete                            The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


Line Status Line Description                2009 - SEPTEMBER           2008 - SEPTEMBER                    Previously Rptd         Line Item Changes
            Total                                           83,334                     32,457                            46,257                   -13,800
Threshold

 Line Description                                                 Question                                                                Answer
 Line Item Notes - Deferred revenue (2009 - SEPTEMBER)            Please provide explanations for any amounts that have                   Variance is not significant to the Department of the Treasury and was not
                                                                  changed by 10% or more and or greater than 500,000 between              analyzed as part of our fluctuation analysis
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Accrued wages and benefits (2009 -             Please provide explanations for any amounts that have                   Variance is not significant to the Department of the Treasury and was not
 SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between              analyzed as part of our fluctuation analysis
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Exchange Stabilization Fund (2009 -            Please provide explanations for any amounts that have                   IMF allocated to the US an additional $48.2 billion of SDRs
 SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other Liabilities (2009 - SEPTEMBER)           Please enter a description for any amounts over $50 million.            The line is aggregated from various accrued liabilities in which none are
                                                                                                                                          significant as a stand alone.
Tab: Text Data
 Line               Question                                                                                               Answer
 1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1          Refer to agency note information provided within this note.
                    through 21 by including a description of the significant related amounts and providing the
                    page number of the agency's financial report where the amount is identified.
 2                  Provide a description and related amounts for balances that exceed $50 million on the line             The line is aggregated from various accrued liabilties in which none are significant as a
                    titled, "Other liabilities," and provide the page number of the agency's financial report where        stand alone.
                    the amount is identified.
 3                  Provide any other relevant information pertaining to this note.                                        None




                                                                                                              - 55 -
                                                                                                                                                                                             01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                      Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:          Note 26

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                 Section Name: Collections of Federal Revenue                                                         Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                       Decimal: Zero
Line Status Line Description             NB                      2009                         2008                       2007                 Prior Years
 1              Individual income      Credit                   1,296,427                    702,557                     22,250                       15,323
                and tax
                withholdings
 2              Corporation income     Credit                     138,144                     69,016                         1,692                    16,630
                taxes
 3              Unemployment           Credit                       4,772                      1,859                           36                            98
                taxes
 4              Excise taxes           Credit                      54,502                     12,512                          102                           132
 5              Estate and gift        Credit                           92                     3,979                          796                     19,810
                taxes
 6              Railroad retirement    Credit                       3,559                      1,148                            3                             1
                taxes
 7              Federal Reserve        Credit                      24,552                      9,766                            0                             0
                earnings
 8              Fines, penalties,      Credit                      25,364                         37
                interest, and other
                revenue
 9              Custom duties          Credit
10              Subtotal                N/A                    -1,547,412                  -800,874                     -24,879                     -51,994
11              Amounts collected       Debit
                for Non-Federal
                entities
12              Total                   N/A                    -1,547,412                  -800,874                     -24,879                     -51,994
       Section: B                 Section Name: PP Collections of Federal Revenue                                                      Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                       Decimal: Zero
Line Status Line Description             NB                      2008                         2007                       2006                 Prior Years
 1              Individual income      Credit                   1,455,017                    799,244                     23,498                       16,567
                and tax
                withholdings
 2              Corporation income     Credit                     222,000                    113,949                         2,010                    16,104
                taxes
 3              Unemployment           Credit                       5,146                      2,026                           42                           117
                taxes
 4              Excise taxes           Credit                      48,106                     17,909                          119                           159
 5              Estate and gift        Credit                           23                    19,248                         1,266                     9,287



                                                                                                          - 56 -
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                   Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                   Agency Notes:          Note 26

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B              Section Name: PP Collections of Federal Revenue                                                      Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB                       2008                         2007                       2006               Prior Years
                taxes
 6              Railroad retirement   Credit                       3,769                      1,164                           1                            5
                taxes
 7              Federal Reserve       Credit                      25,879                      7,719                           0                            0
                earnings
 8              Fines, penalties,     Credit                       1,936                        297
                interest, and other
                revenue
 9              Customs duties        Credit
10              Subtotal               N/A                    -1,761,876                  -961,556                     -26,936                   -42,239
11              Amounts collected     Debit
                for non-Federal
                entities
12              Total                  N/A                    -1,761,876                  -961,556                     -26,936                   -42,239
       Section: C              Section Name: Federal Tax Refunds Disbursed                                                          Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB                       2009                         2008                       2007               Prior Years
 1              Individual income     Debit                        1,075                    293,971                     30,361                     14,222
                and tax
                withholdings
 2              Corporation income    Debit                        6,626                     32,646                     17,370                     38,558
                taxes
 3              Unemployment          Debit                              1                       66                          13                           29
                taxes
 4              Excise taxes          Debit                            535                      541                          81                          626
 5              Estate and gift       Debit                              0                      324                         566                          358
                taxes
 6              Railroad retirement   Debit                              0                          2                         0                            1
                taxes
 7              Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit
                interest, and other
                revenue
 9              Customs Duties        Debit
10              Total                  N/A                         8,237                    327,550                     48,391                     53,794



                                                                                                         - 57 -
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                    Fiscal Year: 2009                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:          Note 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D             Section Name: PP Fed Tax Refunds Disbursed for the FY                                                Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB                      2008                         2007                       2006               Prior Years
 1              Individual income     Debit                           935                  342,216                     19,217                      6,980
                and tax
                withholdings
 2              Corporation income    Debit                       2,206                     19,610                     10,446                     22,078
                taxes
 3              Unemployment          Debit                             1                       65                          14                           39
                taxes
 4              Excise taxes          Debit                           439                      497                         107                          208
 5              Estate and gift       Debit                             0                      343                         428                          251
                taxes
 6              Railroad retirement   Debit                             0                          1                         1                           -9
                taxes
 7              Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit                             1
                interest, and other
                revenue
 9              Customs duties        Debit
10              Total                 N/A                         3,582                    362,732                     30,213                     29,547
       Section: E             Section Name: Miscellaneous                                              No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                   Decimal: User-Defined
Line Status Line Description           NB       2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd      Line Item Changes
 1              Portion due from      Debit
                identified non-
                compliance
                assessments
 2              Portion due from      Debit
                pre-assessment
                work in process




                                                                                                         - 58 -
                                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                           U.S. Department of the Treasury
                                                                                            Financial Management Service
                                                                                       Governmentwide Financial Report System
                                                                                               GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                          Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                           Agency Notes:      Note 26

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: F             Section Name: Tax Gap                                                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB      CY Low end of range             CY High end of range           PY Low end of range      PY High end of range
 1              Tax gap estimate     Debit                             0                       345,000                          0                      345,000




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Disclose the basis of accounting related to Collections and Disbursements of Federal                  The Department's Statement of Custodial Acitvity is presented in a modified accrual
                     Revenue.                                                                                              basis of accounting. Revenues are recognized as cash is collected. The Balance Sheet
                                                                                                                           includes an estimated amount of taxes receivable and payable to the General Fund of
                                                                                                                           the United States Government (ref. PAR Note 1, S)
 2                   Provide a brief description of any other material types of revenue transactions that relate to        All material types of revnue are included in this note.
                     the custodial responsibility of the collecting entity (SFFAS No. 7, par. 65.2).
 3                   Are all trust fund revenues recorded in accordance with applicable law (SFFAS No. 7, par.             Trust fund revenues are recorded in accordance with applicable law.
                     66). If "no", provide the reasons.
 4                   Indicate whether the amounts collected for taxes and duties are effecting the begining-of-            Collections for taxes will affect the beginning-of-period as well as the end-of-period
                     period and end-of-period balances of accoutns receivable, acount payable for refunds, and             balances of taxes receivable. Collections for taxes will also affet both the beginning-
                     the allowence for uncollectible amounts (SFFAS No.7, par.65.2)                                        of-period and end-of-period allowances for uncollectible accounts.

                                                                                                                           Amounts Collected for taxes do not generally affect the beginning-of-period accounts
                                                                                                                           payable for refunds. However, collections for taxes will affect the end-of-period
                                                                                                                           accounts payable for refunds.
 5                   Provide any other relevant information pertaining to this note.                                       None




                                                                                                              - 59 -
                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 17             Prior-Period Adjustments                                                                                    Fiscal Year: 2009          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:    No data

  Status: Complete                              The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Non- Federal Prior Period Adjustments (Not                 No Data Flag: YES         Line Attributes: Dollars
                                             Restated)                                                                          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description            NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Amounts that           Credit
                adjusted beginning
                net position - for
                change in
                accounting
                principles
 2              Amounts that           Credit
                adjusted beginning
                net position - for
                correction of errors
       Section: B              Section Name: Restated Prior-Period Adjustments - Corrections of         No Data Flag: YES         Line Attributes: Dollars
                                             Errors for the Prior Year                                                          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description            NB            Credit Amount C               Debit Amount D
 1                                      N/A
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A
 6                                      N/A
 7                                      N/A
 8                                      N/A
 9                                      N/A
10                                      N/A




                                                                                                          - 60 -
                                                                                                                                                                           01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                  Fiscal Year: 2009          Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                               Agency Notes:    No data

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                         Answer
1                  Describe the adjustments to current year or prior-year beginning net position that resulted
                   from changes in accounting principles.
2                  Describe the adjustments to the prior-year beginning net position that resulted from
                   correcting errors that occurred in years preceding the prior year.
3                  Describe the restatements to the prior-year that resulted from correcting errors that occurred
                   in the prior year.
4                  Describe any Federal prior-period adjustments.
5                  Provide any other relevant information pertaining to this note. This would include information
                   related to any immaterial errors that occurred in the prior period(s) that were corrected
                   against the current year.




                                                                                                           - 61 -
                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2009              Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    Note 31

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Insurance Contingencies (Reasonably Possible Only)        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Changes
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                  N/A
       Section: B              Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES          Line Attributes: Dollars
                                             Dividends Paid)                                                                    Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd      Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                  N/A
       Section: C              Section Name: Civil Litigation, Claims and Assessments                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable          PYAccrued/Estimated PY Estimated Range(Low
                                                           amount                          end)                   (High end)      to determine loss)         amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range        PY Claim amunt (unable
                                                          (High end)                to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible


                                                                                                         - 62 -
                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                         Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:     Note 31

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: D              Section Name: Environmental Litigation, Claims, and Assessments         No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable        PY Accrued/Estimated     PY Estimated Range
                                                           amount                      (Low end)                  (High end)            to determine)                   amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range      PY Claim amount (unable
                                                       (High Range)                 to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible
       Section: E              Section Name: Other Contingencies                                       No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




       Section: F              Section Name: Other Contingencies                                       No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd       Line Item Changes
 3        I                          Credit
 4        I                          Credit
 5        I                          Credit




                                                                                                         - 63 -
                                                                                                                                                                                              01/07/2010 06:16:24

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                                            Fiscal Year: 2009                   Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:       Note 31

 Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
1                Describe the risk insurance programs that are in force.
                                                                                                                 The Terrorism Risk Insurance Act (TRIA or the Act) was signed into law on November
                                                                                                                 26, 2002. This law was enacted to address market disruptions resulting from terrorist
                                                                                                                 attacks on September 11, 2001. The Act helps to ensure available and affordable
                                                                                                                 commercial property and casualty insurance for terrorism risk, and simultaneously
                                                                                                                 allows private markets to stabilize. The Terrorism Risk Insurance Program is activated
                                                                                                                 upon the certification of an ¿act of terrorism¿ by the Secretary of the Treasury
                                                                                                                 Department in concurrence with the Secretary of State and the Attorney General. If a
                                                                                                                 certified act of terrorism occurs, insurers may be eligible to receive reimbursement from
                                                                                                                 the U.S. Government for insured losses above a designated deductible amount. Insured
                                                                                                                 losses above this amount will be shared between insurance companies and the U.S.
                                                                                                                 Government. The Act also gives the Treasury Department authority to recoup federal
                                                                                                                 payments made under the Program through policyholder surcharges under certain
                                                                                                                 circumstances and contains provisions designed to manage litigation arising from or
                                                                                                                 relating to a certified act of terrorism.
                                                                                                                 The original TRIA program was to expire on December 31, 2005, but the Program was
                                                                                                                 extended through December 31, 2007 by the Terrorism Risk Insurance Extension Act of
                                                                                                                 2005 (Extension Act). This law included the following significant changes: it reduced the
                                                                                                                 federal role in terrorism risk insurance markets by increasing insurer deductibles and
                                                                                                                 excluding certain types of previously covered insurance. The Extension Act also
                                                                                                                 reduced the U.S. Government¿s share of insured losses and added a ¿Program
                                                                                                                 Trigger¿ provision which precludes federal payments unless insured losses from a
                                                                                                                 certified act of terrorism exceed $100 million.
                                                                                                                 On December 26, 2007, the Terrorism Risk Insurance Program Reauthorization Act of
                                                                                                                 2007 (Reauthorization Act) was enacted extending the Program through December 31,
                                                                                                                 2014. The Reauthorization Act, among other Program changes, revised the definition of
                                                                                                                 ¿Act of Terrorism¿ to remove the certification requirement that the act be committed by
                                                                                                                 an individual acting on behalf of a foreign person or foreign interest; revised the
                                                                                                                 provisions of the Act with regard to the cap on annual liability for insured losses of $100
                                                                                                                 billion; and established deadlines by which recoupment of federal payments made
                                                                                                                 under the Program would have to be accomplished.
                                                                                                                 In 2008, the Treasury Department published interim guidance and an interim final rule
                                                                                                                 conforming regulations to statutory changes in the Reauthorization Act pertaining to the
                                                                                                                 mandatory insurance availability and insurer disclosure requirements of the Program as
                                                                                                                 well as the addition of coverage for domestic acts of terrorism. On April 21, 2009,
                                                                                                                 Treasury Department published the interim final rule as final.
                                                                                                                 In September 2008, the Treasury Department issued two notices of proposed
                                                                                                                 rulemaking with requests for comment. One proposed rule incorporates and clarifies
                                                                                                                 statutory requirements of the Reauthorization Act for capping the annual liability for
                                                                                                                 insured losses at $100 billion. The proposed rule describes how the Treasury
                                                                                                                 Department will determine the pro rata share of insured losses to be paid by each
                                                                                                                 insurer that incurs losses under the Program when insured losses would otherwise
                                                                                                                 exceed the cap and how the Federal share of compensation will be calculated.
                                                                                                                 The Treasury Department expects to issue a final rule incorporating public comments
                                                                                                                 early in fiscal year 2010. The other proposed rule sets forth the requirements for



                                                                                                  - 64 -
                                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                         Agency Notes:       Note 31

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      recoupment of the Federal share of compensation for insured losses. The rule
                                                                                                                      describes how the Treasury Department will determine the amounts to be recouped and
                                                                                                                      the requirements for insurers to collect, report, and remit surcharges to the Treasury
                                                                                                                      Department. The Treasury Department expects to issue a final rule incorporating public
                                                                                                                      comments early in fiscal year 2010. There were no claims under TRIA as of September
                                                                                                                      30, 2008 and September 30, 2009.

2                  Provide the nature of the isurance contingencies.                                                  See 1
3                  Provide the nature of the litigation contingencies, including the range of loss for probable       The Department is a party in various administrative proceedings, legal actions, and
                   liabilities.                                                                                       claims including equal opportunity matters which may ultimately result in settlements or
                                                                                                                      decisions adverse to the Federal Government. These contingent liabilities arise in the
                                                                                                                      normal course of operations and their ultimate disposition is unknown. The Department
                                                                                                                      has disclosed contingent liabilities where the conditions for liability recognition have not
                                                                                                                      been met and the likelihood of unfavorable outcome is more than remote. The
                                                                                                                      Department does not accrue for possible losses related to cases where the potential
                                                                                                                      loss cannot be estimated or the likelihood of an unfavorable outcome is less than
                                                                                                                      probable. In some cases, a portion of any loss that may occur may be paid by the
                                                                                                                      Treasury's Judgment Fund which is separate from the operating resources of the
                                                                                                                      Department. For those cases related to awards under federal anti-discrimination and
                                                                                                                      whistle blower protection acts, Treasury must reimburse the Judgment Fund from future
                                                                                                                      appropriations. In the opinion of the Department's management and legal counsel,
                                                                                                                      based on information currently available, the expected outcome of legal actions,
                                                                                                                      individually or in the aggregate, will not have a materially adverse effect on the
                                                                                                                      Department's financial statements, except for the legal actions described below.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably      The American Council of the Blind and Others, et. al. v. Paulson: Plaintiffs have filed
                   possible contingencies.                                                                            suit against the Department under Section 504 of the Rehabilitation Act seeking the
                                                                                                                      redesign of U.S. currency. In 2007, a judge ruled that the current U.S. currency design
                                                                                                                      violates this Act and this ruling was appealed. In 2008, the United States Court of
                                                                                                                      Appeals for the District of Columbia Circuit affirmed the District Court¿s ruling. No
                                                                                                                      monetary damages were awarded by the Court. However, the Treasury Department is
                                                                                                                      required to provide meaningful access to United States currency for blind and other
                                                                                                                      visually impaired persons. This may require changes to U.S. currency (excluding the
                                                                                                                      one-dollar note.) The Court ordered such changes to be completed in connection with
                                                                                                                      each denomination of currency, not later than the date when a redesign is next
                                                                                                                      approved by the Secretary of the Treasury. Because the cost of implementing these
                                                                                                                      changes will be incorporated into future currency redesign costs, no redesign costs
                                                                                                                      have been accrued in the accompanying financial statements as of September 30, 2009
                                                                                                                      and September 30, 2008. The Court of Appeals in the above mentioned case ordered
                                                                                                                      the parties to confer and attempt to negotiate attorney fees and costs to be awarded the
                                                                                                                      plaintiffs. In December 2008, the parties filed a joint stipulation agreeing to $800
                                                                                                                      thousand in attorney fees and costs that was paid from the Judgment Fund in February
                                                                                                                      2009.
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.         ¿ Amidax Trading Group v. S.W.I.F.T. makes allegations that the Treasury
                   Also, provide a statement on whether this materiality affects the financial statements.            Department¿s Terrorist Finance Tracking Program has involved unlawful disclosure of



                                                                                                             - 65 -
                                                                                                                                                                                                01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                            Fiscal Year: 2009                   Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:       Note 31

 Status: Complete                        The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
                                                                                                                   information by the Society for Worldwide Interbank Financial Telecommunications
                                                                                                                   (S.W.I.F.T.). Defendants include the Department of the Treasury as well as several
                                                                                                                   Treasury officials. The case was dismissed on February 13, 2009, and the plaintiff has
                                                                                                                   subsequently appealed that ruling. The Treasury Department is unable to determine the
                                                                                                                   likelihood of an unfavorable outcome or an estimate of potential loss at this time.
                                                                                                                   ¿ Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans
                                                                                                                   allege that the Department of Interior and the Department of the Treasury have
                                                                                                                   breached trust obligations with respect to the management of the plaintiffs¿ individual
                                                                                                                   Indian monies. On August 7, 2008, the Federal District Court issued an opinion
                                                                                                                   awarding $455 million to the plaintiffs. This decision was overturned on appeal in July
                                                                                                                   2009. The appellate court found that the government owes a cost-effective accounting,
                                                                                                                   in scale with available funds. The District Court is considering further proceedings. The
                                                                                                                   Treasury Department is unable to determine the likelihood of an unfavorable outcome
                                                                                                                   or an estimate of potential loss at this time. (Please refer Subsequent Events, for
                                                                                                                   additional information.) ¿ Tribal Trust Fund Cases: Numerous cases have been filed in
                                                                                                                   U.S. District Courts in which Native American Tribes seek a declaration that the U.S.
                                                                                                                   has not provided the tribes with a full and complete accounting of their trust funds, and
                                                                                                                   seek an order requiring the government to provide such an accounting. In addition,
                                                                                                                   there are a number of other related cases seeking damages in the United States Court
                                                                                                                   of Federal Claims which do not name the Department as a defendant. It is not possible
                                                                                                                   at this time to determine the likelihood of an unfavorable outcome or an estimate of the
                                                                                                                   amount or range of any potential loss.
                                                                                                                   ¿ Other Legal Actions: The Treasury Department is also involved in employment related
                                                                                                                   legal actions (e.g., Discrimination, Equal Employment Opportunity Commission, Merit
                                                                                                                   System Protection Board, etc.) for which an unfavorable outcome is reasonably
                                                                                                                   possible, but for which an estimate of potential loss cannot be determined at this time. It
                                                                                                                   is not expected that these cases will have a material effect on the Treasury
                                                                                                                   Department¿s financial position or results.
                                                                                                                   ¿ There are other legal actions pending for which the possibility of loss could not be
                                                                                                                   determined, and where the ultimate resolution of the legal actions may materially affect
                                                                                                                   the Treasury Department¿s financial position or results. As of September 30, 2009, four
                                                                                                                   legal claims amounting to approximately $113 million existed for which the possibility of
                                                                                                                   loss could not be determined.

6                  Describe the other claims that may derive from treaties or international agreements.            The Office of Management and Budget, Circular No. A-136, Financial Reporting
                                                                                                                   Requirements and the Treasury
                                                                                                                   Financial Manual, Volume 1, Part 2-4700 require the recognition and disclosure of
                                                                                                                   financial information related
                                                                                                                   to Treaties and International Agreements for fiscal year 2009 financial reporting. The
                                                                                                                   focus of this requirement
                                                                                                                   is to identify Departmental Treaties and International Agreements that commit and
                                                                                                                   obligate the Federal
                                                                                                                   Government and may result in a possible exposure to loss. Any recognition and
                                                                                                                   disclosure of Treaty and
                                                                                                                   International Agreement loss contingencies would be presented in accordance with


                                                                                                          - 66 -
                                                                                                                                                                                             01/07/2010 06:16:24

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                            Fiscal Year: 2009                Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:      Note 31

 Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
                                                                                                                   SFAS No. 5, Accounting for
                                                                                                                   Liabilities of the Federal Government. Any recognition would depend on the likelihood
                                                                                                                   of the future event occurring
                                                                                                                   and the measurability of an amount or range of loss.
                                                                                                                   The Treasury Department does not have any treaties or international agreements to
                                                                                                                   report for fiscal year 2009.
7                  Provide any other relevant information pertaining to this note.                                 N/A




                                                                                                      - 67 -
                                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                    Agency Notes:         Note 31

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                                                   Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit                                                       22                                                     29
 4              Software license       Debit                                                         3
 5              Other                  Debit
 6              Accumulated            Credit                                                      23                                                     20
                depreciation/amorti
                zation
 7              Net assets under        N/A                                                          2                                                     9
                capital leases
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Equipment (CY Non-Federal)                      Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
                                                                    changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Accumulated depreciation/amortization           Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
 (CY Non-Federal)                                                   changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY             Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
 Non-Federal)                                                       changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
       Section: B               Section Name: Capital leases - Liability                                                             Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit                                                        1                                                     3
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A                                                        -1                                                     -3
                liability
Threshold
 Line Description                                                   Question                                                          Answer




                                                                                                             - 68 -
                                                                                                                                                                                              01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                  Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:          Note 31

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B             Section Name: Capital leases - Liability                                                            Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                             Decimal: Zero
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - Future minimum lease programs (CY            Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
 Non-Federal)                                                    changed by 10 percent or more between
                                                                 current fiscal year and prior fiscal year. (unaudited)




       Section: C             Section Name: Commitments: Operating leases and undelivered                                         Line Attributes: Dollars
                                            orders                                                                              Rounding Method: Millions                             Decimal: Zero
Line Status Line Description         NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Operating leases    Credit                          247                        323                          4                          224
 2            Undelivered orders Credit                         29,355                     156,435                        425                    57,088
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - Operating leases (CY Federal)                Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
                                                                 changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (unaudited)
 Other Notes Info - Operating leases (CY Non-Federal)            Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
                                                                 changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (unaudited)
 Other Notes Info - Undelivered orders (CY Non-Federal)          Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
                                                                 changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (unaudited)
 Other Notes Info - Undelivered orders (CY Federal)              Please provide explanations for any amounts that have             Not material to Treasury's fluctuation analysis.
                                                                 changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (unaudited)




                                                                                                          - 69 -
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                  Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        Note 31

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D             Section Name: Other Commitments                                                                     Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description         NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Callable capital    Credit                                                  62,254                                               62,254
                subscriptions for
                multilateral
                development banks
 9              Senior GSE          Credit                                                 289,400                                             186,200
                Preferred Stock
                Purchase
                Agreement
10              GSE Credit Facility Credit                                                                                                             0
11                                  Credit
12                                  Credit
13                                  Credit
14                                  Credit
15            Total                 N/A                                                   -351,654                                            -248,454
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - Senior GSE Preferred Stock Purchase          Please provide explanations for any amounts that have             Increase in the amount available for draw downs.
 Agreement (CY Non-Federal)                                      changed by 10% or more and or greater than $500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (unaudited)




                                                                                                          - 70 -
                                                                                                                                                                                             01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 19          Commitments                                                                                                   Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                    Agency Notes:       Note 31

 Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                       Answer
1                  Describe the lessee's leasing arrangements including the basis on which contingent rental      The Department's significant leases are operating leases with GSA for office space
                   payments are determined, the existence and terms of renewal or purchase options,               which can be cancelled upon notice.
                   escalation clauses and restrictions imposed by lease agreement.
2                  Provide any other relevant information pertaining to this note. (Reference the Note in the     Exchange Stablization Agreement - In April 1994, Treasury signed the North American
                   agency's Performance and Accountability Report.)                                               Framework Agreement (NAFA ), which includes the ESA with Mexico. The Treasury
                                                                                                                  Department has a standing swap line for $3 billion with Mexico under the NAFA and its
                                                                                                                  implementing ESA. The amounts and terms (including the assured source of
                                                                                                                  repayment) of any borrowing under NAFA and ESA will have to be negotiated and
                                                                                                                  agreed to before any actual drawing can occur. The ESA does provide sample clauses
                                                                                                                  that state that transactions shall be exchange rate neutral for the ESF and shall bear
                                                                                                                  interest based on a then current rate tied to U.S. Treasury bills. There were no drawings
                                                                                                                  outstanding on the ESF swap line as of September 30, 2009 and 2008. On December
                                                                                                                  10, 2008, the Treasury renewed its participation in the agreement until December 2010.

                                                                                                                  Multilateral Development Banks (MDB) - The Treasury Department has subscribed to
                                                                                                                  capital for certain MDB, portions of which are callable under certain limited
                                                                                                                  circumstances to meet the obligations of the respective MDB. There has never been,
                                                                                                                  nor is there anticipated, a call on the Treasury Department¿s commitment for these
                                                                                                                  subscriptions. As of September 30, 2009, U.S. callable capital in MDB was $62,254
                                                                                                                  million.




                                                                                                         - 71 -
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 20        Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2009              Period: SEPTEMBER
                     Funds)
                                                                                                                                        Agency Notes:     No Data
     Entity: 2000    Department of the Treasury
                                                                                                                                     I = Inactive Line
  Status: Complete                     The accompanying notes are an integral part of these financial statements.

Tab: Other Notes Info.

       Section: A         Section Name: Assets - Current Year                                    No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                       Decimal: Zero
Line Status Line Description     NB            Inv. in Fed debt            Fund balance with        Interest receivable D           Other Fed assets D         Non-Federal assets D               Total assets
                                            securities - net D                  Treasury D
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A



       Section: B         Section Name: Assets - Prior year                                      No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                       Decimal: Zero
Line Status Line Description     NB     Inv. in Fed Debt Sec. -            Fund balance with        Interest receivable D        Other Federal assets D        Non-Federal assets D               Total assets
                                                         net D                  Treasury D
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A



       Section: C         Section Name: Liabilities - Current Year                               No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                       Decimal: Zero
Line Status Line Description     NB           Liability due and            Other liabilities C               Total liabilities
                                                     payable to
                                              beneficiaries C
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A




                                                                                                    - 72 -
                                                                                                                                                                                         01/07/2010 06:16:24

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 20        Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2009             Period: SEPTEMBER
                     Funds)
                                                                                                                                        Agency Notes:    No Data
     Entity: 2000    Department of the Treasury
                                                                                                                                     I = Inactive Line
  Status: Complete                     The accompanying notes are an integral part of these financial statements.


       Section: D         Section Name: Liabilities - Prior Year                                 No Data Flag: YES                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                     Decimal: Zero
Line Status Line Description     NB            Liability due and           Other liabilities C               Total liabilities
                                                      payable to
                                               beneficiaries C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A


       Section: E         Section Name: Current Year - Revenue, financing, expenses, and         No Data Flag: YES                  Line Attributes: Dollars
                                        other                                                                                     Rounding Method: Millions                     Decimal: Zero
Line Status Line Description     NB     Beginning net position           Exchange revenue -      Exchange revenue - with         Nonexchange revenue -      Nonexchange revenue -    Other financing sources
                                                             C                   Federal C                  the public C                    Federal C            with the public C                         C
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A

Line Status Line Description     NB      Other changes in fund         Program expenses D              Other expenses D            Ending Net Position
                                                   balance C
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A




                                                                                                    - 73 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 20        Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked            Fiscal Year: 2009             Period: SEPTEMBER
                     Funds)
                                                                                                                                   Agency Notes:    No Data
     Entity: 2000    Department of the Treasury
                                                                                                                                I = Inactive Line
  Status: Complete                     The accompanying notes are an integral part of these financial statements.


       Section: F         Section Name: Prior Year - Revenue, financing, expenses, and           No Data Flag: YES             Line Attributes: Dollars
                                        other                                                                                Rounding Method: Millions                     Decimal: Zero
Line Status Line Description     NB     Beginning net position           Exchange revenue -     Exchange revenue - with     Nonexchange revenue -      Nonexchange revenue -    Other financing sources
                                                             C                   Federal C                 the public C                Federal C            with the public C                         C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A

Line Status Line Description     NB      Other changes in fund         Program expenses D              Other expenses D       Ending net position
                                                   balance C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A
       Section: G         Section Name: Other                                                    No Data Flag: YES             Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                     Decimal: Zero
Line Status Line Description     NB          PY - Revenues C            PY - Other financing                 PY - Costs D
                                                                                 sources C
 1                               N/A
 2                               N/A
 3                               N/A
 4                               N/A
 5                               N/A




                                                                                                    - 74 -
                                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 20           Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                      Fiscal Year: 2009             Period: SEPTEMBER
                        Funds)
                                                                                                                                                Agency Notes:    No Data
     Entity: 2000       Department of the Treasury
                                                                                                                                             I = Inactive Line
  Status: Complete                          The accompanying notes are an integral part of these financial statements.


       Section: H            Section Name: Other                                                            No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                          Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB           CY - Revenues C                CY - Other financing                      CY - Costs D       PY - Revenues C          PY - Other financing              PY - Costs D
                                                                                          sources C                                                                             sources C
 1        I                          N/A
 2        I                          N/A
 3        I                          N/A
 4        I                          N/A
 5        I                          N/A


Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                                     Answer
 1                  State the legal authority for the administrative entity of each fund to use the collections
                    based on SFFAS No. 7, par. 85.
 2                  Provide any other relevant information pertaining to this note.




                                                                                                                  - 75 -
                                                                                                                                                                                       01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2009            Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:    Note 27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                                                 Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with           Inv in U. S. Treas.    Interest Receivable D Other Federal assets (with     Other Federal assets
                                                monetary assets D                  Treasury D       Sec.(net of prem. & disc)                               earmarked funds) D       (with non-earmarked
                                                                                                                           D                                                                    funds) D
13              Exchange              N/A                      71,662                                                19,816
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                          18                        885                         5,919
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      71,680                        885                     25,735

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      13,537                    105,015
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                       1,324                      8,146
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      14,861                    113,161




                                                                                                       - 76 -
                                                                                                                                                                                       01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2009            Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:    Note 27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                                                   Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with     Other Federal assets
                                                monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D       (with non-earmarked
                                                                                                                                                                                                funds) D
13              Exchange              N/A                      22,221                         33                      16,847
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                          16                        687                         5,702
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      22,237                        720                      22,549

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      10,841                     49,942
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                       1,441                      7,846
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      12,282                     57,788




                                                                                                      - 77 -
                                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2009                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                       Agency Notes:       Note 27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year                                              Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                               Decimal: Zero
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal                Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
13              Exchange              N/A                                                                                                            61,169                      -61,169                        43,846
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                                                                   231                       9,908                      -10,139                        -1,993
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                                                                  -231                    -71,077                       -71,308                      -41,853

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -105,015
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                       -8,146
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                     -113,161




                                                                                                          - 78 -
                                                                                                                                                                                                     01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                   Fiscal Year: 2009                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                        Agency Notes:       Note 27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Prior Year                                                 Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                               Decimal: Zero
Line Status Line Description          NB           Benefits due and         Other Federal liabilities Other Fed. liabilities (with      Other non-Federal                Total liabilities        Ending net position C
                                                        payable C           (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                    C
13              Exchange              N/A                                                                                                             10,160                      -10,160                        39,782
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                                                                    187                       9,655                       -9,842                        -1,996
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                                                                   -187                    -19,815                       -20,002                      -37,786

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                      -49,942
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                       -7,846
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                      -57,788




                                                                                                           - 79 -
                                                                                                                                                                                             01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2009                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:          Note 27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current                                      Line Attributes: Dollars
                                             Year                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue C        Individual income taxes Unemployment and excise        Other taxes and receipts
                                             beginning of period C                            C                                  and payroll tax withhold               taxes C                               C
                                                                                                                                                       C
13              Exchange              N/A                      39,818                                                    5,145
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                      -2,057                                                     162                                                                             4,683
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                     -37,761                                                -5,307                                                                              -4,683

Line Status Line Description          NB      Miscellaneous earned            Intragovernmental Program net cost - public             Program net cost -         Non-program expenses       Net position, end of
                                                        revenue C               transfers, net C                        D          Intragovernmental D                              D                   period
13              Exchange              N/A                                                                                1,117                                                                          -43,846
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                                    117                         4,501                           397                                              1,993
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                                   -117                         5,618                           397                                            -41,853




                                                                                                      - 80 -
                                                                                                                                                                                           01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2009               Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:      Note 27

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior                                        Line Attributes: Dollars
                                             Year                                                                                 Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue C        Individual income taxes Unemployment and excise      Other taxes and receipts
                                             beginning of period C                            C                                  and payroll tax withhold               taxes C                             C
                                                                                                                                                       C
13              Exchange              N/A                      38,046                                                    1,408
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                      -2,462                                                     210                                                                             923
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                     -35,584                                                -1,618                                                                             -923

Line Status Line Description          NB      Miscellaneous earned            Intragovernmental Program net cost - public             Program net cost -       Non-program expenses       Net position, end of
                                                        revenue C               transfers, net C                        D          Intragovernmental D                            D                   period
13              Exchange              N/A                                                                                -328                                                                         -39,782
                Stabilization Fund
21                                    N/A
22                                    N/A
23                                    N/A
24                                    N/A
25                                    N/A
26              All other earmarked   N/A                                                                                 232                                                  435                      1,996
                funds
27              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
28              Total                 N/A                                                                                 -96                                                  435                    -37,786




                                                                                                      - 81 -
                                                                                                                                                                              01/07/2010 06:16:24

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 22           Earmarked Funds                                                                                         Fiscal Year: 2009             Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                              Agency Notes:       Note 27

  Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: G            Section Name: Number of Agency Earmarked Funds                                                 Line Attributes: Units


Line Status Line Description        NB      2009 - SEPTEMBER             2008 - SEPTEMBER               Previously Rptd     Line Item Changes
 1              Total number of     N/A                    28.0000                     32.0000                    32.0000                   .0000
                earmarked funds




                                                                                                    - 82 -
                                                                                                                                                                                               01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                  Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:      Note 27

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a general description of the individual earmarked funds reported in the Other Notes       Earmarked funds are financed by specifically identified revenues, often supplemented
                   Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the       by other financing sources, which remain available over time. These specifically
                   fund (SFFAS No. 27, par. 23.1).                                                                   identified revenues and other financing sources are required by statute to be used for
                                                                                                                     designated activities or purposes. SFFAS No. 27, ¿Identifying and Reporting
                                                                                                                     Earmarked Funds,¿ issued by the FASAB defines the following three criteria for
                                                                                                                     determining an earmarked fund: 1) A statute committing the Federal Government to use
                                                                                                                     specifically identified revenues and other financing sources only for designated
                                                                                                                     activities, benefits or purposes; 2) Explicit authority for the earmarked fund to retain
                                                                                                                     revenues and other financing sources not used in the current period for future use to
                                                                                                                     finance the designated activities, benefits, or purposes; and 3) A requirement to
                                                                                                                     account for and report on the receipt, use, and retention of the revenues and other
                                                                                                                     financing sources that distinguishes the earmarked fund from the government¿s
                                                                                                                     general revenues. The majority of Treasury¿s earmarked fund activities are attributed
                                                                                                                     to the ESF and the pension and retirement funds managed by the Office of DCP. In
                                                                                                                     addition, several Treasury bureaus operate with ¿public enterprise revolving funds¿
                                                                                                                     and do not receive appropriations from the Congress. These bureaus are BEP, U.S.
                                                                                                                     Mint, OCC, and OTS. Other miscellaneous earmarked funds are managed by BPD, DO,
                                                                                                                     FMS, and TFF. The following is a list of earmarked funds and a brief description of the
                                                                                                                     purpose accounting, and uses of these funds. Exchange Stabilization Fund (ESF)ESF
                                                                                                                     20X4444 Exchange Stabilization Fund D.C. Pensions DCP 20X1713 Federal payment
                                                                                                                     ¿ D.C. Judicial Retirement DCP 20X1714 Federal payment ¿ D.C. Federal Pension
                                                                                                                     Fund DCP 20X5511 D.C. Federal Pension Fund DCP 20X8212 D.C. Judicial
                                                                                                                     Retirement and Survivors Annuity Fund Public Enterprise Revolving Funds BEP
                                                                                                                     20X4502 Bureau of Engraving and Printing Public Enterprise Fund MNT 20X4159
                                                                                                                     Public Enterprise Revolving Fund OCC 20X8413 Assessment Funds OTS 20X4108
                                                                                                                     Public Enterprise Revolving Fund RS 20X4413 Federal Tax Lien Revolving Fund Other
                                                                                                                     Earmarked Funds DO 20X5407 Sallie Mae Assessments DO 20X5816 Confiscated and
                                                                                                                     Vested Iraqi Property and Assets DO 20X8790 Gifts and Bequests Trust Fund FMS
                                                                                                                     205445 Debt Collection FMS 20X5081 Presidential Election Campaign FMS 20X8902
                                                                                                                     Esther Cattell Schmitt Gift Fund FMS 202/35445 Debt Collection Special Fund FMS
                                                                                                                     203/45445 Debt Collection Special Fund FMS 204/55445 Debt Collection Special Fund
                                                                                                                     FMS 205/65445 Debt Collection Special Fund FMS 206/75445 Debt Collection Special
                                                                                                                     Fund FMS 207/85445 Debt Collection Special Fund FMS 208/95445 Debt Collection
                                                                                                                     Special Fund I RS 20X5510 Private Collection Agent Program TFF 20X5697 Treasury
                                                                                                                     Forfeiture Fund BPD 20X5080 Gifts to Reduce Public Debt BPD 20X5080.001 Receipt
                                                                                                                     of Gifts to Reduce Public Debt.
2                  State the legal authority for the administrative entity of each fund to use the revenues and      The ESF uses funds to purchase or sell foreign currencies, to hold U.S. foreign
                   other financing sources based on SFFAS No. 27, par. 23.1                                          exchange and SDR assets, and to provide financing to foreign governments. ESF
                                                                                                                     accounts and reports its holdings to FMS on the SF224, ¿Statement of Transactions as
                                                                                                                     well as to the Congress and Treasury¿s policy office. The Gold Reserve Act of1934,
                                                                                                                     Bretton Woods Agreement Act of 1945, P.L. 95-147 and P.L. 94-564 established and
                                                                                                                     authorized the use of the Fund. SDR in the IMF, Investments in U.S. Securities (BPD),
                                                                                                                     and Investments in Foreign Currency Denominated assets are the sources of revenues
                                                                                                                     or other financing sources. ESF¿s earnings and realized gains on foreign currency
                                                                                                                     denominated assets represent inflows of resources to the government, and the


                                                                                                            - 83 -
                                                                                                                                                                                                  01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                   Fiscal Year: 2009                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       Note 27

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      revenues earned are the result of intra-governmental inflows. D.C. Pension Funds
                                                                                                                      provide annuity payments for retired D.C. teachers, police officers, judges, and
                                                                                                                      firefighters. The sources of revenues are through annual appropriations employees
                                                                                                                      contributions, and interest earnings from investments. All proceeds are earmarked.
                                                                                                                      Note 15 provides detailed information on various funds managed by the Office of DCP.
                                                                                                                      Treasury¿s four non-appropriated bureaus, BEP, Mint, OCC, and OTS, operate public
                                                                                                                      enterprise funds¿ that account for the revenue and expenses related to the production
                                                                                                                      and sale of numismatic products and circulating bureaus coinage (Mint), the currency
                                                                                                                      printing activities (BEP), and support of oversight functions of banking (OCC)and thrift
                                                                                                                      operations (OTS). 31 USC 142 established the revolving fund for BEP to account for
                                                                                                                      revenue and expenses related to the currency printing activities. Public Law 104-52 (31
                                                                                                                      USC §5136) established the Public Enterprise Fund for the Mint to account for all
                                                                                                                      revenue and expenses related to the production and sale of numismatic products and
                                                                                                                      circulating coinage. Revenues and other financing sources at the Mint are mainly from
                                                                                                                      the sale of numismatic and bullion coins, and the sale of circulating coins to the Federal
                                                                                                                      Reserve Banks system. 12 USC 481 established the Assessment Funds for OCC, and
                                                                                                                      103 Stat. 278 established the Public Enterprise Revolving Fund for OTS. Revenue and
                                                                                                                      financing sources are from the bank examination and assessments for the oversight of
                                                                                                                      the national banks, savings associations, and savings and loan holding companies.
                                                                                                                      These earmarked funds do not directly contribute to the inflows of resources to the
                                                                                                                      government; however, revenues in excess of costs are returned to the General Fund of
                                                                                                                      the U.S. Government. There are minimal transactions with other government agencies.
                                                                                                                      There are other earmarked funds at several Treasury bureaus, such as donations to the
                                                                                                                      Presidential Election Campaign Fund, funds related to the debt collection program, gifts
                                                                                                                      to reduce the public debt, and other enforcement related activities. Public laws statutory
                                                                                                                      laws, U.S. Code, and the Debt Collection Improvement Act established and authorized
                                                                                                                      the use of these funds. Sources of revenues and other financing sources include
                                                                                                                      contributions, cash and property forfeited in enforcement activities, public donations,
                                                                                                                      and debt collection.
3                  Explain any changes in legislation during or subsequent to the reporting period and before         N/A
                   the issuance of the financial statements that significantly changes the purpose of the fund or
                   that redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
4                  Provide the sources of revenue and other financing for amounts reported in columns 3               See 2 above
                   through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
5                  Provide any other relevant information pertaining to this note, including explanation for prior-   N/A
                   period adjustments, if any.




                                                                                                             - 84 -
                                                                                                                                                                        01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

   Note: 23         Statement of Social Insurance (a Principal Financial Statement)                                          Fiscal Year: 2009          Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                              Agency Notes:    No data

 Status: Complete                       The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Text Data                      No Data Flag: YES
Line             Question                                                                                        Answer
7                Provide any other relevant information pertaining to this note.




                                                                                                    - 85 -
                                                                                                                                                                 01/07/2010 06:16:24

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

 Note: 24          Social Insurance                                                                                   Fiscal Year: 2009          Period: SEPTEMBER
Entity: 2000       Department of the Treasury                                                                         Agency Notes:    No data

Status: Complete                      The accompanying notes are an integral part of these financial statements.   I = Inactive Line




                                                                                                - 86 -
                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 25             Stewardship Land                                                                                           Fiscal Year: 2009           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                 Agency Notes:     No Data

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: A              Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-                  No Data Flag: YES        Line Attributes: Units
                                             Unaudited
Line Status Line Description          NB        Beginning Balance                         Acquired                   Withdrawn      Ending Balance
 1              Public Land           N/A
 2              National Forest       N/A
                System
 3              National Wildlife     N/A
                Refuge System
 4              National Park         N/A
                System
 5              Mission land          N/A
 6          Water, power, and         N/A
            recreation
 7          All other                 N/A
Tab: Text Data                          No Data Flag: YES
 Line                 Question                                                                                           Answer
 1                    Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                    Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                    Provide a brief statement explainng how the stewardship land relates to the mission of the
                      agency (SFFAS No. 29, par. 40a).
 4                    Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                      No. 29, par. 40b).
 5                    Provide any other information relevant information pertaining to this note.




                                                                                                            - 87 -
                                                                                                                                                                                         01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 26               Heritage Assets                                                                                           Fiscal Year: 2009              Period: SEPTEMBER
     Entity: 2000           Department of the Treasury                                                                                Agency Notes:      Note 17

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: A               Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES            Line Attributes: Units
                                              25d) - Unaudited
Line Status Line Description            NB     CY Physical units as of     CY Physical units added          CY Physical units      CY Physical units-            PY Physical units   PY Physical units added
                                                 the beginning of the                                           withdrawn           ending balance             beginning balance
                                                               year
 1                                      N/A
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A

Line Status Line Description            NB          PY Physical units     PY Physical units-ending
                                                        withdrawn                        balance
 1                                      N/A
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A
       Section: B               Section Name: Non-Collection Type Heritage Assets (SFFAS No.                                       Line Attributes: Units
                                              29, par. 25d) - Unaudited
Line Status Line Description            NB         CY Physical units       CY Physical units added          CY Physical units      CY Physical units-            PY Physical units   PY Physical units added
                                                 beginning balance                                              withdrawn           ending balance             beginning balance
 1              Buildings               N/A                      3.0000                      .0000                         .0000                3.0000                     3.0000
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A

Line Status Line Description            NB          PY Physical units     PY Physical units-ending
                                                        withdrawn                        balance
 1              Buildings               N/A                                                 3.0000
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A




                                                                                                        - 88 -
                                                                                                                                                                                       01/07/2010 06:16:24

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                               Fiscal Year: 2009                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                    Agency Notes:      Note 17

 Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                       Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency   The buildings are multi-use assets and house administrative staff.
                   (SFFAS No. 29, par. 25a).
2                  Provide a brief description of the agency's stewardship policies for each major category of    N/A
                   the heritage assets (SFFAS No. 29, par. 25b).
3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS    Good
                   29, par. 26).
4                  Provide any other relevant information pertaining to this note.                                N/A




                                                                                                         - 89 -
                                                                                                                                                                                       01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                           Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:    Note 30

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                      Line Attributes: Dollars
                                           Current Year                                                                          Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Fid Inv in Fed Debt      Fid FBWT (USSGL 1010        Int Rec on Fid Fed Debt Inv in Non-Fed Debt Sec Cash and cash equivalents         Other assets D
                                                  Sec-net of prem and                    only) D                         Sec D    (and related int rec) D                      D
                                                         discounts D
 1              Unclaimed Monies     N/A                                                        390
                - 20x6133
 2              All Others           N/A                              15                        175                                                                                                    18
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A




                                                                                                         - 90 -
                                                                                                                                                                                                 01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                               Fiscal Year: 2009                 Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                         Agency Notes:         Note 30

  Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: A            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Current Year                                                                              Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB              Liability due and          Other liabilities C   Total fiduciary net assets
                                                             payable to
                                                      beneficiaries C
 1              Unclaimed Monies     N/A                                                                                    390
                - 20x6133
 2              All Others           N/A                                                                                    208
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
       Section: B            Section Name: Schedule of Fiduciary Activity - Deposit Funds -                                            Line Attributes: Dollars
                                           Current Year                                                                              Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C       Investment earnings C        Gain (loss) on disposition   All other inflows to net
                                                       assets bal. D                              C                                                                 of investments, net C                   assets C
 1              Unclaimed Monies     N/A                             366                        -28
                - 20x6133
 2              All Others           N/A                              43                     -1,063                                                         -1
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A



                                                                                                          - 91 -
                                                                                                                                                                                                01/07/2010 06:16:24

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                             Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                       Agency Notes:          Note 30

  Status: Complete                             The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: B            Section Name: Schedule of Fiduciary Activity - Deposit Funds -                                          Line Attributes: Dollars
                                           Current Year                                                                            Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C     Investment earnings C         Gain (loss) on disposition   All other inflows to net
                                                       assets bal. D                              C                                                                of investments, net C                   assets C
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A

Line Status Line Description          NB        Disbursements to and       Administrative and other     All other outflows from      Ending fiduciary net
                                                         on behalf of                  expenses D                 net assets D              assets bal.
                                                     beneficiaries D
 1              Unclaimed Monies     N/A                              -4                                                                                  390
                - 20x6133
 2              All Others           N/A                            -899                                                                                  208
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A




                                                                                                         - 92 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                            Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 2000    Department of the Treasury                                                                                      Agency Notes:      Note 30

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: C         Section Name: Schedule of Changes in Non-Valued Fiduciary Asset           No Data Flag: YES             Line Attributes: Units
                                        - Deposit Funds - Current Year
Line Status Line Description       NB        Beginning quantity of        Additions to quantity           Subtractions from   Ending quantity of non-
                                             non-valued fid assets                                                quantity         valued fid assets

 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A
       Section: D         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES            Line Attributes: Dollars
                                        Funds - Current Year                                                                   Rounding Method: Millions                    Decimal: Zero
Line Status Line Description       NB           Fid Inv in Fed Debt      Fid FBWT (USSGL 1010        Int Rec on Fid Fed Debt Inv in Non-Fed Debt Sec Cash and cash equivalents         Other assets D
                                               Sec-net of prem and                    only) D                         Sec D    (and related int rec) D                      D
                                                      discounts D
 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A



                                                                                                      - 93 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                              Fiscal Year: 2009          Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                        Agency Notes:    Note 30

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: D          Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES              Line Attributes: Dollars
                                        Funds - Current Year                                                                     Rounding Method: Millions                  Decimal: Zero
Line Status Line Description       NB           Fid Inv in Fed Debt      Fid FBWT (USSGL 1010        Int Rec on Fid Fed Debt Inv in Non-Fed Debt Sec Cash and cash equivalents         Other assets D
                                               Sec-net of prem and                    only) D                         Sec D    (and related int rec) D                      D
                                                      discounts D
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A

Line Status Line Description       NB              Liability due and          Other liabilities C   Total fiduciary net assets
                                                          payable to
                                                   beneficiaries C
 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A




                                                                                                       - 94 -
                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                           Fiscal Year: 2009               Period: SEPTEMBER
     Entity: 2000    Department of the Treasury                                                                                     Agency Notes:    Note 30

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: E         Section Name: Schedule of Fiduciary Activity - All Other Agency           No Data Flag: YES           Line Attributes: Dollars
                                        Funds - Current Year                                                                  Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB             Beginning fid net      Fiduciary contributions      Fiduciary revenues C   Investment earnings C      Gain (loss) on disposition   All other inflows to net
                                                    assets bal. D                              C                                                           of investments, net C                   assets C
 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A




                                                                                                      - 95 -
                                                                                                                                                                                    01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                             Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 2000    Department of the Treasury                                                                                       Agency Notes:      Note 30

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: E         Section Name: Schedule of Fiduciary Activity - All Other Agency           No Data Flag: YES              Line Attributes: Dollars
                                        Funds - Current Year                                                                    Rounding Method: Millions                   Decimal: Zero
Line Status Line Description       NB        Disbursements to and       Administrative and other     All other outflows from   Ending fid net asset bal.
                                                      on behalf of                  expenses D                 net assets D
                                                  beneficiaries D
 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
13                                N/A
14                                N/A
15                                N/A
       Section: F         Section Name: Schedule of Changes in Non-Valued Fiduciary                 No Data Flag: YES              Line Attributes: Units
                                        Assets - All Other Agency Funds - Current Year
Line Status Line Description       NB        Beginning quantity of        Additions to quantity           Subtractions from    Ending quantity of non-
                                             non-valued fid assets                                                quantity          valued fid assets

 1                                N/A
 2                                N/A
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A


                                                                                                      - 96 -
                                                                                                                                                                                      01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27            Fiduciary Activities                                                                                            Fiscal Year: 2009            Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:      Note 30

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: F              Section Name: Schedule of Changes in Non-Valued Fiduciary                No Data Flag: YES             Line Attributes: Units
                                             Assets - All Other Agency Funds - Current Year
Line Status Line Description           NB        Beginning quantity of        Additions to quantity           Subtractions from   Ending quantity of non-
                                                 non-valued fid assets                                                quantity         valued fid assets

12                                    N/A
13                                    N/A
14                                    N/A
15                                    N/A



       Section: G              Section Name: Number of Agency Fiduciary Activities                                                    Line Attributes: Units


Line Status Line Description           NB            Total number of fid    Total number of fid funds
                                                  funds - deposit funds      - all other agency funds
 1              All Accounts          N/A                         24.0000                      .0000
 2                                    N/A
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
 8                                    N/A
 9                                    N/A
10                                    N/A
11                                    N/A
12                                    N/A
13                                    N/A
14                                    N/A
15                                    N/A




                                                                                                          - 97 -
                                                                                                                                                                                       01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                             Fiscal Year: 2009           Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:    Note 30

 Status: Complete                             The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Text Data
Line               Question                                                                                             Answer
1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives     N/A
                   of the fiduciary activity, and a general description of the beneficial owners or class of owners
                   of each fiduciary fund (SFFAS No. 31, par. 18 (a)).
2                  Provide information on any significant changes in fiduciary net assets from the prior period         See Treasury Agency Note 30
                   (SFFAS No. 31, par. 18 (c)).
3                  Provide the TAS for all funds with fiduciary activities.                                             See Note 30:
                                                                                                                        20x6513.013,20x6008,20x6045,20x6048,2015x6078,206092,20x6104,20x6133,20x630
                                                                                                                        9,20x6311,20x6312,20x6314,20x6315,20x6501.018,20x6720,20x6830,20x6999,20x67
                                                                                                                        37,20x6738,20x6740,20x6741,20x6317.001,20x6501.018,20x6501.076
4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is              N/A
                   represented by balances on deposit with either the U.S. Treasury or with a commercial
                   banking institution (SFFAS No. 31, par. 12).
5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net             N/A
                   Assets.
6                  For any non-monetary assets included in the Schedules of Fiduciary Net Assets, provide a             N/A
                   description of the composition of the assets, the method(s) of valuation, and the changes (if
                   any) from prior-period accounting methods (SFFAS No. 31, par. 18 (c)).
7                  For any non-valued fiduciary assets included in the Schedules of Non-Valued Fiduciary                N/A
                   Assets, provide a description of the non-valued assets (SFFAS No. 31, par. 18 (d)).
8                  If separate audited financial statements are issued for an individual fiduciary activity with a      N/A
                   fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                   No. 31, par. 18 (e)).
9                  If separate audited financial statements are issued for an individual fiduciary activity, disclose   N/A
                   the basis of accounting used and the auditor's opinion on the current or most recent financial
                   statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                   auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                   12 (a)).
10                 If separate audited financial statements are issued for an individual fiduciary activity, provide    N/A
                   information on the reader can obtain a copy of the financial statements and the audit opinion
                   thereon (SFFAS No. 31, par. 19).
11                 If more than one agency is responsible for administering a fiduciary activity, and the separate      N/A
                   portions of the activity can be clearly identified with another responsible agency, identify the
                   other agency(ies) involved in managing the activity (SFFAS No. 31, par. 19).
12                 Provide any other relevant information pertaining to this note.                                      N/A




                                                                                                              - 98 -
                                                                                                                                                                                           01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in GSE                                                   Fiscal Year: 2009                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                       Agency Notes:      Notes 9, 12

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2009 - SEPTEMBER       2008 - SEPTEMBER
                                                                                  Type
Investment in Government sponsored enterprises (GSEs)                     D         A                     64,679                    7,032
                                                                               Variance:                       0                        0         Rounding Method: Millions            Decimal: Zero
Line Status Line Description            CY - Appraisal value at           CY - Unamortized       CY - Net investment           CY - Interest receivable    CY - Investment Balance     PY - Appraisal value at
                                            purchase date             premium/discount                                                                                                     purchase date
 1          Fannie Mae senior                            25,082                                                    25,082                                                     25,082                      741
            preferred stock
 2          Freddie Mac senior                            28,251                                                   28,251                                                     28,251                      727
            preferred stock
 3          Fannie Mae warrants                            6,707                                                       6,707                                                   6,707                    6,507
            common stock
 4          Freddie Mac warrants                           4,639                                                       4,639                                                   4,639                    4,399
            common stock
 5
 6
 7
 8          All other stock
            Total                                         64,679                                                    64,679                                                    64,679                    12,374

Line Status Line Description                   PY - Unamortized      PY - Net investment           PY - Interest receivable     PY- Investment Balance
 1          Fannie Mae senior                                                              840                                                      840
            preferred stock
 2          Freddie Mac senior                                                             824                                                      824
            preferred stock
 3          Fannie Mae warrants                                                         3,104                                                     3,104
            common stock
 4          Freddie Mac warrants                                                        2,264                                                     2,264
            common stock
 5
 6
 7
 8          All other stock
            Total                                                                       7,032                                                      7,032

Threshold

 Line Description                                              Question                                                               Answer




                                                                                                       - 99 -
                                                                                                                                                                                      01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 28A           Financial and Housing Market Stabilization - Investment in GSE                                          Fiscal Year: 2009                Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                              Agency Notes:      Notes 9, 12

 Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                               Question                                                     Answer
Line Item Notes - Fannie Mae senior preferred stock (CY -      Please provide explanations for any amounts that have        The program started in September FY 2008 and had a full year of activity in
Appraisal value at purchase date)                              changed by 10% or more and or greater than 500,000 between   FY 2009 (i.e. MBS purchases).
                                                               the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Freddie Mac senior preferred stock (CY -     Please provide explanations for any amounts that have        Program started in September FY 2008 and had a full year of activity in FY
Appraisal value at purchase date)                              changed by 10% or more and or greater than 500,000 between   2009 (i.e. MBS purchases).
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                     - 100 -
                                                                                                                                                                                            01/07/2010 06:16:24

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in GSE                                               Fiscal Year: 2009                    Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:          Notes 9, 12

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Appraisal Value at Reporting Date                                                  Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB      CY- Appraisal value at       PY- Appraisal value at
                                                      reporting date               reporting date
 1             Fannie Mae senior       Debit                      25,082                        741
               preferred stock
 2             Freddie Mac senior      Debit                      28,251                        727
               preferred stock
 3             Fannie Mae              Debit                       6,707                      6,507
               warrants common
               stock
 4             Freddie Mac             Debit                       4,639                      4,399
               warrants common
               stock
 5                                     Debit
 6                                     Debit
 7                                     Debit
 8             All other stock         Debit
 9             Total                   N/A                        64,679                     12,374
       Section: B                Section Name: Other Related Information                                                          Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Debt and mortgage Debit                           101,954                        833                                                    833
               backed securities
               outstanding -
               Fannie Mae
 2             Debt and mortgage Debit                            88,768                      2,478                                               2,478
               backed securities
               outstanding -
               Freddie Mac
 3             Debt and mortgage Debit                                   0                        0                                                      0
               backed securities
               outstanding -
               Other
 4             Revenue           Credit                            4,336                          0                                                      0
               recognized from
               acquisition of
               preferred stocks
               and warrants



                                                                                                         - 101 -
                                                                                                                                                                                        01/07/2010 06:16:24

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in GSE                                             Fiscal Year: 2009                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:        Notes 9, 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: B             Section Name: Other Related Information                                                           Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd    Line Item Changes
 5             The liquidation       Debit                           0                          0                                                    0
               preference value
               per share of senior
               preferred stock
 6             Nominal cost of       Debit                           0                          0                                                    0
               common stock on a
               fully-diluted basis



       Section: C             Section Name: Othere Related Information                                                          Line Attributes: Units


Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Number of non-        N/A                2,000,000.0000             2,000,000.0000                                     2,000,000.0000
               voting senior
               preferred stock -
               shares




       Section: D             Section Name: Other Related Information                                                           Line Attributes: Percent


Line Status Line Description          NB       2009 - SEPTEMBER             2008 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Rate of dividents     N/A                      10.0000                     10.0000                                            10.0000




                                                                                                       - 102 -
                                                                                                                                                                                          01/07/2010 06:16:24

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - GSE Keepwell Payable                                             Fiscal Year: 2009               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                    Agency Notes:      Note 9

  Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account    2009 - SEPTEMBER        2008 - SEPTEMBER
                                                                                  Type
Keepwell payable                                                           C        L                    91,937                 13,800
                                                                               Variance:                      0                      0           Rounding Method: Millions           Decimal: Zero
Line Status Line Description          2009 - SEPTEMBER               2008 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Keepwell Payable -                             88,410
             Fannie Mae
 2           Keepwell Payable -                              3,527                     13,800                                                 13,800
             Freddie Mac
 3
 4
 5           All other payables
             Total                                          91,937                     13,800                                                 13,800
Threshold

 Line Description                                               Question                                                          Answer
 Line Item Notes - Keepwell Payable - Freddie Mac (2009 -       Please provide explanations for any amounts that have             FY 2008 was an accrual and FY 2009 is the future contingency
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      - 103 -
THIS PAGE INTENTIONALLY LEFT BLANK
                                   U.S. Department of the Treasury
                       Government-wide Financial Reporting System
                Additional Notes to the Special-Purpose Financial Statements
                                     September 30, 2009



Additional Note 29 – Special-Purpose Financial Statement Requirements


A. Basis of Presentation

Section 405 of the Government Management Reform Act (GMRA) of 1994 [31U.S.C. 331(e)(1)]
requires that the Secretary of the Treasury annually prepare and submit to the President and the
Congress an audited financial statement for the preceding fiscal year. This statement must cover
all accounts and associated activities of the executive branch of the Federal Government. Section
114 of the Budget and Accounting Procedures Act of 1950 (31 U.S.C. 3513a) requires each
executive branch agency to furnish financial and operational information as the Secretary of the
Treasury may stipulate.

The Secretary of the Treasury developed guidance in the U.S. Department of Treasury’s Treasury
Financial Manual (TFM) Chapter 4700, to provide agencies with the instructions to meet the
requirements of GMRA. The TFM Chapter 4700 requires agencies to:

    1. Reclassify all items and amounts on the audited consolidated, department-level balance
       sheet, statements of net cost, changes in net position / income statement, and statement or
       note on custodial activity, if applicable, to the special-purpose financial statements.
    2. Disclose special-purpose financial statement line item amounts identified as Federal by
       trading partner and amount (amounts should be net of intra-bureau and intra-departmental
       eliminations).
    3. Disclose notes required by the special-purpose financial statement line items and other
       notes required in the Financial Report of the U.S. Government (FR); and
    4. Disclose other data not contained in the primary FR financial statements and notes
       required to meet requirements of U.S. generally accepted accounting principles.

The TFM Chapter 4700 requires agencies to use the Government-wide Financial Reporting
System to input the above information. The Closing Package is comprised of the following GFRS
Modules:

    1.   Audited FS Report (GF002A)
    2.   Closing Package Financial Statement Report (GF003F)
    3.   Trading Partner Summary Note Report (GF004F)
    4.   Closing Package Line Reclassification Summary Report (GF003G)
    5.   FR Notes Report (GF006)
    6.   Other Data Report (GF007)

The format for the special-purpose financial statements is based on the U.S. Standard General
Ledger (USSGL) crosswalk to the FR financial statements and notes. In May 2009, Treasury
issued TFM Transmittal Letter No. 650 effective for fiscal year 2009, which provided the
mapping of certain USSGL accounts to the special-purpose financial statements.




                                                1
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009


B. Reporting Entity

The accompanying financial statements include the operations of the U.S. Department of the Treasury
(Treasury Department), one of 24 CFO Act agencies of the Executive Branch of the United States
Government, and certain custodial activities managed on behalf of the entire U.S. Government. The
following paragraphs describe the activities of the reporting entity.

The Treasury Department was created by Act (1 Stat.65) on September 2, 1789. Many subsequent acts
affected the development of the Treasury Department, delegating new duties to its charge and establishing
the numerous bureaus and divisions that now comprise the Treasury Department. As a major policy
advisor to the President, the Secretary has primary responsibility for formulating and managing the
domestic and international tax and financial policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and
international economic and fiscal policy; governing the fiscal operations of the government; maintaining
foreign assets control; managing the federal debt; collecting income and excise taxes; representing the
United States on international monetary, trade, and investment issues; overseeing Departmental overseas
operations; and directing the manufacturing of coins, currency, and other products for customer agencies
and the public.

The Emergency Economic Stabilization Act of 2008 (EESA) was signed into law on October 3, 2008.
EESA authorized the establishment of the Troubled Asset Relief Program (TARP) to be administered by
the Treasury Department. EESA established two new offices within the Treasury Department: the Office
of Financial Stability to administer the TARP, and a new Special Inspector General for TARP
(SIGTARP). Under EESA, the Special Inspector General has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase, management, and sale of
assets under TARP.

The Treasury Department includes the Departmental Offices (DO) and nine operating bureaus. For
financial reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of
Inspector General (OIG), the Special Office of Inspector General for the Troubled Asset Relief Program
(SIGTARP), Treasury Forfeiture Fund (TFF), Exchange Stabilization Fund (ESF), Community
Development Financial Institutions Fund (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector
General for Tax Administration (TIGTA), Federal Financing Bank (FFB), Office of Financial Stability
(OFS), and the DO policy offices, which include the Government Sponsored Enterprise and Mortgage
Backed Securities programs.

The nine operating bureaus are: Office of the Comptroller of the Currency (OCC); Bureau of Engraving
and Printing (BEP); Financial Crimes Enforcement Network (FinCEN); Financial Management Service
(FMS); Internal Revenue Service (IRS); U.S. Mint (Mint); Bureau of the Public Debt (BPD); Office of
Thrift Supervision (OTS); and the Alcohol and Tobacco Tax and Trade Bureau (TTB).

The Treasury Department’s financial statements reflect the reporting of its own entity activities, which
include appropriations it receives to conduct its operations and revenue generated from those operations.
They also reflect the reporting of certain non-entity (custodial) functions it performs on behalf of the U.S.
Government and others.



                                These notes are an integral part of the financial statements.
                                                                    2
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

Non-entity activities include collecting federal revenue, servicing the federal debt, disbursing certain
federal funds, and maintaining certain assets and liabilities for the U.S. Government, as well as for other
federal entities.

The Treasury Department’s reporting entity does not include the “General Fund” of the U.S. Government,
which maintains receipt, disbursement, and appropriation accounts for all federal agencies.

Transactions and balances among the Treasury Department’s entities have been eliminated from the
Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements
of Changes in Net Position.

Following GAAP for federal entities, the Treasury Department has not consolidated into its financial
statements the assets, liabilities, or results of operations of any financial organization or commercial entity
in which it holds either a direct, indirect, or beneficial majority equity investment. Even though some of
the equity investments are significant, these entities meet the criteria of “bailed out” entities under
paragraph 50 of the Statement of Federal Financial Accounting Concepts (SFFAC) No. 2, which directs
that such “bailout” investments should not be consolidated into the financial reports of the Federal
Government, either in part or as a whole.

C. Basis of Accounting and Presentation

The financial statements have been prepared from the accounting records of the Treasury Department in
conformity with accounting principles generally accepted in the United States for federal entities, and the
Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as
amended. Accounting principles generally accepted for federal entities are the standards prescribed by the
Federal Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American
Institute of Certified Public Accountants as the official accounting standards-setting body of the U.S.
Government. As such, the FASAB is responsible for identifying the Generally Accepted Accounting
Principles (GAAP) hierarchy for Federal reporting entities.

In July 2009, the FASAB issued SFFAS No. 34, The Hierarchy of Generally Accepted Accounting
Principles for Federal Entities, Including the Application of Standards Issued by the Financial
Accounting Standards Board. SFFAS No. 34 incorporates the hierarchy of the sources of accounting
principles and the framework for selecting the principles used in the preparation of general purpose
financial reports of Federal reporting entities that are presented in conformity with federal GAAP.

These financial statements are provided to meet the requirements of the Government Management Reform
Act of 1994. They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost,
the Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary
Resources, and the Statements of Custodial Activity. The statements and the related notes are prepared in
a comparative form to present both fiscal year 2009 and fiscal year 2008 information.

While these financial statements have been prepared from the books and records of the Treasury
Department in accordance with the formats prescribed by OMB, these financial statements are in addition
to the financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.




                                 These notes are an integral part of the financial statements.
                                                                     3
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

Intra-governmental assets and liabilities are those from or to other federal entities. Intra-governmental
earned revenues are collections or accruals of revenue from other federal entities, and intra-governmental
costs are payments or accruals of expenditures to other federal entities.

The financial statements should be read with the realization that they are for a component of a sovereign
entity, that liabilities not covered by budgetary resources cannot be liquidated without the enactment of an
appropriation, and that the payment of all liabilities other than for contracts can be abrogated by the
sovereign entity.

Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events. Since Treasury Department is a component of the United States
Government, a sovereign entity, Treasury’s liabilities cannot be liquidated without legislation that
provides resources or an appropriation.

Liabilities covered by budgetary resources are those liabilities for which Congress has appropriated funds
or funding is otherwise available to pay amounts due. Liabilities not covered by budgetary or other
resources represent amounts owed in excess of available, congressionally appropriated funds or other
amounts, and there is no certainty that the appropriations will be enacted. The United States government,
acting in its sovereign capacity, can abrogate liabilities of Treasury arising from other than contracts.

D. Investments

Investments – Credit Reform
Troubled Asset Relief Program (TARP) equity investments, including investments in preferred and
common stock and warrants of public companies are accounted for pursuant to the provisions of the
Federal Credit Reform Act (FCRA) and the associated FASAB accounting standard SFFAS No. 2,
Accounting for Direct Loans and Loan Guarantees, as amended. As consideration for investments made,
Treasury received common stock warrants, preferred shares (referred to as warrant preferred shares) or
additional notes. Treasury concluded that GAAP accounting for such investments using SFFAS No. 2
was appropriate analogous accounting guidance based on the similarity between the equity investments
made by Treasury and direct loans. Consequently, TARP equity investments, including investments in
preferred and common stock and warrants of public companies are accounted for by Treasury using credit
reform accounting in accordance with SFFAS No. 2, as amended, and reported in accordance with FCRA
in these financial statements. Treasury calculates and accounts for equity investments using a market risk
adjusted discount rate. In addition, the inclusion of market risk required by EESA in the valuation
calculation results in accounting for these investments at estimated fair value, which is consistent with the
accounting for other equity investments held by Treasury (i.e., Investments in GSEs).

Treasury recognizes dividend revenue associated with equity investments when declared by the entity in
which Treasury has invested and when received in relation to any repurchases and restructuring. Treasury
reflects changes in the present value of the projected cost value of direct loans, equity investments, and
asset guarantees in the subsidy cost on the Statement of Net Cost annually, as required by FCRA. The
estimated values associated with these additional instruments are disclosed in Note 8.

Investments in Government Sponsored Enterprises
The senior preferred stock liquidity preference (preferred stock) and associated common stock warrant
(warrant(s)) in GSEs are presented at their fair value as permitted by OMB Circular No. A-136. This
Circular includes language that generally requires agencies to value non-federal investments at acquisition


                                These notes are an integral part of the financial statements.
                                                                    4
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2009

cost, and also permits the use of other measurement basis, such as fair value, in certain situations. OMB
issued guidance to the Department of the Treasury on October 7, 2009, noting that while OMB Circular
No. A-136 focuses primarily on federal securities, which are normally accounted for at amortized cost, it
is reasonable to interpret OMB Circular No. A-136 to permit non-federal investments, on an instrument
by instrument election, to be reported on a basis other than cost. OMB’s guidance allows the use of fair
value accounting for non-federal securities beginning with reporting for fiscal year 2009. OMB Circular
No. A-136 also directs agencies with non-federal securities to consult FASB ’s Statement of Financial
Accounting Standards No. 115, Accounting for Certain Investments in Debt and Equity Securities, for
additional guidance. The Investments in GSEs disclosed as of September 30, 2008, were recorded at
acquisition cost at the date of purchase with disclosure of fair values as of fiscal year end 2008.

Treasury performs annual valuations, as of September 30th, of the preferred stock and warrants. Any
changes in valuation, including impairment, is recorded and disclosed in accordance with SFFAS No. 7,
Accounting for Revenue and Other Financing Sources. Since the valuation is an annual process, the
changes in valuation of the preferred stock and warrants are deemed usual and recurring. Accordingly,
changes in valuation are recorded as an exchange transaction that is either an expense or revenue. Since
the costs of preferred stock and warrants are exchange transactions, any change in valuation is also
recorded as an exchange transaction.

In addition, the preferred stock, warrants, and related dividends, and changes in valuation are accounted
for as non-entity transactions. Furthermore, any related revenue, gains, or losses to the preferred stock or
warrants are reported as non-entity exchange revenue. Dividends are accrued when declared; therefore, no
accrual is made for future dividends.

Increases in the non-entity preferred stock liquidity preference occur when quarterly payments to the
GSEs are made pursuant to the preferred stock purchase agreements (i.e., when a GSE’s liabilities exceed
its assets at the end of any quarter). These quarterly payments (liquidity commitments) are made from
funds appropriated directly to the Treasury Department. Therefore, quarterly liquidity payments are
recorded as costs in the Treasury Department’s entity accounts and appear as costs on the Statement of
Net Cost economic program section.

Investments in International Financial Institutions
The Treasury Department invests in Multilateral Development Banks (MDB) to support poverty
reduction, private sector development, and transition to market economies and sustainable economic
growth and development, thereby advancing the United States’ economic, political, and commercial
interests abroad. These investments are non-marketable equity investments valued at cost.

Other Investments and Related Interest
The ESF holds most of the Treasury Department's other investments. Securities that the Treasury
Department has both the intent and ability to hold to maturity are classified as investment securities held
to maturity and are carried at historical cost, adjusted for amortization of premiums and accretion of
discounts, in accordance with OMB Circular No. A-136. The GSE securities held by ESF are in this
category. “Other Foreign Currency Denominated Assets” are considered “available for sale” securities
and recorded at fair value as permitted by OMB Circular No. A-136 beginning in fiscal year 2009. (Prior
to fiscal year 2009, A-136 required reporting at cost.) These holdings are normally invested in interest
bearing securities issued or held through foreign governments or monetary authorities.




                                These notes are an integral part of the financial statements.
                                                                    5
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

E. Tax and Other Non-Entity Receivables

Federal taxes receivable, net and the corresponding liability, due to Treasury are not accrued until related
tax returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court.
Additionally, the prepayments are netted against liabilities. Accruals are made to reflect penalties and
interest on taxes receivable through the balance sheet date.

Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from
taxpayers.

The existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without
sufficient payment, or a court ruling in favor of the IRS. The allowance reflects an estimate of the portion
of total taxes receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the
taxpayer owes to the Federal Government. Examples include assessments resulting from an IRS audit or
examination in which the taxpayer does not agree with the results. Write-offs consist of unpaid
assessments for which the IRS does not expect further collections due to factors such as taxpayers’
bankruptcy, insolvency, or death. Compliance assessments and write-offs are not reported on the balance
sheet. Statutory provisions require the accounts to be maintained until the statute for collection expires.

F. Inventory and Related Property

Inventory and related property include inventory, operating materials and supplies, and forfeited property.
The Treasury Department values inventories at either standard cost, or lower of cost or latest acquisition
cost, except for finished goods inventories, which are valued at weighted-average unit cost. All operating
materials and supplies are recorded as an expense when consumed in operations.

Forfeited property is recorded at estimated fair market value as deferred revenue, and may be adjusted to
reflect the current fair market value at the end of the fiscal year. Property forfeited in satisfaction of a
taxpayer’s assessed liability is recorded when title to the property passes to the U.S. Government and a
corresponding credit is made to the related taxes receivable. Direct and indirect holding costs are not
capitalized for individual forfeited assets.

Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction of
deferred revenue from forfeited assets when the asset is forfeited. The allowance includes mortgages and
claims on forfeited property held for sale and a minimal amount of claims on forfeited property
previously sold. Revenue from the forfeiture of property is deferred until the property is sold or
transferred to a state, local, or federal agency.

Revenue is not recognized if the forfeited property is ultimately destroyed or cannot be legally sold.

G. Loans and Interest Receivable, Intra-governmental – Entity and
Non-Entity

Intra-governmental entity Loans and Interest Receivable from other federal agencies represent loans and
interest receivable held by the Treasury Department. No credit reform subsidy costs were recorded for



                                These notes are an integral part of the financial statements.
                                                                    6
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2009

loans purchased from federal agencies or for guaranteed loans made to non-federal borrowers, because of
outstanding balances guaranteed (interest and principal) by those agencies.

Intra-governmental non-entity Loans and Interest Receivable from other federal agencies represent loans
issued by the Treasury Department to federal agencies on behalf of the U.S. Government. The Treasury
Department acts as an intermediary issuing these loans, because the agencies receiving these loans will
lend these funds to others to carry out various programs of the Federal Government. Because of the
Treasury Department’s intermediary role in issuing these loans, the Treasury Department does not record
an allowance related to these intra-governmental loans. Instead, loan loss allowances and subsidy costs
are recognized by the ultimate lender, the federal agency that issued the loans to the public.

H. Advances to the Black Lung Trust Fund

Advances were provided to the Department of Labor’s Black Lung Disability Trust Fund from the
General Fund of the U.S. Government. BPD accounted for the advances on behalf of the General Fund of
the U.S. Government. Advances to the Black Lung Disability Trust Fund were accounted for pursuant to
the Benefits Revenue Act which states: “In the event that fund resources are not adequate to meet fund
obligations, then, advances of interest and principal are paid to the General Fund of the U.S. Government
when the Secretary of the Treasury determines that funds are available in the trust fund for such
purposes.” The advances to the Black Lung Trust Fund were repayable with interest at a rate determined
by the Secretary of the Treasury to be equal to the current average market yield on outstanding
marketable obligations of the United States with remaining periods to maturity comparable to the
anticipated period during which the advance will be outstanding. Advances made prior to 1982 carried
rates of interest equal to the average rate borne by all marketable interest-bearing obligations of the
United States then forming a part of the public debt.

The Benefits Revenue Act authorized restructuring of the Trust Fund debt by the repayment of the market
value of outstanding repayable advances with the proceeds of Authorized Trust Fund borrowing and a
one-time appropriation of $6.498 billion. As a result of the refinancing, the General Fund of the U.S.
Government recognized a gain of $2.496 billion for the difference between the market value of the
outstanding advances plus accrued interest of $12.994 billion and the carrying value of the outstanding
advances plus accrued interest of $10.498 billion.

I. Advances to the Unemployment Trust Fund

Advances have been issued to the Department of Labor's Unemployment Trust Fund from the General
Fund of the U.S. Government to states for unemployment benefits. The Bureau of the Public Debt
accounts for the advances on behalf of the General Fund. As outlined in 42 USC § 1323, these repayable
advances bear an interest rate of 3.375 percent, and were computed as the average interest rate, as of the
end of the calendar month preceding the issuance date of the advance, for all interest bearing obligations
of the United States then forming the public debt, to the nearest lower one-eighth of one percent. Interest
on the repayable advances is due on September 30th of each year. Advances will be repaid by transfers
from the Unemployment Trust Fund to the General Fund when the Secretary of the Treasury, in
consultation with the Secretary of Labor, has determined that the balance in the Unemployment Trust
Fund is adequate to allow repayment.




                                These notes are an integral part of the financial statements.
                                                                    7
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

J. Receivable on Deposit of Earnings, Federal Reserve System

Reserve Banks are required by the Board of Governors of the Federal Reserve System to transfer to the
U.S. Treasury excess earnings, after providing for the cost of operations, payment of dividends, and
reservation of an amount necessary to equate surplus with capital paid in. In the event of losses, or a
substantial increase in capital, a Reserve Bank will suspend its payments to the U.S. Treasury until such
losses or increases in capital are recovered through subsequent earnings. Weekly payments to the U.S.
Treasury may vary significantly. The Receivable on Deposit of Earnings, Federal Reserve System,
represents the earnings due Treasury as of September 30, but not collected by the U.S. Treasury until after
the end of the month.

K. Property, Plant, and Equipment

General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services.
It also includes assets acquired through capital leases, which are initially recorded at the amount
recognized as a liability for the capital lease at its inception. PP&E is stated at full cost, including costs
related to acquisition, delivery, and installation, less accumulated depreciation. Major alterations and
renovations including leasehold and land improvements are capitalized, while maintenance and repair
costs are charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding
significant new functionality and long-term benefits. Costs for developing internal use software are
accumulated in work in development until a project is placed into service, and testing and final
acceptance are successfully completed. Once completed, the costs are transferred to depreciable property.

Costs for construction projects are recorded as construction-in-progress until completed, and are valued at
actual (direct) cost, plus applied overhead and other indirect costs.

The Treasury Department leases land and buildings from the General Services Administration (GSA) to
conduct most of its operations. GSA charges a standard level users fee which approximates commercial
rental rates for similar properties. Therefore, GSA-owned properties are not included in the Department’s
PP&E.

The Treasury Department’s bureaus are diverse both in size and in operating environment. Accordingly,
the Department’s capitalization policy provides minimum capitalization thresholds which range from
$25,000 to $50,000. The Treasury Department also uses a capitalization threshold range for bulk
purchases: $250,000 to $500,000 for non manufacturing bureaus and $25,000 to $50,000 for
manufacturing bureaus. Bureaus determine the individual items that comprise bulk purchases. In addition,
Treasury bureaus may expense bulk purchases if they conclude that total period costs would not be
materially distorted and the cost of capitalization is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the
exception of leasehold improvements, which are depreciated over the useful life of the lease or the useful
life of the improvement, whichever is shorter. Service life ranges are high due to the Treasury
Department’s diversity of PP&E.



                                 These notes are an integral part of the financial statements.
                                                                     8
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2009

Construction in progress and internal use software in development are not depreciated.

Heritage Assets
The Treasury Department owns the Treasury building -- a multi-use heritage asset. The building housing
the United States Mint in Denver, Colorado, is also considered a multi-use heritage asset. Multi-use
heritage assets are assets of historical significance for which the predominant use is general government
operations. All acquisition, reconstruction, and betterment costs for the Treasury Department building are
capitalized as general PP&E and depreciated over their service life.

L. Non-entity Government-wide Cash

Non-entity government-wide cash is held in depositary institutions and Federal Reserve accounts.
Agencies can deposit funds that are submitted to them directly into either a Federal Reserve Treasury
General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are transferred
to the FRBNY’s TGA at the end of each day.

Operating Cash of the U.S. Government represents balances from tax collections, customs duties, other
revenue, federal debt receipts, and other various receipts net of cash outflows for budget outlays and other
payments held in the Federal Reserve Banks, foreign and domestic financial institutions, and in U. S.
Treasury Tax and loan accounts. Outstanding checks are netted against operating cash until they are
cleared by the Federal Reserve System.

The Treasury General Account (TGA) is maintained at the Federal Reserve Bank of New York (FRBNY)
and functions as the government’s checking account for deposits and disbursements of public funds. The
Treasury Tax and Loan (TT&L) program includes about 9,000 depositories that accept tax payments and
remit them the day after receipt to FRBNY’s TGA. Certain TT&L depositaries also hold Non-entity
Government-wide Cash in interest bearing accounts. Cash in the TGA and the TT&L program is
restricted for Government-wide operations.

U. S. Treasury Tax and Loan Accounts include funds invested through the Term Investment Option
program and the Repo program. Under the Term Investment Option program Treasury auctions funds for
a set term, usually in the range of one day to three weeks. Under the Repo program, Treasury invests
funds through overnight reverse repurchase agreements. However, under both programs, Treasury
reserves the right to call the funds prior to maturity under special circumstances.

The Supplementary Financing Program (SFP) Account is maintained at FRBNY. SFP is a temporary
program announced by Treasury and the Federal Reserve on September 14, 2008, to provide emergency
cash for Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. The
program consists of a series of Treasury bills, apart from Treasury's current borrowing program.
To promote stability in the mortgage market, a Federal Reserve account was established at JP Morgan
Chase. Treasury uses this account to purchase Government Sponsored Enterprise (GSE) mortgage-backed
securities in the open market.

Other cash is mostly comprised of Automated Clearinghouse transfers and other deferred items.




                                These notes are an integral part of the financial statements.
                                                                    9
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

M. Federal Debt

Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as
expenses when incurred, instead of when paid. Certain Treasury securities are issued at a discount or
premium. These discounts and premiums are amortized over the term of the security using an interest
method for all long term securities and the straight line method for short term securities. The Treasury
Department also issues Treasury Inflation-Protected Securities (TIPS). The principal for TIPS is adjusted
daily over the life of the security based on the Consumer Price Index for all Urban Consumers.

N. Loan Commitments

The FFB recognizes loan commitments when the FFB and the other parties fully execute the promissory
notes and reduces loan commitments when the FFB issues loans or when the commitments expire. Most
obligations of the FFB give a borrower the contractual right to a loan or loans immediately or at some
point in the future. The FFB limits the time available for a loan under an obligation, where applicable.

O. Pension Costs, Other Retirement Benefits, and Other Post Employment Benefits

The Treasury Department recognizes the full costs of its employees’ pension benefits. However, the
liabilities associated with these costs are recognized by the Office of Personnel Management (OPM)
rather than the Treasury Department.

Most employees of the Treasury Department hired prior to January 1, 1984, participate in the Civil
Service Retirement System (CSRS), to which the Treasury Department contributes 8.51percent of salaries
for regular CSRS employees. On January 1, 1987, the Federal Employees Retirement System (FERS)
went into effect pursuant to Public Law 99-335. Employees hired after December 31, 1983, are
automatically covered by FERS and Social Security. A primary feature of FERS is that it offers a savings
plan to which the Treasury Department automatically contributes 1 percent of base pay and matches any
employee contributions up to an additional 4 percent of base pay. For most employees hired after
December 31, 1983, the Treasury Department also contributes the employer’s matching share for Social
Security. For the FERS basic benefit, the Treasury Department contributes 11.2 percent for regular FERS
employees.

Similar to federal retirement plans, OPM, rather than the Treasury Department, reports the liability for
future payments to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and Federal Employees’ Group Life Insurance (FEGLI) Program. The Treasury Department
reports the full cost of providing other retirement benefits (ORB). The Treasury Department also
recognizes an expense and liability for other post employment benefits (OPEB), which includes all types
of benefits provided to former or inactive (but not retired) employees, their beneficiaries, and covered
dependents. Additionally, the Treasury Department bureaus, OCC and OTS, separately sponsor certain
benefit plans for their employees. OCC sponsors a defined life insurance benefit plan for current and
retired employees. Additionally, OTS provides certain health and life benefits for all retired employees
who meet eligibility requirements

P. Special Drawing Rights (SDR)

The ESF was established for use by the Secretary of the Treasury to account for the purchase or sale of
foreign currencies, to hold U.S. foreign exchange and Special Drawing Rights (SDR) holdings, and to


                                These notes are an integral part of the financial statements.
                                                                    10
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

provide financing to foreign governments. SDR transactions of the ESF require the explicit authorization
of the Secretary of the Treasury.

The International Monetary Fund (IMF) has authority to cancel, in part or in whole, SDRs created under
previous allocations. Decisions of the IMF to cancel an SDR are adopted by the IMF’s Board of
Governors on a basis of proposal by the IMF Managing Director, with concurrence by the IMF Executive
Board. The same majority requirements as those for allocations apply to the Executive Board’s
concurrence and to the Board of Governor’s decision on an SDR cancellation proposal.

Allocations and Holdings
Allocations of SDR are recorded as liabilities. These liabilities represent the amount that is payable in the
event of liquidation of, or U.S. withdrawal from the SDR department of the IMF, or cancellation of the
SDR.

SDR holdings represent transactions resulting from ESF SDR activities. These activities are primarily the
result of IMF allocations. Other transactions reported in this account are recorded as incurred. They
include SDR acquisitions and sales, interest received on SDR holdings, interest charges on SDR
allocations, and valuation adjustments.

The U.S. Government receives remuneration in SDRs from the IMF. This is based on claims on the IMF,
represented by the U.S. Reserve Position. The allocations and holdings are revalued monthly based on the
SDR valuation rate calculated by the IMF.

Certificates
The SDR Act of 1968 authorized the Secretary of the Treasury to issue certificates, not to exceed the
value of SDR holdings, to the Federal Reserve Banks in return for interest-free dollar amounts equal to
the face value of certificates issued. The certificates may be issued to finance the acquisition of SDR from
other countries or to provide resources for financing other ESF operations. Certificates issued are to be
redeemed by the Treasury Department at such times and in such amounts as the Secretary may determine.

Certificates issued to Federal Reserve Banks are stated at their face value. It is not practical to estimate
the fair value of certificates issued to Federal Reserve Banks, since these certificates contain no specific
terms of repayment.

Q. Federal Employee Benefits Payable—FECA Actuarial Liability

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered federal civilian employees injured on the job, and employees who have incurred a work-related
injury or occupational disease. These future workers’ compensation estimates were generated from an
application of actuarial procedures developed to estimate the liability for FECA benefits. The actuarial
liability estimates for FECA benefits include the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases.

R. Annual, Sick, and Other Leave

Annual and compensatory leave earned by Treasury employees, but not yet used, is reported as an
accrued liability. The accrued balance is adjusted annually to current pay rates. Any portions of the



                                 These notes are an integral part of the financial statements.
                                                                     11
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

accrued leave, for which funding is not available, are recorded as an unfunded liability. Sick and other
leave are expensed as taken.

S. Revenue and Financing Sources

Treasury Department activities are financed either through exchange revenue it receives from others or
through non-exchange revenue and financing sources (such as appropriations provided by the Congress
and penalties, fines, and certain user fees collected). User fees primarily include IRS reimbursable costs to
process installment agreements and accompanying photocopy and reproduction charges. Exchange
revenues are recognized when earned; i.e., goods have been delivered or services have been rendered.
Non-exchange revenues are recognized when received by the respective Treasury Department collecting
bureau. Appropriations used are recognized as financing sources when related expenses are incurred or
assets are purchased. Revenue from reimbursable agreements is recognized when the services are
provided. The Treasury Department also incurs certain costs that are paid in total or in part by other
federal entities, such as pension costs. These subsidized costs are recognized on the Consolidated
Statement of Net Cost, and the imputed financing for these costs is recognized on the Consolidated
Statement of Changes in Net Position. As a result, there is no effect on net position. Other non-exchange
financing sources such as donations and transfers of assets without reimbursements also are recognized
for the period in which they occurred on the Consolidated Statement of Changes in Net Position.

The Treasury Department recognizes revenue it receives from disposition of forfeited property as non-
exchange revenue on the Consolidated Statement of Changes in Net Position. The costs related to the
Forfeiture Fund program are reported on the Consolidated Statement of Net Cost.

T. Custodial Revenues and Collections

Non-entity revenue reported on the Treasury Department’s Statement of Custodial Activity includes cash
collected by the Treasury Department, primarily taxes. It does not include revenue collected by other
federal agencies, such as user fees and other receipts, which are remitted for general operating purposes of
the U.S. Government or are earmarked for certain trust funds. The Statement of Custodial Activity is
presented on the “modified accrual basis.” Revenues are recognized as cash is collected. The “accrual
adjustment” is the net increase or decrease, during the reporting period, in net revenue related-assets and
liabilities, mainly taxes receivable. The Balance Sheets include an estimated amount for taxes receivable
and payable to the General Fund of the U.S. Government at September 30, 2009 and September 30, 2008.

U. Tax Assessments, Abatements, and Refunds Payable

Under Internal Revenue Code Section 6201, the Treasury Department is authorized and required to make
inquiries, determinations, and assessments of all taxes which have not been duly paid (including interest,
additions to the tax, and assessable penalties) under the law. Unpaid assessments result from taxpayers
filing returns without sufficient payment, as well as from tax compliance programs such as examination,
under-reporter, substitute for return, and combined annual wage reporting. The Treasury Department also
has authority to abate the paid or unpaid portion of assessed tax, interest, and penalty. Abatements occur
for a number of reasons and are a normal part of the tax administration process. Abatements may result in
claims for refunds or a reduction of the unpaid assessed amount.

Refunds payable arise in the normal course of tax administration when it is determined that taxpayers
have paid more than the actual taxes they owe. Amounts the Treasury Department has concluded to be


                                These notes are an integral part of the financial statements.
                                                                    12
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

valid refunds owed to taxpayers are recorded as a liability (Refunds Payable on the Balance Sheet), with a
corresponding receivable from the General Fund. This receivable is included on the Balance Sheet in the
line entitled “Due from the General Fund.”

V. Permanent and Indefinite Appropriations

Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax
credits. These appropriations are not subject to budgetary ceilings established by Congress. Therefore,
refunds payable at year end are not subject to funding restrictions. Refund payment funding is recognized
as appropriations are used. Permanent indefinite authority for refund activity is not stated as a specific
amount and is available for an indefinite period of time. Although funded through appropriations, refund
activity, in most instances, is reported as a custodial activity of the Treasury Department, since refunds
are, in substance, a custodial revenue-related activity resulting from taxpayer overpayments of their tax
liabilities.

The Treasury Department also receives two permanent and indefinite appropriations related to debt
activity. One is used to pay interest on the public debt securities; the other is used to redeem securities
that have matured, been called, or are eligible for early redemption. These accounts are not annual
appropriations and do not have refunds.

Debt activity appropriations are related to the Treasury Department’s liability and are reported on the
Treasury Department’s Balance Sheet. Permanent indefinite authority for debt activity is available for an
indefinite period of time.

Treasury receives permanent indefinite appropriations annually to fund increases in the projected subsidy
costs of credit programs as determined by the reestimation process required by the FCRA.

Additionally, the Treasury Department receives other permanent and indefinite appropriations to make
certain payments on behalf of the U.S. Government. These appropriations are provided to make payments
to the Federal Reserve Banks for services provided. They also include appropriations provided to make
other disbursements on behalf of the U.S. Government, including payments made to various parties as the
result of certain claims and judgments rendered against the United States.

W. Income Taxes

As an agency of the Federal Government, the Treasury Department is exempt from all income taxes
imposed by any governing body, whether it is a federal, state, commonwealth, local, or foreign
government.

X. Use of Estimates

The Treasury Department has made certain estimates and assumptions relating to the reporting of assets,
liabilities, revenues, expenses, and the disclosure of contingent liabilities to prepare these financial
statements. Actual results could differ from these estimates. Significant transactions subject to estimates
include loan receivables (including Mortgage Backed Securities (MBS) and TARP); investments in non-
federal securities (including Government Sponsored Enterprises (GSEs), foreign and domestic public
entities) and related impairment, if any; tax receivables; loan guarantees; depreciation; liability for



                                 These notes are an integral part of the financial statements.
                                                                     13
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2009

liquidity commitment (GSEs); imputed costs; actuarial liabilities; cost and earned revenue allocations;
contingent legal liabilities; and credit reform subsidy costs.

The Treasury recognizes the sensitivity of credit reform modeling to slight changes in some model
assumptions and uses regular review of model factors, statistical modeling, and annual reestimates to
reflect the most accurate cost of the credit programs to the U.S. Government. Two of the emergency
economic programs that Treasury implemented in the latter part of September 2008, the purchase
program for MBS and the GSE credit line facility, both operate under the provisions of credit reform and
the use of estimates as dictated by the Federal Credit Reform Act (Note 12). Additionally, all TARP
credit activity, including investments in common and preferred stock and warrants of public companies
and loans and loan guarantees or guaranty-like insurance activities, are also subject to credit reform
subsidy cost estimates and valuation of direct loans, equity investments and asset guarantees. (Notes 8
and 12)

The forecasted future cash flows used to determine these amounts as of September 30, 2009, are sensitive
to slight changes in model assumptions, such as general economic conditions, specific stock price
volatility of the entities in which the Treasury Department has an equity interest, estimates of expected
default, and prepayment rates. Forecasts of future financial results have inherent uncertainty and the
TARP Direct Loans and Equity Investments, Net, and Asset Guarantee Program line items as of
September 30, 2009, are reflective of relative illiquid, troubled assets whose values are particularly
sensitive to future economic conditions and other assumptions.

Additional discussion related to sensitivity analysis can be found in the Management’s Discussion and
Analysis section of the Agency Financial Report. The GSE preferred stock agreements provide that the
Treasury Department will increase its investment in the GSE’s senior preferred stock if at the end of any
quarter the Federal Housing Finance Agency (FHFA ), acting as the conservator, determines that the
liabilities of either GSE, individually, exceed its respective assets. Based on U.S. GAAP, these contingent
liquidity commitments predicated on the future occurrence of any shareholders’ deficits of the GSEs at
the end of any reporting quarter, are potential liabilities of Treasury. Valuation analyses were performed
to attempt to provide a “sufficiently reliable” estimate of the outstanding commitment in order for
Treasury to record the remaining liability in accordance with SFFAS 5. The valuation incorporated
various forecasts, projections and cash flow analysis to develop an estimate of potential liability. Note 9
discusses the results of the valuation and the liability recorded as of September 30, 2009.

Y. Credit Risk

Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or a
counterparty to perform in accordance with underlying contractual obligations. The Treasury Department
takes on possible credit risk when it makes direct loans or credits to foreign entities or becomes exposed
to institutions which engage in financial transactions with foreign countries (Note 11). Given the history
of the Treasury Department with respect to such exposure and the financial policies in place in the U. S.
Government and other institutions in which the United States participates, the Treasury Department
expectations of credit losses is nominal.

The Treasury Department also takes on credit risk related to committed but undisbursed direct loans, its
liquidity commitment to GSE, its MBS portfolio, investments, loans, and asset guarantees of the TARP,
its insurance of non-FDIC insured money market funds, and its Terrorism Risk Insurance Program.
Except for the Terrorism Risk Insurance Program, these activities focus on the underlying problems in the


                                These notes are an integral part of the financial statements.
                                                                    14
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

credit markets, and the ongoing instability in those markets exposes the Department to potential unknown
costs and losses. The extent of the risk assumed by the Treasury Department is described in more detail in
the notes to the financial statements, and where applicable is factored into credit reform models and
reflected in fair value measurements (Notes 8, 9 & 12).

In addition, for EESA programs, the statute requires that market risk be considered in the subsidy cost of
the asset, through an adjustment to the discount rate. Within the TARP programs, Treasury has invested
in many assets that would traditionally be held by private investors and their valuation would inherently
include market risk. Thus, for all TARP direct loan, guarantee, and equity purchase programs, Treasury
calculates a Market Risk Adjusted Discount Rate (MRADR). Therefore, the Treasury cost estimates for
the TARP programs are adjusted for unexpected loss and the estimated risk of expected cash flows. Under
SFFAS No. 2, including market risk in the cash flow estimates is consistent with the type of assets and
liabilities being valued. The inclusion of the MRADR is the mechanism for providing the fair market
value of the assets.

Z. Earmarked Funds

Treasury has accounted for revenues and other financing sources for earmarked funds separately from
other funds. Earmarked funds are financed by specifically identified revenues, often supplemented by
other financing sources, which remain available over time. These specifically identified revenues and
other financing sources are required by statute to be used for designated activities or purposes. SFFAS
No. 27, Identifying and Reporting Earmarked Funds, defines the following three criteria for determining
an earmarked fund: (1) A statute committing the Federal Government to use specifically identified
revenues and other financing sources not used in the current period for future use to finance the
designated activities, benefits, or purposes; (2) Explicit authority for the earmarked fund to retain
revenues and other financing sources not used in the current period for future use to finance the
designated activities, benefits, or purposes; and (3) A requirement to account for and report on the receipt,
use, and retention of the revenues and other financing sources that distinguished the earmarked fund from
the Federal Government’s general revenues.

AA. Allocation Transfers

The Treasury Department is a party to allocation transfers with other federal agencies as both a
transferring (parent) entity and/or a receiving (child) entity. Allocation transfers are legal delegations by
one department of its authority to obligate budget authority and outlay funds to another department. A
separate fund account (allocation account) is created in the U.S. Treasury as a subset of the parent fund
account for tracking and reporting purposes. All allocation transfers of balances are credited to this
account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation
account as they execute the delegated activity on behalf of the parent. Beginning in fiscal year 2007,
parent federal agencies report both the proprietary and budgetary activity and the child agency does not
report any financial activity related to budget authority allocated from the parent federal agency to the
child federal agency.

The Treasury Department allocates funds, as the parent, to the Department of Energy. OMB allows
certain exceptions to allocation reporting for certain funds. Accordingly, the Treasury Department has
reported certain funds for which the Treasury Department is the child in the allocation transfer, but in
compliance with OMB guidance (A-136 III.4.2 section 5 for three exceptions), will report all activities
relative to these allocation transfers in the Treasury Department’s financial statements. Also, the Treasury


                                These notes are an integral part of the financial statements.
                                                                    15
                                 U.S. Department of the Treasury
                           Government-wide Financial Reporting System
                    Additional Notes to the Special Purpose Financial Statements
                                         September 30, 2009

Department receives allocation transfers, as the child, from the Agency for International Development
and Department of Transportation. The Treasury Department had no significant allocation transfers to
report in fiscal years 2009 and 2008.

AB. Credit Reform Accounting

The authoritative guidance for the credit reform portion of these statements is contained primarily in
SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19,
Technical Amendments to Accounting Standards for Direct Loans and Loan Guarantees. This guidance
was promulgated as a result of the Federal Credit Reform Act of 1990 (FCRA).

The FCRA requires that the ultimate costs of a credit program be calculated, and the budgetary resources
obtained, before the direct loan obligations are incurred. The cost of loan guarantee programs is the net
present value of the estimated future cash flows from payments (for claims and interest rate subsidies).
The primary purpose of the FCRA, which became effective on October 1, 1991, is to more accurately
measure the cost of federal credit programs and to place the cost of such credit programs on a basis
equivalent with other federal spending.

SFFAS No. 2, which generally mirrors the requirements of the FCRA, established guidance for estimating
the cost of direct and guaranteed loan programs, as well as for recording direct loans and liabilities for
loan guarantees for financial reporting purposes. SFFAS No. 2 states that the actual and expected costs of
federal credit programs should be fully recognized in both budgetary and financial reporting. To
accomplish this, agencies first predict or estimate the future performance of direct and guaranteed loans
when preparing their annual budgets. The data used for these budgetary estimates are reestimated after the
fiscal year-end to reflect changes in actual loan performance and actual interest rates in effect when the
loans were issued. The data used for these estimates were reestimated at the fiscal year-end to reflect
adjustments for market risk, asset performance, and other key variables and economic factors. The
reestimate data are then used to report the cost of the loans disbursed under the direct or guaranteed loan
program as a “Program Cost” in the agencies’ Statement of Net Cost.

The FCRA establishes budgetary and financing control for each credit program through the use of the
program, financing and negative subsidy receipt accounts for direct loans obligated after September 30,
1991. The FCRA establishes the use of the program, financing, and general fund receipt for direct loans
obligated after September 30, 1991. These accounts are classified as either budgetary or non-budgetary in
the Combined Statements of Budgetary Resources. The budgetary accounts include the program accounts
and receipt accounts. The nonbudgetary accounts consist of the credit reform financing accounts.

The program account is a budget account that receives and obligates appropriations to cover the subsidy
cost of a direct loan or guarantee and disburses the subsidy cost to the financing account. The program
account also receives appropriations for administrative expenses. The financing account is a non-
budgetary account that records all of the cash flows resulting from Credit Reform direct loans or loan
guarantees. It disburses loans, collects repayments and fees, makes claim payments, holds balances,
borrows from BPD, earns or pays interest, and receives the subsidy cost payment from the program
account.

The General Fund receipt account is a budget account used for the receipt of amounts paid from the
financing account when there is a negative subsidy or negative modification from the original estimate or


                               These notes are an integral part of the financial statements.
                                                                   16
                                  U.S. Department of the Treasury
                            Government-wide Financial Reporting System
                     Additional Notes to the Special Purpose Financial Statements
                                          September 30, 2009

a downward reestimate. They are available for appropriations only in the sense that all General Fund
receipts are available for appropriations. Any assets in this account are non-entity assets and are offset by
intra-governmental liabilities. At the end of the fiscal year, the fund balance transferred to the U.S.
Treasury through the General Fund receipt account is no longer included in Treasury’s fund balance
reporting.

The Department of Treasury accounts for TARP direct loans, equity investments and Asset Guarantees,
MBS purchased as a part of GSEs assistance program, and the GSE Credit Facility program, in
accordance with the FCRA and the provisions under the FASAB accounting standard SFFAS No. 2, as
amended. Treasury determined it was acceptable to include an estimate of market risk in the calculation
of subsidy cost under SFFAS No. 2.

AC. Fiduciary Activities

Treasury has adopted SFFAS No. 31, Accounting for Fiduciary Activities, which is effective for years
beginning after September 30, 2008. SFFAS No. 31, prescribes that fiduciary type activities and related
transactions will no longer be reported in proprietary financial statements. Fiduciary activities are the
collection or receipt, and the management, protection, accounting, investment, and disposition by the
Federal Government of cash or other assets in which non-Federal individuals or entities have an
ownership interest that the Federal Government must uphold. Fiduciary cash and other assets are not
assets of the Federal Government. While these activities are no longer reported in the proprietary financial
statements, they are required to be reported on schedules in the notes to financial statements (Note 30).

AD. Reclassifications

Certain fiscal year 2008 balances on the Statements of Budgetary Resources (SBR) and Net Cost (SNC)
have been reclassified to conform to the fiscal year 2009 presentations. In fiscal year 2009, certain SBR
budgetary and non-budgetary amounts were disaggregated whereas in fiscal year 2008 they were reported
in the aggregate. The change was made to appropriately disclose the significant TARP and GSEs non-
budgetary credit reform activity that occurred in fiscal year 2009. In addition, the Investments in GSEs
accrued year-end liquidity payment disclosed as of September 30, 2008 were reported in the Statement of
Net Cost (SNC) separate from the four Treasury strategic goals. In fiscal year 2009, Treasury concluded
that the cost of this program helps accomplish the Treasury strategic goal of ensuring that the U.S.
economy performs at its full economic potential. Thus, as of September 30, 2009 the cost of investments
in GSEs and the related year-end accrual are included in the Economic Program section of the SNC. The
GSE transaction reclassification in the SNC also caused a similar reclassification for the GSE transaction
in Note 28, Reconciliation of Net Cost of Operations to Budget, as well.

AE. Related Parties

The primary “related parties” with whom the Treasury Department conducts business are other federal
agencies, mainly through the normal lending activities of the BPD and the Federal Financing Bank. These
activities are disclosed in these financial statements. The Treasury Department utilizes the services of the
Federal Reserve to execute a variety of transactions on behalf of the BPD and the Exchange Stabilization
Fund. The Federal Reserve is serving as the Treasury Department’s fiscal agent in executing these
transactions and receives fees for its services. The Treasury Department also consults with the Federal
Reserve on matters affecting the economy, such as the structuring of bailout financing for American



                                These notes are an integral part of the financial statements.
                                                                    17
                                U.S. Department of the Treasury
                          Government-wide Financial Reporting System
                   Additional Notes to the Special Purpose Financial Statements
                                        September 30, 2009

International Group and other companies affected by the current economic situation. However, these
actions do not involve transactions between the Treasury Department and the Federal Reserve.

Finally, the Secretary of the Treasury serves on the Federal Housing Finance Administration (FHFA)
Oversight Board, and consults with the Director of FHFA in matters involving Fannie Mae and Freddie
Mac. This provides the Treasury Department a voice in the FHFA ’s actions as the conservator for Fannie
Mae and Freddie Mac, and thus some influence over major decisions involving Fannie Mae and Freddie
Mac. The Treasury Department has no transactions with FHFA; transactions and balances arising from
transactions with Fannie Mae and Freddie Mac are accounted for and disclosed in these financial
statements.




                              These notes are an integral part of the financial statements.
                                                                  18
                                                             U.S.Department of the Treasury                              01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 BS              Accounts Receivable                              A                   D                        298                   396
                                                                                 Variance:                          0                     0

Trading          Name                           Status 2009-SEPTEMBER      2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      9                        17                   17                     0
 1300 Department of Commerce                                         1                         0                    0                     0
 1400 Department of the Interior                                    18                        37                   37                     0
 1500 Department of Justice                                          0                         2                    2                     0
 1900 Department of State                                            0                         1                    1                     0
 2800 Social Security Administration                                10                         5                    5                     0
 3600 DEPARTMENT OF VETERANS                                        20                        26                   26                     0
        AFFAIRS
 4700 General Services Administration                              102                       143                  143                     0
 4900 National Science Foundation                                    1                         3                    3                     0
 5000 Securities and Exchange Commission                             0                         1                    1                     0
 6800 Environmental Protection Agency                                4                        21                   21                     0
 7000 Department of Homeland Security                                1                         2                    2                     0
 7500 Department of Health and Human                                50                        69                   69                     0
        Services
 8600 Department of Housing and Urban                                0                         1                    1                     0
        Development
 8900 Department of Energy                                           0                         6                    6                     0
 9500 Independent and Other Agencies                                 0                         3                    3                     0
 DE00 Department of Defense                                         82                        59                   59                     0
                                  Total                            298                       396                  396                     0


                                                                          -1-
                                                             U.S.Department of the Treasury                              01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 BS              Advances to Others and Prepayments               A                   D                         5                     13
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2009-SEPTEMBER      2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                     1                         6                    6                     0
 1800 United States Postal Service                                   1                         2                    2                     0
 4700 General Services Administration                                1                         1                    1                     0
 9500 Independent and Other Agencies                                 1                         3                    3                     0
 DE00 Department of Defense                                          1                         1                    1                     0
                                  Total                              5                        13                   13                     0

Agency FS Status CP Line Description                              Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 BS              Interest Receivable                              A                   D                        677                  1,033
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2009-SEPTEMBER      2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     54                        59                   59                     0
 1400 Department of the Interior                                   328                       392                  392                     0
 1601 Department of Labor                                           32                         0                    0                     0
 1800 United States Postal Service                                  37                         1                    1                     0
 2500 National Credit Union Administration                          23                         0                    0                     0
 4700 General Services Administration                               36                        37                   37                     0
 6000 Railroad Retirement Board                                     58                        69                   69                     0
 6900 Department of Transportation                                   0                         1                    1                     0

                                                                          -2-
                                                             U.S.Department of the Treasury                                 01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 7000 Department of Homeland Security                                0                         359                   359                     0
 8600 Department of Housing and Urban                               71                          84                    84                     0
        Development
 8900 Department of Energy                                          18                          20                    20                     0
 9100 Department of Education                                       14                           3                     3                     0
 9500 Independent and Other Agencies                                 6                           8                     8                     0
                                  Total                            677                       1,033                  1,033                    0

Agency FS Status CP Line Description                              Account Type        NB              2009-SEPTEMBER        2008-SEPTEMBER
 BS              Loans Receivable                                 A                   D                         417,895               274,305
                                                                                 Variance:                              0                    0

Trading        Name                             Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 84,065                       77,518                77,518                    0
 1300 Department of Commerce                                       487                          477                   477                    0
 1400 Department of the Interior                                   316                          323                   323                    0
 1601 Department of Labor                                       14,321                       10,484                10,484                    0
 1800 United States Postal Service                              10,200                        7,200                 7,200                    0
 1900 Department of State                                            2                            2                     2                    0
 2500 National Credit Union Administration                      19,384                        1,109                 1,109                    0
 2700 Federal Communications Commission                             47                          113                   113                    0
 3600 DEPARTMENT OF VETERANS                                     1,550                        1,579                 1,579                    0
        AFFAIRS


                                                                          -3-
                                                            U.S.Department of the Treasury                             01-07-2010 06:37:37
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                           Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2009-SEPTEMBER       2008-SEPTEMBER         Previously Reported    Line item Changes
Partner
 4700 General Services Administration                            2,037                  2,098                  2,098                    0
 6000 Railroad Retirement Board                                  3,359                  3,096                  3,096                    0
 6800 Environmental Protection Agency                               10                     13                     13                    0
 6900 Department of Transportation                               2,478                  1,762                  1,762                    0
 7000 Department of Homeland Security                           19,004                 17,360                 17,360                    0
 7200 Agency for International Development                         477                    477                    477                    0
 7300 Small Business Administration                             10,878                  9,473                  9,473                    0
 7500 Department of Health and Human                                 2                      0                      0                    0
        Services
 8300 Export-Import Bank of the United States                    3,805                  2,929                  2,929                    0
 8600 Department of Housing and Urban                            5,012                  5,524                  5,524                    0
        Development
 8900 Department of Energy                                       3,038                  2,186                 2,186                     0
 9100 Department of Education                                  235,371                128,670               128,670                     0
 9500 Independent and Other Agencies                             1,660                  1,650                 1,650                     0
 DE00 Department of Defense                                        392                    262                   262                     0
                                  Total                       417,895                 274,305               274,305                     0




                                                                          -4-
                                                             U.S.Department of the Treasury                               01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2009                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 BS              Other Assets (without reciprocals)                A                   D                    11,992,719            10,100,763
                                                                                  Variance:                           0                    0

Trading        Name                             Status 2009-SEPTEMBER       2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                  11,992,719                10,100,763            10,100,763                    0
                                  Total                      11,992,719                10,100,763            10,100,763                    0


Agency FS Status CP Line Description                               Account Type        NB           2009-SEPTEMBER        2008-SEPTEMBER
 BS              Accounts Payable                                  L                   C                         98                   111
                                                                                  Variance:                           0                    0

Trading         Name                            Status 2009-SEPTEMBER       2008-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     23                        24                    24                     0
 1400 Department of the Interior                                     1                         0                     0                     0
 1500 Department of Justice                                          3                         3                     3                     0
 1601 Department of Labor                                           15                        14                    14                     0
 1800 United States Postal Service                                   7                         7                     7                     0
 2400 Office of Personnel Management                                 0                         1                     1                     0
 3600 DEPARTMENT OF VETERANS                                         1                         3                     3                     0
        AFFAIRS
 4700 General Services Administration                               12                        19                    19                     0
 7000 Department of Homeland Security                               13                        12                    12                     0
 7300 Small Business Administration                                  1                         0                     0                     0
 7500 Department of Health and Human                                11                        13                    13                     0

                                                                           -5-
                                                             U.S.Department of the Treasury                                01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2009-SEPTEMBER      2008-SEPTEMBER            Previously Reported    Line item Changes
Partner
        Services
 9100 Department of Education                                        2                          4                     4                     0
 9500 Independent and Other Agencies                                 7                          3                     3                     0
 DE00 Department of Defense                                          2                          8                     8                     0
                                  Total                            (98)                      (111)                 (111)                    0


Agency FS Status CP Line Description                              Account Type        NB             2009-SEPTEMBER        2008-SEPTEMBER
 BS              Advances from Others and Deferred Credits        L                   C                           40                    40
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1500 Department of Justice                                          5                          5                     5                     0
 1900 Department of State                                            8                          3                     3                     0
 4700 General Services Administration                                0                          1                     1                     0
 7000 Department of Homeland Security                               12                         12                    12                     0
 7200 Agency for International Development                           7                          8                     8                     0
 8600 Department of Housing and Urban                                1                          2                     2                     0
        Development
 9500 Independent and Other Agencies                                 6                          9                     9                     0
 DE00 Department of Defense                                          1                          0                     0                     0
                                  Total                            (40)                       (40)                  (40)                    0




                                                                          -6-
                                                             U.S.Department of the Treasury                                 01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2009-SEPTEMBER        2008-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                           215                   199
                                                                                 Variance:                             0                     0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          122                         121                   121                     0
 2400 Office of Personnel Management                                71                          59                    59                     0
 9900 Treasury General Fund                                         22                          19                    19                     0
                                  Total                           (215)                       (199)                 (199)                    0

Agency FS Status CP Line Description                              Account Type        NB              2009-SEPTEMBER        2008-SEPTEMBER
 BS              Federal Debt                                     L                   C                        4,365,592             4,226,059
                                                                                 Variance:                             0                     0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    164                          108                   108                    0
 1400 Department of the Interior                                 7,066                        7,196                 7,196                    0
 1500 Department of Justice                                      2,406                        2,075                 2,075                    0
 1601 Department of Labor                                       19,957                       72,700                72,700                    0
 1602 PENSION BENEFIT GUARANTY                                  17,495                       19,718                19,718                    0
        CORPORATION
 1800 United States Postal Service                               4,249                    1,605                    1,605                     0
 1900 Department of State                                       15,372                   14,891                   14,891                     0
 2400 Office of Personnel Management                           840,828                  810,950                  810,950                     0
 2500 National Credit Union Administration                       9,789                    7,355                    7,355                     0


                                                                          -7-
                                                             U.S.Department of the Treasury                                 01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2009                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2009-SEPTEMBER      2008-SEPTEMBER            Previously Reported     Line item Changes
Partner
 2700 Federal Communications Commission                           6,014                    5,717                   5,717                     0
 2800 Social Security Administration                          2,504,248                2,367,138               2,367,138                     0
 3600 DEPARTMENT OF VETERANS                                     11,173                   11,756                  11,756                     0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                     26,438                    35,032                 35,032                      0
 6000 Railroad Retirement Board                                  2,306                     1,405                  1,405                      0
 6400 Tennessee Valley Authority                                    25                         0                      0                      0
 6800 Environmental Protection Agency                            6,837                     6,135                  6,135                      0
 6900 Department of Transportation                              20,627                    21,614                 21,614                      0
 7000 Department of Homeland Security                            3,417                     3,103                  3,103                      0
 7500 Department of Health and Human                           376,719                   380,736                380,736                      0
        Services
 7802 Farm Credit System Insurance                                2,935                     2,644                  2,644                     0
        Corporation
 8000 National Aeronautics and Space                                 17                        17                     17                     0
        Administration
 8600 Department of Housing and Urban                           19,786                    28,275                  28,275                     0
        Development
 8900 Department of Energy                                      29,241                    27,417                 27,417                      0
 9500 Independent and Other Agencies                             8,083                     8,247                  8,247                      0
 DE00 Department of Defense                                    430,400                   390,225                390,225                      0
                                  Total                      (4,365,592)               (4,226,059)            (4,226,059)                    0




                                                                           -8-
                                                             U.S.Department of the Treasury                                 01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2009                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2009-SEPTEMBER        2008-SEPTEMBER
 BS              Interest Payable                                 L                   C                         49,545                50,519
                                                                                 Variance:                             0                     0

Trading          Name                           Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      1                           0                     0                     0
 1400 Department of the Interior                                    22                          25                    25                     0
 1601 Department of Labor                                          218                         864                   864                     0
 1602 PENSION BENEFIT GUARANTY                                     189                          82                    82                     0
        CORPORATION
 1900 Department of State                                          190                          194                   194                    0
 2400 Office of Personnel Management                             9,874                        9,958                 9,958                    0
 2500 National Credit Union Administration                          64                           72                    72                    0
 2700 Federal Communications Commission                              3                            6                     6                    0
 2800 Social Security Administration                            29,382                       29,112                29,112                    0
 3600 DEPARTMENT OF VETERANS                                       156                          169                   169                    0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                        121                         449                    449                    0
 6000 Railroad Retirement Board                                      5                           2                      2                    0
 6800 Environmental Protection Agency                               42                          40                     40                    0
 6900 Department of Transportation                                  58                          86                     86                    0
 7000 Department of Homeland Security                               19                          27                     27                    0
 7500 Department of Health and Human                             4,396                       4,661                  4,661                    0
        Services
 7802 Farm Credit System Insurance                                  19                          19                    19                     0
        Corporation
 8600 Department of Housing and Urban                              126                         269                   269                     0
        Development

                                                                          -9-
                                                                  U.S.Department of the Treasury                                    01-07-2010 06:37:37
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                            Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2009-SEPTEMBER            2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 8900 Department of Energy                                               122                           131                   131                     0
 9100 Department of Education                                             (3)                            0                     0                     0
 9500 Independent and Other Agencies                                      57                            69                    69                     0
 DE00 Department of Defense                                            4,484                         4,284                 4,284                     0
                                  Total                             (49,545)                     (50,519)                (50,519)                    0


Agency FS Status CP Line Description                                    Account Type          NB             2009-SEPTEMBER         2008-SEPTEMBER
 BS              Other Liabilities (without reciprocals)                L                     C                       1,263,203               667,107
                                                                                         Variance:                             0                     0

Trading        Name                             Status 2009-SEPTEMBER            2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 4700 General Services Administration                                      0                         (4)                     (4)                     0
 9900 Treasury General Fund                                        1,263,203                    667,111                 667,111                      0
                                  Total                           (1,263,203)                   (667,107)               (667,107)                    0




                                                                                - 10 -
                                                                 U.S.Department of the Treasury                              01-07-2010 06:37:37
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2009                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                          Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                  Account Type         NB          2009-SEPTEMBER        2008-SEPTEMBER
 SCNP            Appropriation of unavailable special or trust fund   CF                   D                        26                    0
                 receipts Transfers-out
                                                                                      Variance:                         0                     0

Trading                                                  2009-SEPTEMBER        2008-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                            26                          0                    0                     0
                                  Total                                26                          0                    0                     0


Agency FS Status CP Line Description                                  Account Type         NB          2009-SEPTEMBER        2008-SEPTEMBER
 SCNP            Nonexpenditure Transfers-out of unexpended           CF                   D                        5                     10
                 appropriations and financing sources
                                                                                      Variance:                         0                     0

Trading                                                  2009-SEPTEMBER        2008-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 1500 Department of Justice                                             0                          1                    1                     0
 9900 Treasury General Fund                                             5                          9                    9                     0
                                  Total                                 5                         10                   10                     0




                                                                             - 11 -
                                                                U.S.Department of the Treasury                                01-07-2010 06:37:37
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2009                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type          NB            2009-SEPTEMBER        2008-SEPTEMBER
 SCNP            Transfers-out Without Reimbursement                CF                    D                          31                    21
                                                                                     Variance:                           0                     0

Trading        Name                             Status 2009-SEPTEMBER        2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                           1                          0                      0                     0
 1500 Department of Justice                                            3                          0                      0                     0
 1601 Department of Labor                                             (3)                         0                      0                     0
 4700 General Services Administration                                 (2)                         0                      0                     0
 7000 Department of Homeland Security                                 32                         21                     21                     0
                                  Total                               31                         21                     21                     0

Agency FS Status CP Line Description                                Account Type          NB            2009-SEPTEMBER        2008-SEPTEMBER
 SCNP            Expenditure transfers-in of financing sources      F                     C                          10                    13
                                                                                     Variance:                           0                     0

Trading        Name                             Status 2009-SEPTEMBER        2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                           10                         13                     13                     0
                                  Total                              (10)                        (13)                  (13)                    0




                                                                            - 12 -
                                                                U.S.Department of the Treasury                                  01-07-2010 06:37:37
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2009-SEPTEMBER        2008-SEPTEMBER
 SCNP            Imputed Financing Source                            F                     C                          793                   729
                                                                                      Variance:                            0                     0

Trading         Name                            Status 2009-SEPTEMBER         2008-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                  793                         729                    729                     0
                                  Total                              (793)                        (729)                 (729)                    0


Agency FS Status CP Line Description                                 Account Type          NB             2009-SEPTEMBER        2008-SEPTEMBER
 SCNP            Nonexpenditure transfers-in of unexpended           F                     C                           11                    24
                 appropriations and financing sources
                                                                                      Variance:                            0                     0

Trading                                                  2009-SEPTEMBER       2008-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 1900 Department of State                                               5                            0                     0                     0
 7200 Agency for International Development                              6                           24                    24                     0
                                  Total                               (11)                         (24)                  (24)                    0




                                                                             - 13 -
                                                             U.S.Department of the Treasury                                    01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2009                                  Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                       Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB              2009-SEPTEMBER         2008-SEPTEMBER
 SCNP            Other budgetary financing sources                F                     C                         (24,120)               (17,250)
                                                                                   Variance:                              0                     0

Trading          Name                           Status 2009-SEPTEMBER      2008-SEPTEMBER               Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      3                             2                      2                     0
 1300 Department of Commerce                                         2                             0                      0                     0
 1400 Department of the Interior                                  (444)                            1                      1                     0
 1500 Department of Justice                                          3                             7                      7                     0
 1601 Department of Labor                                          (30)                            0                      0                     0
 1900 Department of State                                            7                             9                      9                     0
 2500 National Credit Union Administration                           6                             0                      0                     0
 3600 DEPARTMENT OF VETERANS                                         7                            23                     23                     0
        AFFAIRS
 4700 General Services Administration                               27                            13                     13                     0
 6900 Department of Transportation                                   0                             3                      3                     0
 7000 Department of Homeland Security                                1                             1                      1                     0
 7500 Department of Health and Human                                 1                            42                     42                     0
        Services
 8600 Department of Housing and Urban                                0                             1                      1                     0
        Development
 8900 Department of Energy                                           0                           1                        1                     0
 9500 Independent and Other Agencies                                 0                          10                       10                     0
 9900 Treasury General Fund                                    (23,798)                    (17,389)                 (17,389)                    0
 DE00 Department of Defense                                         95                          26                       26                     0
                                  Total                         24,120                         17,250                17,250                     0


                                                                          - 14 -
                                                             U.S.Department of the Treasury                                      01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                    Fiscal Year: 2009                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type          NB               2009-SEPTEMBER         2008-SEPTEMBER
 SCNP            Other non-budgetary financing sources             F                     C                         (187,992)               (7,992)
                                                                                    Variance:                               0                     0

Trading        Name                             Status 2009-SEPTEMBER       2008-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9900 Treasury General Fund                                    (187,992)                        (7,992)                (7,992)                    0
                                  Total                        187,992                          7,992                   7,992                     0


Agency FS Status CP Line Description                               Account Type          NB               2009-SEPTEMBER         2008-SEPTEMBER
 SCNP            Transfers-in Without Reimbursement                F                     C                             (5)                    0
                                                                                    Variance:                               0                     0

Trading        Name                             Status 2009-SEPTEMBER       2008-SEPTEMBER                Previously Reported     Line item Changes
Partner
 1602 PENSION BENEFIT GUARANTY                                       (3)                             0                      0                     0
        CORPORATION
 4700 General Services Administration                                (2)                             0                      0                     0
                                  Total                               5                              0                      0                     0




                                                                           - 15 -
                                                               U.S.Department of the Treasury                                       01-07-2010 06:37:37
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                         Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                            Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                    Account Type          NB             2009-SEPTEMBER         2008-SEPTEMBER
 CUST            Expenditure Transfers-out of financing sources         CF                    D                          (61)                    13
                                                                                         Variance:                             0                     0

Trading        Name                             Status 2009-SEPTEMBER            2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 9900 Treasury General Fund                                              (61)                          13                     13                     0
                                  Total                                  (61)                          13                     13                     0


Agency FS Status CP Line Description                                    Account Type          NB             2009-SEPTEMBER         2008-SEPTEMBER
 CUST            Other budgetary financing sources                      F                     C                      (1,986,761)            (2,365,062)
                                                                                         Variance:                             0                     0

Trading          Name                           Status 2009-SEPTEMBER            2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 1400 Department of the Interior                                       (453)                         (312)                 (312)                     0
 1601 Department of Labor                                                 0                           141                   141                      0
 2800 Social Security Administration                                      0                           735                   735                      0
 7500 Department of Health and Human                                      0                           166                   166                      0
        Services
 9900 Treasury General Fund                                       (1,986,308)                 (2,365,792)             (2,365,792)                    0
                                  Total                           1,986,761                    2,365,062               2,365,062                     0




                                                                                - 16 -
                                                             U.S.Department of the Treasury                                  01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2009                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB             2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Borrowing and Other Interest Revenue (Exchange)   ER                   C                        16,630                14,239
                                                                                   Variance:                            0                     0

Trading         Name                          Status 2009-SEPTEMBER         2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 4,081                          4,080                 4,080                    0
 1300 Department of Commerce                                       24                             24                    24                    0
 1400 Department of the Interior                                    4                              6                     6                    0
 1601 Department of Labor                                         262                            739                   739                    0
 1800 United States Postal Service                                 80                             27                    27                    0
 2500 National Credit Union Administration                         71                              0                     0                    0
 2700 Federal Communications Commission                            12                             14                    14                    0
 3600 DEPARTMENT OF VETERANS                                      159                            116                   116                    0
        AFFAIRS
 4700 General Services Administration                             138                           143                   143                     0
 6000 Railroad Retirement Board                                   160                           177                   177                     0
 6400 Tennessee Valley Authority                                    0                             3                     3                     0
 6800 Environmental Protection Agency                               1                             1                     1                     0
 6900 Department of Transportation                                106                            90                    90                     0
 7000 Department of Homeland Security                             299                           729                   729                     0
 7200 Agency for International Development                         25                            25                    25                     0
 7300 Small Business Administration                               536                           527                   527                     0
 8300 Export-Import Bank of the United States                     255                           251                   251                     0
 8600 Department of Housing and Urban                             362                           387                   387                     0
        Development
 8900 Department of Energy                                         38                            46                    46                     0


                                                                          - 17 -
                                                             U.S.Department of the Treasury                                   01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2009-SEPTEMBER      2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 9100 Department of Education                                    9,886                         6,705                 6,705                     0
 9500 Independent and Other Agencies                               112                           131                   131                     0
 DE00 Department of Defense                                         19                            18                    18                     0
                                  Total                        (16,630)                    (14,239)                (14,239)                    0



Agency FS Status CP Line Description                              Account Type          NB             2009-SEPTEMBER         2008-SEPTEMBER
 NCS             Borrowings Gains                                 ER                    C                         2,497                    44
                                                                                   Variance:                             0                     0

Trading       Name                              Status 2009-SEPTEMBER      2008-SEPTEMBER              Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      0                           44                     44                     0
 1601 Department of Labor                                        2,496                            0                      0                     0
 DE00 Department of Defense                                          1                            0                      0                     0
                                  Total                         (2,497)                         (44)                   (44)                    0




                                                                          - 18 -
                                                             U.S.Department of the Treasury                               01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2009                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Buy/Sell Revenue                                 ER                   C                       1,371                  332
                                                                                  Variance:                          0                     0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      8                         11                   11                     0
 1300 Department of Commerce                                         2                          3                    3                     0
 1400 Department of the Interior                                     0                          1                    1                     0
 1500 Department of Justice                                         10                         14                   14                     0
 1601 Department of Labor                                          150                        144                  144                     0
 1900 Department of State                                            6                          4                    4                     0
 2400 Office of Personnel Management                                 1                          1                    1                     0
 2800 Social Security Administration                               926                        851                  851                     0
 3600 DEPARTMENT OF VETERANS                                         9                          9                    9                     0
        AFFAIRS
 4700 General Services Administration                                1                          2                    2                     0
 4900 National Science Foundation                                    1                          2                    2                     0
 5000 Securities and Exchange Commission                             0                          2                    2                     0
 5100 Federal Deposit Insurance Corporation                          0                          1                    1                     0
 6000 Railroad Retirement Board                                      1                          1                    1                     0
 6800 Environmental Protection Agency                                0                          1                    1                     0
 6900 Department of Transportation                                   4                          1                    1                     0
 7000 Department of Homeland Security                               18                         29                   29                     0
 7200 Agency for International Development                           3                          7                    7                     0
 7300 Small Business Administration                                  0                          1                    1                     0
 7500 Department of Health and Human                               187                        173                  173                     0

                                                                         - 19 -
                                                              U.S.Department of the Treasury                                     01-07-2010 06:37:37
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2009                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2009-SEPTEMBER       2008-SEPTEMBER                Previously Reported     Line item Changes
Partner
        Services
 8000 National Aeronautics and Space                                  0                              1                      1                     0
        Administration
 8600 Department of Housing and Urban                                 9                             11                     11                     0
        Development
 9100 Department of Education                                         2                              1                      1                     0
 9500 Independent and Other Agencies                                 25                             21                     21                     0
 9900 Treasury General Fund                                           0                         (1,041)                (1,041)                    0
 DE00 Department of Defense                                           8                             81                     81                     0
                                  Total                          (1,371)                         (332)                  (332)                     0

Agency FS Status CP Line Description                               Account Type          NB               2009-SEPTEMBER         2008-SEPTEMBER
 NCS             Other Revenue (without reciprocals)               ER                    C                          (1,149)                   0
                                                                                    Variance:                               0                     0

Trading        Name                             Status 2009-SEPTEMBER       2008-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9900 Treasury General Fund                                      (1,149)                             0                      0                     0
                                  Total                           1,149                              0                      0                     0




                                                                           - 20 -
                                                             U.S.Department of the Treasury                                 01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2009                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Benefit Program Costs                            GC                   D                         1,960                 1,851
                                                                                  Variance:                             0                    0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                           91                          102                   102                    0
 2400 Office of Personnel Management                             1,412                        1,325                 1,325                    0
 6900 Department of Transportation                                   1                            1                     1                    0
 9900 Treasury General Fund                                        456                          423                   423                    0
                                  Total                          1,960                        1,851                 1,851                    0

Agency FS Status CP Line Description                              Account Type         NB             2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Borrowing and Other Interest Expense             GC                   D                         6,534                 5,044
                                                                                  Variance:                             0                    0

Trading        Name                             Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    599                         545                   545                     0
 1300 Department of Commerce                                         1                           2                     2                     0
 1400 Department of the Interior                                     2                           4                     4                     0
 1900 Department of State                                            1                           0                     0                     0
 2700 Federal Communications Commission                              5                          10                    10                     0
 3600 DEPARTMENT OF VETERANS                                       206                         191                   191                     0
        AFFAIRS
 6900 Department of Transportation                                  21                          41                    41                     0
 7000 Department of Homeland Security                                0                           9                     9                     0


                                                                         - 21 -
                                                             U.S.Department of the Treasury                                 01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2009                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2009-SEPTEMBER        2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 7200 Agency for International Development                         87                           88                    88                     0
 7300 Small Business Administration                               186                          202                   202                     0
 7500 Department of Health and Human                                4                            5                     5                     0
        Services
 8300 Export-Import Bank of the United States                     105                           92                    92                     0
 8600 Department of Housing and Urban                           1,453                          576                   576                     0
        Development
 8900 Department of Energy                                         10                             0                     0                    0
 9100 Department of Education                                   3,816                         3,227                 3,227                    0
 9500 Independent and Other Agencies                               37                            50                    50                    0
 DE00 Department of Defense                                         1                             2                     2                    0
                                   Total                         6,534                        5,044                 5,044                    0

Agency FS Status CP Line Description                              Account Type         NB             2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Buy/Sell Costs                                   GC                   D                         1,635                 1,743
                                                                                  Variance:                             0                    0

Trading       Name                              Status 2009-SEPTEMBER      2008-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     46                          20                    20                     0
 1300 Department of Commerce                                         2                           2                     2                     0
 1400 Department of the Interior                                    18                          23                    23                     0
 1500 Department of Justice                                          9                          (4)                   (4)                    0
 1601 Department of Labor                                           33                          23                    23                     0


                                                                         - 22 -
                                                          U.S.Department of the Treasury                             01-07-2010 06:37:37
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                Fiscal Year: 2009                           Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                    Reported in: MILLIONS                Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2009-SEPTEMBER     2008-SEPTEMBER         Previously Reported    Line item Changes
Partner
 1800 United States Postal Service                               279                    384                   384                     0
 1900 Department of State                                         18                     15                    15                     0
 2400 Office of Personnel Management                              38                     28                    28                     0
 3600 DEPARTMENT OF VETERANS                                       0                      2                     2                     0
        AFFAIRS
 4700 General Services Administration                            808                    810                   810                     0
 6800 Environmental Protection Agency                             13                     30                    30                     0
 6900 Department of Transportation                                26                     21                    21                     0
 7000 Department of Homeland Security                            145                    164                   164                     0
 7200 Agency for International Development                        30                     29                    29                     0
 7500 Department of Health and Human                              30                     23                    23                     0
        Services
 8300 Export-Import Bank of the United States                      6                     11                    11                     0
 8900 Department of Energy                                         2                      3                     3                     0
 9500 Independent and Other Agencies                             119                    122                   122                     0
 DE00 Department of Defense                                       13                     37                    37                     0
                                  Total                        1,635                1,743                    1,743                    0




                                                                       - 23 -
                                                              U.S.Department of the Treasury                                  01-07-2010 06:37:37
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB              2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Federal Securities Interest Expense               GC                   D                         191,997               212,423
                                                                                   Variance:                             0                     0

Trading          Name                           Status 2009-SEPTEMBER       2008-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                       4                            6                      6                    0
 1400 Department of the Interior                                    149                          248                    248                    0
 1500 Department of Justice                                          12                          100                    100                    0
 1601 Department of Labor                                         2,062                        3,635                  3,635                    0
 1602 PENSION BENEFIT GUARANTY                                      965                        1,625                  1,625                    0
        CORPORATION
 1800 United States Postal Service                                    0                        10                       10                     0
 1900 Department of State                                           779                       782                      782                     0
 2400 Office of Personnel Management                             40,254                    40,488                   40,488                     0
 2500 National Credit Union Administration                          319                       302                      302                     0
 2700 Federal Communications Commission                              53                       161                      161                     0
 2800 Social Security Administration                            118,221                   115,105                  115,105                     0
 3600 DEPARTMENT OF VETERANS                                        651                       705                      705                     0
        AFFAIRS
 5100 Federal Deposit Insurance Corporation                       2,609                         2,946                 2,946                    0
 6000 Railroad Retirement Board                                      56                            35                    35                    0
 6400 Tennessee Valley Authority                                      1                             0                     0                    0
 6800 Environmental Protection Agency                               176                           242                   242                    0
 6900 Department of Transportation                                  322                           473                   473                    0
 7000 Department of Homeland Security                                70                           107                   107                    0
 7500 Department of Health and Human                             18,688                        19,242                19,242                    0
        Services

                                                                          - 24 -
                                                             U.S.Department of the Treasury                                  01-07-2010 06:37:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2009                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2009-SEPTEMBER      2008-SEPTEMBER              Previously Reported    Line item Changes
Partner
 7802 Farm Credit System Insurance                                  51                           90                    90                     0
        Corporation
 8000 National Aeronautics and Space                                 1                            1                      1                    0
        Administration
 8600 Department of Housing and Urban                              812                        1,458                  1,458                    0
        Development
 8900 Department of Energy                                       1,262                           239                   239                    0
 9500 Independent and Other Agencies                               263                           350                   350                    0
 DE00 Department of Defense                                      4,217                        24,073                24,073                    0
                                  Total                        191,997                   212,423                  212,423                     0

Agency FS Status CP Line Description                              Account Type         NB              2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Imputed Costs                                    GC                   D                           794                   730
                                                                                  Variance:                              0                    0

Trading         Name                            Status 2009-SEPTEMBER      2008-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                               794                          730                   730                     0
                                  Total                            794                          730                   730                     0




                                                                         - 25 -
                                                               U.S.Department of the Treasury                             01-07-2010 06:37:37
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2009                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type         NB         2009-SEPTEMBER        2008-SEPTEMBER
 NCS             Other Expenses (without reciprocals)               GC                   D                       1                     0
                                                                                    Variance:                        0                     0

Trading        Name                             Status 2009-SEPTEMBER        2008-SEPTEMBER         Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                           1                         0                    0                     0
                                  Total                               1                         0                    0                     0




                                                                           - 26 -
                                                                                                                                                                                             01/07/2010 06:24:10

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 01                Statement of Operations and Changes in Net Position                                                         Fiscal Year: 2009                 Period: SEPTEMBER
        Entity: 2000          Department of the Treasury                                                                                       Agency Notes:       None
        Status: Complete                                                                               I = Inactive Line


  Tab: Other Data Info.
      Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not              No Data: YES             Line Attributes: Dollars
                                               made as a result of using the modified cash basis of                                     Rounding Method: Millions                     Decimal: Zero
                                               accounting.


Line Status     Line Description         NB            CY - Low Range               CY - High Range                 PY - Low Range            PY - High Range
 1                                      Debit
 2                                      Debit
 3                                      Debit
 4                                      Debit
 5                                      Debit



     Tab: Other Text Data

        Section: A                 Section Name: Nonexchange Revenue: Specific potential accruals not
                                                 made as a result of using the modified cash basis of
                                                 accounting.

 Line         Question                                                                                                      Answer
 1            Provide the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS             For IRS, this is referring to the difference between cash and accrual accounting. We use a
              No. 7, par.64)                                                                                               modified cash basis for the Custodial Financial Statements, because of the limitations in the
                                                                                                                           assessment process regarding the delay in the time when there is a legally enforceable
                                                                                                                           claim. Accrual accounting provides more accurate and complete information about
                                                                                                                           receivables and refund legally receivable and collectible concerning the components of the
                                                                                                                           Government¿s revenue stream, and is the reason we compute the allowance for doubtful
                                                                                                                           accounts (ADA). Since cash basis tax revenue still needs to be accounted for in conjunction
                                                                                                                           with ADA, forming the basis of our accounting methodology.
                                                                                                                           TTB records a year-end accrual for the known amount of tax revenue to be collected. This
                                                                                                                           information is obtained from tax forms that are submitted to the National Revenue Center,
                                                                                                                           but have not been individually processed and recorded in the accounting system. TTB is not
                                                                                                                           able to obtain the information necessary to record the majority of the earned custodial
                                                                                                                           revenue due to the fact that this amount is unknown until the taxpayer files a return.




                                                                                                            - 1 -
                                                                                                                                                                       01/07/2010 06:24:10

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                         Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                        Agency Notes:        Appendix A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                                                Line Attributes: Dollars
                                                                                                                        Rounding Method: Millions                Decimal: Zero
Line Status   Line Description        NB      2009 - SEPTEMBER         2008 - SEPTEMBER              Previously Rptd       Line Item Changes
 1            Estimated realized      Debit                 75,000                 67,000                      67,000                          0
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit                      0
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit                      0
              above
 4            Other claims for        Debit                 11,000                 22,000                      22,000                          0
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit                      0
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit                      0
              above
 7            Amount of               Debit                105,000                 99,000                      99,000                          0
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 2 -
                                                                                                                                                                                                        01/07/2010 06:24:10

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                             Fiscal Year: 2009                     Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                             Agency Notes:         Appendix A
        Status: Complete                                                                                    I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Provide the following amount if a range is estimable               No Data: YES                  Line Attributes: Dollars
                                               and not included in Sec. A (SFFAS No. 7 par 67)                                                Rounding Method: Millions                          Decimal: Zero


Line Status     Line Description          NB                      CY Low                          CY High                       PY Low                        PY High
 1              Realizable value of      Debit
                pre-assessment
                work-in-progress
 2              Changes in line 1     Debit
                above
 3              Management's best     Debit
                estimate of
                unasserted claims for
                refunds
 4              Changes in line 3     Debit
                above

     Tab: Other Text Data

        Section: A                 Section Name: Taxes (SSFAS No.7, par. 67-69)

 Line         Question                                                                                                           Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.                                 Reducing the tax gap is at the heart of IRS¿ enforcement programs. The tax gap is the
                                                                                                                                difference between what taxpayers should pay and what they actually pay due to not filing
                                                                                                                                tax returns, not paying their reported tax liability on time, or failing to report their correct tax
                                                                                                                                liability. The tax gap, about $345 billion based on updated FY 2001 estimates, represents
                                                                                                                                the amount of noncompliance with the tax laws. Underreporting tax liability accounts for 82
                                                                                                                                percent of the gap, with the remainder almost evenly divided between non-filing (eight
                                                                                                                                percent) and underpaying (ten percent). The IRS remains committed to finding ways to
                                                                                                                                increase compliance and reduce the tax gap, while minimizing the burden on the vast
                                                                                                                                majority of taxpayers who pay their taxes accurately and on time.

                                                                                                                                The tax gap is the aggregate amount of tax (i.e., excluding interest and penalties) that is
                                                                                                                                imposed by the tax laws for any given
                                                                                                                                tax year but is not paid voluntarily and timely. The tax gap arises from the three types of
                                                                                                                                noncompliance: not filing required
                                                                                                                                tax returns on time or at all (the nonfiling gap), underreporting the correct amount of tax on
                                                                                                                                timely filed returns (the underreporting
                                                                                                                                gap), and not paying on time the full amount reported on timely filed returns (the
                                                                                                                                underpayment gap). Of these three components,
                                                                                                                                only the underpayment gap is observed; the nonfiling gap and the underreporting gap must
                                                                                                                                be estimated. Each instance
                                                                                                                                of noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS detects it,
                                                                                                                                and whether or not the taxpayer



                                                                                                                 - 3 -
                                                                                                                                                                                                    01/07/2010 06:24:10

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

Other Data: 02               Taxes                                                                                                            Fiscal Year: 2009                    Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                            Agency Notes:        Appendix A
       Status: Complete                                                                                  I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)

Line        Question                                                                                                          Answer
                                                                                                                             is even aware of the noncompliance. Obviously, some of the tax gap arises from intentional
                                                                                                                             (willful) noncompliance, and some
                                                                                                                             of it arises from unintentional mistakes.

                                                                                                                             The collection gap is the cumulative amount of tax, penalties, and interest that has been
                                                                                                                             assessed over many years, but
                                                                                                                             has not been paid by a certain point in time, and which the IRS expects to remain
                                                                                                                             uncollectible. In essence, it
                                                                                                                             represents the difference between the total balance of unpaid assessments and the net taxes
                                                                                                                             receivable reported on
                                                                                                                             the IRS' balance sheet. The tax gap and the collection gap are related and overlapping
                                                                                                                             concepts, but they have
                                                                                                                             significant differences. The collection gap is a cumulative balance sheet concept for a
                                                                                                                             particular point in time, while
                                                                                                                             the tax gap is like an income statement item for a single year. Moreover, the tax gap
                                                                                                                             estimates include all
                                                                                                                             noncompliance, while the collection gap includes only amounts that have been assessed (a
                                                                                                                             small portion of all
                                                                                                                             noncompliance)


2           Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax           The Internal Revenue Service developed the concept of the tax gap as a way to gauge
            gap.                                                                                                             taxpayers¿ compliance with their federal tax obligations. The tax gap measures the extent to
                                                                                                                             which taxpayers do not file their tax returns and pay the correct tax on time.

                                                                                                                             Previous estimates of the tax gap relied on detailed research that was conducted for tax
                                                                                                                             years 1988 and earlier. To update this research and reflect a changing economy, revisions
                                                                                                                             to the tax code and more subtle shifts in individual behavior, the IRS launched the National
                                                                                                                             Research Program (NRP) in 2001.

                                                                                                                             The current estimates based on the NRP are preliminary, so they are shown as ranges. As
                                                                                                                             refinements are made to the tax gap analysis, some of these estimates may change. It is
                                                                                                                             unlikely, but possible, that the final estimates of the tax gap will fall outside of the established
                                                                                                                             range.
3           Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers                   N/A
            and importers.
4           Provide the estimates of the annual tax gap (amounts should specifically define whether it                       The tax gap figure does not include taxes that should have been paid on income from the
            includes or excludes estimates of tax due on illegally earned revenue).                                          illegal sector of the economy.
5           Disclose the amounts by which trust funds may be over- or under-funded in comparison with the                    N/A
            requirements of law, if reasonable estimable.



                                                                                                               - 4 -
                                                                                                                                                                          01/07/2010 06:24:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 03              Annual Revenues and Expenditures                                                                Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                           Agency Notes:      No Data
      Status: Complete                                                                         I = Inactive Line


  Tab: Other Data Info.
     Section: A                  Section Name: Revenues from the Public                              No Data: YES            Line Attributes:


Line Status   Line Description          NB                       HI                      SMI                       OASDI




     Section: B                  Section Name: Revenue from Other Government Accounts (to be         No Data: YES            Line Attributes: Dollars
                                               completed by Department of Treasury only)                                   Rounding Method: Millions                Decimal: Zero


Line Status   Line Description          NB        Other Government
 1            Transfers                Debit
 2            Interest credits         Debit
 3            Total                     N/A




                                                                                                    - 5 -
                                                                                                                                                                          01/07/2010 06:24:10

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:      No Data
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined            Decimal: User-Defined


Line Status   Line Description      NB                   FY 2009                   FY 2008                       FY 2007                 FY 2006                   FY 2005
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: Millions                Decimal: Zero


Line Status   Line Description      NB                   FY 2009                   FY 2008                       FY 2007                 FY 2006                   FY 2005
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 6 -
                                                                                                                                                                          01/07/2010 06:24:10

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:      No Data
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: Millions                Decimal: Zero
Line Status   Line Description       NB                 FY 2009                    FY 2008                       FY 2007                 FY 2006                   FY 2005
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: Millions                Decimal: Zero


Line Status   Line Description       NB                 FY 2009                    FY 2008                       FY 2007                 FY 2006                   FY 2005
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 7 -
                                                                                                                                                                                   01/07/2010 06:24:10

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

 Other Data: 09               Stewardship Investments                                                                                 Fiscal Year: 2009                Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                  Agency Notes:      No Data
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: E                Section Name: Research and Development: Investment in Applied               No Data: YES              Line Attributes: Dollars
                                              Research (SFFAS No. 8, par 100)                                                       Rounding Method: Millions                Decimal: Zero


Line Status      Line Description         NB                   FY 2009                      FY 2008                       FY 2007                 FY 2006                   FY 2005
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS          No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                    Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal property.
              (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                     No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line          Question                                                                                                   Answer
 1            Provide a description of the major programs of Federal investments in development. (SFFAS No.
              8, par. 100)
 2            Provide a description of the progress of major development projects including the results with
              respect to projects completed or otherwise terminated during the year and the status of projects
              that will continue (SFFAS No. 8, par. 99)
     Tab: Other Text Data

        Section: C                  Section Name: Investment in Human Capital (SFFAS No. 8, par 100)          No Data: YES

 Line          Question                                                                                                   Answer
 1            Provide a description of the major education and training programs considered Federal
              investments in human capital. (SFFAS No.8, par. 94)


                                                                                                            - 8 -
                                                                                                                                                                        01/07/2010 06:24:10

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                            Fiscal Year: 2009             Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:    No Data
       Status: Complete                                                                          I = Inactive Line



    Tab: Other Text Data

       Section: D              Section Name: Research and Development: Investment in Basic                   No Data: YES
                                             Research (SFFAS No. 8, par.99 & 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in basic research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E              Section Name: Research and Development: Investment in Applied                 No Data: YES
                                             Research (SFFAS No. 8, par 100)

Line        Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in applied research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                       - 9 -
                                                                                                                                                                        01/07/2010 06:24:10

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                       Fiscal Year: 2009                  Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                     Agency Notes:        No Data
      Status: Complete                                                                I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                                No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: Millions                   Decimal: Zero
Line Status   Line Description         NB                CY- Low   D       CY- High    D CY - Critical Maintenance              PY- Low     D                PY- High    D PY - Critical Maintenance
                                                                                                                 D                                                                                 D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                          - 10 -
                                                                                                                                                                 01/07/2010 06:24:10

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:        Appendix A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxable Returnes-Individual Income Tax Returns for                      Line Attributes: Units
                                            Tax Year 2007 for the following AGI levels


Line Status   Line Description       NB                       AGI
 1            Under $15,000          N/A                37,597.0000
 2            $15,000 under          N/A                30,229.0000
              $30,000
 3            $30,000 under          N/A                25,978.0000
              $50,000
 4            $50,000 under          N/A                31,260.0000
              $100,000
 5            $100,000 under         N/A                13,463.0000
              $200,000
 6            $200,000 or more       N/A                 4,503.0000
     Section: B               Section Name: Individual AGI and Income Tax information -                             Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2007                       Rounding Method: Millions                Decimal: Zero


Line Status   Line Description       NB                       AGI          Total Income Tax
 1            Under $15,000         Debit                   186,000                      3,022
 2            $15,000 under         Debit                   669,932                     22,211
              $30,000
 3            $30,000 under         Debit                 1,015,283                     61,396
              $50,000
 4            $50,000 under         Debit                 2,216,021                    191,293
              $100,000
 5            $100,000 under        Debit                 1,793,835                    229,415
              $200,000
 6            $200,000 or more      Debit                 2,650,325                    585,572




                                                                                                  - 11 -
                                                                                                                                                               01/07/2010 06:24:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                Fiscal Year: 2009              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:     Appendix A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: C               Section Name: Individual AGI and Income Tax Information-Individual                    Line Attributes: Dollars
                                            Income Tax Returns for Tax Year 2007                                  Rounding Method: Whole-Dollars         Decimal: Zero


Line Status   Line Description       NB        Avg. AGI per return           Avg. Income Tax per
                                                                                       return
 1            Under $15,000         Debit                      4,947                         80
 2            $15,000 under         Debit                     22,162                        735
              $30,000
 3            $30,000 under         Debit                     39,082                      2,363
              $50,000
 4            $50,000 under         Debit                     70,890                      6,119
              $100,000
 5            $100,000 under        Debit                   133,242                      17,040
              $200,000
 6            $200,000 or more      Debit                   993,882                     213,982
     Section: D               Section Name: Income Tax as a Percentage of AGI-Indvidual Income                      Line Attributes: Percent
                                            Tax Returns for Tax Year 2007


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A                      1.6000
 2            $15,000 under          N/A                      3.3000
              $30,000
 3            $30,000 under          N/A                      6.0000
              $50,000
 4            $50,000 under          N/A                      8.6000
              $100,000
 5            $100,000 under         N/A                    12.8000
              $200,000
 6            $200,000 or more       N/A                    39.8000




                                                                                                   - 12 -
                                                                                                                                                                  01/07/2010 06:24:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12              Tax Burden                                                                                Fiscal Year: 2009              Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                    Agency Notes:      Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: E               Section Name: Income Subject to Tax & Total Income Tax After                            Line Attributes: Dollars
                                             Credits:Corp. Income for Tax Year 2006                                  Rounding Method: Millions              Decimal: Zero


Line Status    Line Description       NB     Income Subject to Tax         Total Income Tax After
                                                                                      Credits
 1             Zero Assets           Debit                    17,500                      5,399
 2             $1 under $500         Debit                     9,519                      1,787
 3             $500 under $1,000     Debit                     4,659                      1,123
 4             $1,000 under $5,000   Debit                    16,790                      4,933
 5             $5,000 under          Debit                    10,019                      3,286
               $10,000
 6             $10,000 under         Debit                    16,070                      5,321
               $25,000
 7             $25,000 under         Debit                    14,181                      4,661
               $50,000
 8             $50,000 under         Debit                    16,626                      5,457
               $100,000
 9             $100,000 under        Debit                    32,623                     10,431
               $250,000
 10            $250,000 or more      Debit                 1,153,444                    310,686
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                         Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2006


Line Status    Line Description       NB     Income Subject to Tax
 1             Zero Assets            N/A                    30.9000
 2             $1 under $500          N/A                    18.8000
 3             $500 under $1,000      N/A                    24.1000
 4             $1,000 under $5,000    N/A                    29.4000
 5             $5,000 under           N/A                    32.8000
               $10,000
 6             $10,000 under          N/A                    33.1000
               $25,000
 7             $25,000 under          N/A                    32.9000
               $50,000
 8             $50,000 under          N/A                    32.8000
               $100,000



                                                                                                     - 13 -
                                                                                                                                                               01/07/2010 06:24:10

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 12            Tax Burden                                                                                 Fiscal Year: 2009             Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                    Agency Notes:      Appendix A
       Status: Complete                                                                           I = Inactive Line


  Tab: Other Data Info.
      Section: F                Section Name: Percentage of Income Tax After Credits to Taxable                       Line Attributes: Percent
                                              Income-Corporation Income for Tax Year 2006


Line Status    Line Description        NB     Income Subject to Tax
 9             $100,000 under          N/A                    32.0000
               $250,000
 10            $250,000 or more        N/A                    26.9000




                                                                                                      - 14 -
                                                                                                                                                                                01/07/2010 06:24:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 13             Other information                                                                                    Fiscal Year: 2009                  Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                               Agency Notes:        IRS PAR
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Estimated amounts that may be paid out as other                                      Line Attributes: Dollars
                                            claims for tax refunds                                                             Rounding Method: Billions                  Decimal: Zero


Line Status   Line Description         NB       2009 - SEPTEMBER          2008 - SEPTEMBER               Previously Rptd          Line Item Changes
 1            Estimated payout         Debit                       5                           5                           5                          0
              (including principal
              and interest) for
              claims pending
              judicial review by the
              Federal Courts
 2            Claims under appeal      Debit                       6                          17                       17                             0



     Section: B               Section Name: Other information related to taxes                                                   Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                  Decimal: Zero
Line Status   Line Description         NB       2009 - SEPTEMBER          2008 - SEPTEMBER               Previously Rptd          Line Item Changes
 1            Payroll taxes paid by    Debit                  17,346                    12,931                     12,931                             0
              Federal agencies
              included in individual
              and FICA taxes
 2            Refundable portion       Debit                  24,284                    34,074                     34,074                             0
              of child care tax
              credits issued
 3            Amount of EITC           Debit                  42,418                    40,600                     40,600                             0
              refunds
 4            Amount of EITC           Debit                   7,028                     7,950                      7,950                             0
              refunds applied to
              reduce taxpayer
              liability




                                                                                                   - 15 -
                                                                                                                                                                                 01/07/2010 06:24:10

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)             Fiscal Year: 2009                Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                Agency Notes:      No data
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                 No Data: YES             Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                Decimal: Zero
Line Status      Line Description        NB       2009 - SEPTEMBER            2008 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1               Present value of       Debit
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed                                              No Data: YES

 Line          Question                                                                                                 Answer
 1            Provide the indicators of the range of uncertainty around insurance related estimates and
              sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
              losses (SFFAS No. 5. par. 114)




                                                                                                        - 16 -
                                                                                                                                                                             01/07/2010 06:24:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                          Agency Notes:      N/A - workings for reconciliation offsetting recei
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Fiscal 2009 Operating Revenues Not Reported in the                              Line Attributes: Dollars
                                            Budget Receipts                                                               Rounding Method: Millions                   Decimal: Zero


Line Status   Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes         CY-Estate and gift taxes      CY-Customs duties
                                                and tax withholdings                    taxes
 1            Undistributed           Credit
              Offsetting receipts
              (offset against
              outlays)
 2            Proprietary receipts    Credit
              from the public
              (offset against
              outlays)
 3            Rents and royalties     Credit
              on the outer
              continental shelf
              lands (offset against
              outlays)
 4            Offsetting              Credit
              governmental
              receipts (offset
              against outlays)
 5            Intrabudgetary          Credit
              transactions (offset
              against outlays)
 6                                    Credit
 7                                    Credit
 8                                    Credit

Line Status   Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                           receipts                 revenue
 1            Undistributed           Credit
              Offsetting receipts
              (offset against
              outlays)
 2            Proprietary receipts    Credit                                            38,665
              from the public
              (offset against
              outlays)
 3            Rents and royalties     Credit
              on the outer


                                                                                                  - 17 -
                                                                                                                                                                                01/07/2010 06:24:10

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Analysis of FR Operating Revenue to Budget Receipts                                                Fiscal Year: 2009                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                             Agency Notes:      N/A - workings for reconciliation offsetting recei
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Fiscal 2009 Operating Revenues Not Reported in the                                 Line Attributes: Dollars
                                            Budget Receipts                                                                  Rounding Method: Millions                   Decimal: Zero


Line Status   Line Description        NB           CY-Other taxes and CY-Miscellaneous earned
                                                          receipts                 revenue
              continental shelf
              lands (offset against
              outlays)
 4            Offsetting              Credit
              governmental
              receipts (offset
              against outlays)
 5            Intrabudgetary          Credit                                             5,934
              transactions (offset
              against outlays)
 6                                    Credit
 7                                    Credit
 8                                    Credit
     Section: B               Section Name: Fiscal 2009 Budget Receipts Not Reported in the                                    Line Attributes: Dollars
                                            Operating Revenue                                                                Rounding Method: Millions                   Decimal: Zero


Line Status   Line Description        NB         CY-Individual income    CY-Corporation income         CY-Employment and           CY-Unemployment CY-Other retirement            C       CY-Excise taxes   C
                                                            taxes   C                taxes   C       general retirement C             insurance  C
 1            Earned (exchange)       N/A
              revenue reported in
              the Statement of Net
              Cost
 2                                    N/A
 3                                    N/A
 4                                    N/A

Line Status   Line Description        NB       CY-Estate and gift taxes CY-Customs duties      C          CY-Miscellaneous
                                                                      C                                       receipts   C
 1            Earned (exchange)        N/A                                                                             0
              revenue reported in
              the Statement of Net
              Cost
 2                                     N/A



                                                                                                   - 18 -
                                                                                                                                                                                                01/07/2010 06:24:10

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                           Fiscal Year: 2009                  Period: SEPTEMBER
         Entity: 2000          Department of the Treasury                                                                                         Agency Notes:       N/A - workings for reconciliation offsetting recei
        Status: Complete                                                                                 I = Inactive Line


     Tab: Other Data Info.
      Section: B                 Section Name: Fiscal 2009 Budget Receipts Not Reported in the                                              Line Attributes: Dollars
                                               Operating Revenue                                                                          Rounding Method: Millions                      Decimal: Zero


Line Status      Line Description         NB       CY-Estate and gift taxes CY-Customs duties               C        CY-Miscellaneous
                                                                          C                                              receipts   C
 3                                        N/A
 4                                        N/A




     Tab: Other Text Data

        Section: A                 Section Name: Fiscal 2009 Operating Revenues Not Reported in the
                                                 Budget Receipts

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).                   N/A
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).                Need to pick up new FY 2009 TAS in the 1499 series. Working with IRS to resolve issue
                                                                                                                             during FY 2010 on whether it is report as Budgetary Receipts.
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).                    N/A
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).                          Other Agencies reported amounts that Treasury did not pick up.
 5            Provide a detailed description of the agency entered description reconciling item(s).                          N/A
     Tab: Other Text Data

        Section: B                 Section Name: Fiscal 2009 Budget Receipts Not Reported in the
                                                 Operating Revenue

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the earned revenue reconciling item(s).                                      Reconciliation was done in total and not down to the attribute level as our receipts depends
                                                                                                                             on whether it is entity or non-entity (custodial) or exchange (net cost) or non-exchange (net
                                                                                                                             position).
 2            Provide a detailed description of the agency entered description reconciling item(s).                          see 1




                                                                                                                - 19 -
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 3   Fund Balance                                                                      A      D       F                  504,582                 275,368
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Fund Balance with Treasury                              F                504,582                275,368                   275,368                     0
Total:                                                                   504,582                275,368                   275,368                     0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 4   Loans and Interest Receivable                                                     A      D       F                  410,591                 264,854
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                     F                    646                  1,033                     1,033                     0
Loans Receivable                                        F                409,945                263,821                   263,821                     0
Total:                                                                   410,591                264,854                   264,854                     0
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 5   Advances to the Black Lung Trust Fund                                             A      D       F                        0                  10,484
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        F                   0                   10,484                     10,484                     0
Total:                                                                      0                   10,484                     10,484                     0




                                                                              -1-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2009                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER          2008-SEPTEMBER
                                                                                      Type
 6   Advances to the Unemployment Trust Fund                                            A      D      F                     7,981                         0
                                                                                     Variance:                                  0                         0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Interest Receivable                                     F                    31                     0                           0                     0
Loans Receivable                                        F                 7,950                     0                           0                     0
Total:                                                                    7,981                     0                           0                     0
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER          2008-SEPTEMBER
                                                                                      Type
 7   Due From the General Fund                                                          A      D      F                11,992,719             10,100,763
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets (without reciprocals)                      F              11,992,719              10,100,763              10,100,763                     0
Total:                                                                 11,992,719              10,100,763              10,100,763                     0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER          2008-SEPTEMBER
                                                                                      Type
 8   Accounts Receivable and Related Interest                                           A      D      F                      298                     396
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Receivable                                     F                  298                     396                       396                      0
Total:                                                                     298                     396                       396                      0




                                                                               -2-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 9   Other Intra-governmental Assets                                                   A      D       F                        5                      13
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Advances to Others and Prepayments                      F                   5                      13                         13                      0
Total:                                                                      5                      13                         13                      0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 12 Cash, Foreign Currency & Other Monetary Assets                                     A      D       N                  341,308                 387,270
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                341,284                387,198                   387,198                     0
Accounts and Taxes Receivable                           N                     24                     72                        72                     0
Total:                                                                   341,308                387,270                   387,270                     0
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 13 Gold and Silver Reserves                                                           A      D       N                    11,062                 11,062
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                11,062                 11,062                     11,062                     0
Total:                                                                   11,062                 11,062                     11,062                     0




                                                                              -3-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 14 Asset Guarantee                                                                    A      D       N                     1,765                         0
                                                                                    Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                              N                 1,765                    0                            0                     0
Total:                                                                    1,765                    0                            0                     0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 15 Investment - Credit Reform                                                         A      D       N                  203,141                          0
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        N                203,141                   0                            0                     0
Total:                                                                   203,141                   0                            0                     0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 16 Investment in Government Sponsored Enterprise                                      A      D       N                    64,679                  7,032
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Investment in Government sponsored                      N                64,679                  7,032                          0                  7,032
enterprises (GSEs)
Total:                                                                    64,679                     7,032                     0                   7,032




                                                                              -4-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 17 Investment in International Financial Institutions                                 A      D       N                     5,575                  5,546
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                 5,575                  5,546                          0                  5,546
Total:                                                                    5,575                  5,546                          0                  5,546

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 18 Other Investments and Related Interest                                             A      D       N                    13,565                 10,576
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                              N                13,565                 10,576                          0                 10,576
Total:                                                                   13,565                 10,576                          0                 10,576

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 19 Credit Program Receivables and Direct Loans, Net                                   A      D       N                  219,170                   3,385
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        N                219,170                 3,385                          0                  3,385
Total:                                                                   219,170                 3,385                          0                  3,385




                                                                              -5-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 20 Loans and Interest Receivable                                                      A      D       N                      168                     172
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        N                  168                    172                        172                      0
Total:                                                                     168                    172                        172                      0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 21 Credit Reform - Mortgage Backed Securities (MBS)                            I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        N                   0                      0                        3,385                 (3,385)
Total:                                                                      0                      0                        3,385                 (3,385)

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 22 Investments in Government Sponsored Enterprises (GSE)                       I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                              N                   0                      0                        7,032                 (7,032)
Total:                                                                      0                      0                        7,032                 (7,032)




                                                                              -6-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 23 Investments and Related Interest                                            I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Securities and Investments                              N                   0                      0                       10,576                (10,576)
Total:                                                                      0                      0                       10,576                (10,576)

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 24 Reserve Position in International Monetary Fund                                    A      D       N                    13,469                  4,750
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                13,469                  4,750                      4,750                     0
Total:                                                                   13,469                  4,750                      4,750                     0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 25 Investments in International Financial Institutions                         I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                   0                      0                        5,546                 (5,546)
Total:                                                                      0                      0                        5,546                 (5,546)




                                                                              -7-
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 26 Tax, Other and Related Interest Receivables, Net                                   A      D       N                    30,408                 30,878
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                           N                30,408                 30,878                     30,878                     0
Total:                                                                   30,408                 30,878                     30,878                     0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 27 Beneficial Interest in Trust                                                       A      D       N                    23,472                         0
                                                                                    Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                23,472                    0                            0                     0
Total:                                                                   23,472                    0                            0                     0

Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 28 Inventory and Related Property, Net                                                A      D       N                      598                     698
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER         2008-SEPTEMBER          Previously Reported      Line Item Changes
Inventory and Related Property                          N                  598                    698                        698                      0
Total:                                                                     598                    698                        698                      0




                                                                              -8-
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 29 Property, Plant and Equipment, Net                                                  A      D      N                     2,036                   2,077
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Property, Plant and Equipment                           N                 2,036                   2,077                     2,077                      0
Total:                                                                    2,036                   2,077                     2,077                      0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 30 Other Assets                                                                        A      D      N                         9                   1,714
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Assets                                            N                   9                     1,714                     1,714                      0
Total:                                                                      9                     1,714                     1,714                      0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 35 Federal Debt and Interest Payable                                                   L      C      F                 4,403,080                4,262,414
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                  49,409                  50,355                  50,355                      0
Federal Debt                                            F               4,353,671               4,212,059               4,212,059                      0
Total:                                                                 (4,403,080)             (4,262,414)             (4,262,414)                     0




                                                                               -9-
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 36 Other Debt and Interest Payable                                                     L      C      F                    12,060                  14,164
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Interest Payable                                        F                    139                      164                     164                      0
Federal Debt                                            F                 11,921                   14,000                  14,000                      0
Total:                                                                   (12,060)                 (14,164)                (14,164)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 37 Due to the General Fund                                                             L      C      F                 1,263,128                 667,112
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities (without reciprocals)                 F               1,263,128                 667,112                 667,112                      0
Total:                                                                 (1,263,128)               (667,112)               (667,112)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 38 Other Intra-governmental Liabilities                                                L      C      F                       425                     345
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Accounts Payable                                        F                   98                      111                      111                       0
Interest Payable                                        F                   (3)                       0                         0                      0
Benefit Program Contributions Payable                   F                  215                      199                      199                       0
Advances from Others and Deferred Credits               F                   40                       40                       40                       0


                                                                               - 10 -
                                                                U.S. Department of the Treasury                                        01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                            Account NB     F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                         Type
 38 Other Intra-governmental Liabilities                                                   L    C       F                       425                     345
Other Liabilities (without reciprocals)                F                       75                        (5)                     (5)                      0
Total:                                                                       (425)                     (345)                  (345)                       0




Line Agency Line Description                                                  Status Account NB        F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 40 Federal Debt and Interest Payable                                                   L      C       N                 7,559,305                 5,812,694
                                                                                     Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER            2008-SEPTEMBER        Previously Reported       Line Item Changes
Federal Debt Securities Held by the Public              N               7,559,305                 5,812,694              5,812,694                      0
Total:                                                                 (7,559,305)               (5,812,694)            (5,812,694)                     0

Line Agency Line Description                                                  Status Account NB        F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 41 Certificates Issued to Federal Reserve                                              L      C       N                     5,200                    2,200
                                                                                     Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER            2008-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                       N                 5,200                     2,200                    2,200                      0
Total:                                                                   (5,200)                   (2,200)                  (2,200)                     0




                                                                               - 11 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 42 Allocation of Special Drawing Rights                                                L      C      N                    55,953                   7,630
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 55,953                  7,630                     7,630                      0
Total:                                                                   (55,953)                (7,630)                   (7,630)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 43 Gold Certificates Issued to Federal Reserve Banks                                   L      C      N                    11,037                  11,037
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 11,037                  11,037                   11,037                      0
Total:                                                                   (11,037)                (11,037)                 (11,037)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 44 Refunds Payables                                                                    L      C      N                     4,040                   3,076
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                 4,040                   3,076                     3,076                      0
Total:                                                                   (4,040)                 (3,076)                   (3,076)                     0




                                                                              - 12 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 45 DC Pension and Judiciary Retirement Actuarial Liability                             L      C      N                     9,049                   8,803
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 9,049                   8,803                     8,803                      0
Total:                                                                   (9,049)                 (8,803)                   (8,803)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 46 Liabilities to GSEs                                                                 L      C      N                    91,937                  13,800
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Keepwell payable                                        N                 91,937                  13,800                        0                  13,800
Total:                                                                   (91,937)                (13,800)                       0                  13,800

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 47 Other Liabilities                                                                   L      C      N                     3,331                   4,052
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                  638                     618                       618                       0
Federal Employee and Veteran Benefits                   N                  576                     630                       630                       0
Payable
Other Liabilities                                      N                   2,095                     2,787                 16,587                 (13,800)
Insurance Programs                                     N                      22                        17                     17                       0


                                                                              - 13 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB    F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                        Type
 47 Other Liabilities                                                                     L    C       N                     3,331                   4,052
Total:                                                                    (3,331)                   (4,052)               (17,852)                (13,800)




Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 51 Unexpended Appropriations - Earmarked Funds                                         E      C      B                       200                     200
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                  200                      200                      200                       0
Total:                                                                    (200)                    (200)                    (200)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 52 Unexpended Appropriations - All Other Funds                                         E      C      B                   454,944                 271,768
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                454,944                  271,768                 271,768                      0
Total:                                                                  (454,944)                (271,768)               (271,768)                     0




                                                                              - 14 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 53 Cumulative Results of Operations - Earmarked Funds                                  E      C      B                    41,653                  37,586
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                 41,653                  37,586                   37,586                      0
Total:                                                                   (41,653)                (37,586)                 (37,586)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 54 Cumulative Results of Operations - All Other Funds                                  E      C      B                   (68,741)                    157
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                (68,741)                  157                       157                       0
Total:                                                                    68,741                  (157)                     (157)                      0




                                                                              - 15 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                              Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
  2   Beginning Balance                                                                BN      C      B                    37,743                  48,782
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                                  B                 37,743                  48,782                   48,782                      0
Total:                                                                   (37,743)                (48,782)                 (48,782)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
  4   Appropriations Used                                                               F      C      B                   668,153                 481,735
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                       F                668,153                 481,735                  481,735                      0
Total:                                                                  (668,153)               (481,735)                (481,735)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
  5   Non-exchange Revenue                                                              F      C      B                       493                     254
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                  493                     108                       108                       0
Expenditure transfers-in of financing sources           F                    0                      13                        13                       0
Other budgetary financing sources                       F                    0                     133                       133                       0
Total:                                                                    (493)                   (254)                     (254)                      0



                                                                              - 16 -
                                                                  U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                                Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                       Type
  6   Donations and Forfeitures of Cash and Cash Equivalents                             F      C       N                      257                     159
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                    257                     159                       159                      0
Total:                                                                      (257)                   (159)                     (159)                     0

Line Agency Line Description                                                   Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                       Type
  7   Transfers In/Out without Reimbursement                                             F      C       F                      (21)                    (10)
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Expenditure transfers-in of financing sources           F                     10                       0                          0                     0
Nonexpenditure Transfers-out of unexpended              F                      5                      10                        10                      0
appropriations and financing sources
Appropriation of unavailable special or trust          F                       26                           0                    0                          0
fund receipts Transfers-out
Total:                                                                          21                      10                      10                          0




                                                                                - 17 -
                                                              U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 8   Other Budgetary Financing Sources                                               F      C       B                        12                       12
                                                                                  Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                     F                   12                      12                        12                       0
Total:                                                                   (12)                    (12)                      (12)                      0

Line Agency Line Description                                               Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 10 Donations and Forfeitures of Property                                            F      C       N                       127                     112
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                  127                     112                       112                       0
Total:                                                                  (127)                   (112)                     (112)                      0

Line Agency Line Description                                               Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                   Type
 11 Accrued Interest & Discount on the Debt                                          F      C       F                     6,027                   (3,870)
                                                                                  Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                     F                 6,027                  (3,870)                   (3,870)                     0
Total:                                                                 (6,027)                  3,870                     3,870                      0




                                                                            - 18 -
                                                              U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                    Type
 12 Transfers In/Out without Reimbursement                                            F      C      F                       (36)                    (21)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Transfers-in Without Reimbursement                    F                   (5)                      0                          0                      0
Transfers-out Without Reimbursement                   F                   31                      21                        21                       0
Total:                                                                    36                      21                        21                       0
Line Agency Line Description                                                Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                    Type
 13 Imputed Financing Sources                                                         F      C      F                       793                     729
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Imputed Financing Source                              F                  793                     729                       729                       0
Total:                                                                  (793)                   (729)                     (729)                      0

Line Agency Line Description                                                Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                    Type
 14 Transfers to the General Fund and Other                                           F      C      B                  (217,704)                (20,788)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                    447                     729                      729                      0
Other non-budgetary financing sources                 F               (187,992)                 (7,992)                  (7,992)                     0
Other budgetary financing sources                     F                (30,159)                (13,525)                 (13,525)                     0
Total:                                                                 217,704                  20,788                   20,788                      0


                                                                            - 19 -
                                                                 U.S. Department of the Treasury                                       01/07/2010 06:33:34
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2009                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 21 Beginning Balance                                                                   BN      C       B                   271,968                  72,317
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2009-SEPTEMBER          2008-SEPTEMBER          Previously Reported       Line Item Changes
Beginning Net Position                                 B                  271,968                  72,317                    72,317                      0
Total:                                                                   (271,968)                (72,317)                  (72,317)                     0

Line Agency Line Description                                                   Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 23 Appropriations Received                                                              F      C       B                   855,762                 681,473
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER          2008-SEPTEMBER          Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                855,762                 681,473                   681,473                      0
and other adjustments)
Total:                                                                   (855,762)                  (681,473)              (681,473)                         0
Line Agency Line Description                                                   Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 24 Appropriations Transferred In/Out                                                    F      C       B                        11                      24
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2009-SEPTEMBER          2008-SEPTEMBER          Previously Reported       Line Item Changes
Nonexpenditure transfers-in of unexpended              F                     11                      24                         24                       0
appropriations and financing sources
Total:                                                                        (11)                       (24)                   (24)                         0




                                                                               - 20 -
                                                                 U.S. Department of the Treasury                                    01/07/2010 06:33:34
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2009                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 25 Other Adjustments                                                                    F      C      B                  (4,444)                    (111)
                                                                                      Variance:                                0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER          2008-SEPTEMBER       Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                (4,444)                  (111)                   (111)                      0
and other adjustments)
Total:                                                                      4,444                      111                  111                           0
Line Agency Line Description                                                   Status Account NB      F/N    2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 26 Appropriations Used                                                                  F      C      B                (668,153)               (481,735)
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2009-SEPTEMBER          2008-SEPTEMBER       Previously Reported       Line Item Changes
Other budgetary financing sources                      F                 (668,153)               (481,735)              (481,735)                     0
Total:                                                                    668,153                 481,735                481,735                      0




                                                                               - 21 -
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                             Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 38 Total Gross Costs                                                                 GC      D       B                  619,347                 496,364
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Interest on Debt Held by the Public                     N                189,148                 241,578                  241,578                     0
Imputed Costs                                           F                    794                     730                      730                     0
Buy/Sell Costs                                          F                  1,635                   1,743                    1,743                     0
Benefit Program Costs                                   F                  1,960                   1,851                    1,851                     0
Federal Securities Interest Expense                     F                191,997                 212,423                  212,423                     0
Borrowing and Other Interest Expense                    F                  6,534                   5,044                    5,044                     0
Non-Federal Gross Cost                                  N                227,278                  32,995                   32,995                     0
Other Expenses (without reciprocals)                    F                      1                       0                        0                     0
Total:                                                                   619,347                 496,364                  496,364                     0
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 39 Total Earned Revenues                                                             ER      C       B                    96,415                 27,013
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Buy/Sell Revenue                                        F                 1,371                     332                       332                     0
Borrowings Gains                                        F                 2,497                      44                        44                     0
Borrowing and Other Interest Revenue                    F                16,630                  14,239                    14,239                     0
(Exchange)
Non-Federal Earned Revenue                             N                  77,066                   12,398                 12,398                          0
Other Revenue (without reciprocals)                    F                  (1,149)                       0                      0                          0
Total:                                                                   (96,415)                 (27,013)               (27,013)                         0



                                                                              - 22 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 3   Individual Income and FICA Taxes                                                   F      C      N                 2,036,557                2,294,326
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               2,036,557                2,294,326              2,294,326                      0
Total:                                                                 (2,036,557)              (2,294,326)            (2,294,326)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 4   Corporate Income Taxes                                                             F      C      N                   225,482                 354,063
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Corporation Income Taxes                                N                225,482                  354,063                 354,063                      0
Total:                                                                  (225,482)                (354,063)               (354,063)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 5   Estate and Gift Taxes                                                              F      C      N                    24,677                  29,824
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Estate and Gift Taxes                                   N                 24,677                   29,824                  29,824                      0
Total:                                                                   (24,677)                 (29,824)                (29,824)                     0




                                                                               - 23 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 6   Excise Taxes                                                                       F      C      N                    67,248                  66,293
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                 67,248                  66,302                   66,302                      0
Other budgetary financing sources                       F                      0                      (9)                      (9)                     0
Total:                                                                   (67,248)                (66,293)                 (66,293)                     0
Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 7   Railroad Retirement Taxes                                                          F      C      N                     4,711                   4,939
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 4,711                   4,939                     4,939                      0
Total:                                                                   (4,711)                 (4,939)                   (4,939)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 8   Unemployment Taxes                                                                 F      C      N                     6,765                   7,331
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Unemployment Taxes                                      N                 6,765                   7,331                     7,331                      0
Total:                                                                   (6,765)                 (7,331)                   (7,331)                     0




                                                                              - 24 -
                                                                 U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 9   Deposit of Earnings, Federal Reserve System                                         F      C      N                    34,318                  33,598
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                 N                 34,318                  33,598                   33,598                      0
Total:                                                                    (34,318)                (33,598)                 (33,598)                     0

Line Agency Line Description                                                   Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 10 Fines, Penalties, Interest & Other Revenue                                           F      C      B                     1,929                   2,233
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                 N                 1,929                   1,173                     1,173                      0
Other budgetary financing sources                        F                     0                   1,060                     1,060                      0
Total:                                                                    (1,929)                 (2,233)                   (2,233)                     0
Line Agency Line Description                                                   Status Account NB      F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                       Type
 13 Less Refunds                                                                         F      C      N                  (437,972)               (426,074)
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings                N               (339,629)               (369,348)                (369,348)                     0
Other Taxes and Receipts                                 N                     (3)                      6                        6                      0
Corporation Income Taxes                                 N                (95,200)                (54,340)                 (54,340)                     0
Excise Taxes                                             N                 (1,783)                 (1,251)                  (1,251)                     0


                                                                               - 25 -
                                                                U.S. Department of the Treasury                                       01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2009                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB     F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                        Type
 13 Less Refunds                                                                          F    C        N                 (437,972)               (426,074)
Estate and Gift Taxes                                  N                  (1,248)                    (1,022)                (1,022)                      0
Unemployment Taxes                                     N                    (109)                      (119)                  (119)                      0
Total:                                                                   437,972                    426,074               426,074                        0




Line Agency Line Description                                                  Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 18 Beneficial Interest in Trust                                                        F      C       N                    23,472                          0
                                                                                     Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER         Previously Reported       Line Item Changes
Miscellaneous Earned Revenue                            N                 23,472                     0                           0                      0
Total:                                                                   (23,472)                    0                           0                      0

Line Agency Line Description                                                  Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 19 Accrual Adjustment                                                                  F      C       N                    (1,097)                  3,132
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                (1,000)                   3,000                     3,000                      0
Other Taxes and Receipts                                N                   (97)                     132                       132                      0
Total:                                                                    1,097                   (3,132)                   (3,132)                     0




                                                                              - 26 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 25 Amounts Provided to Fund Non Federal Entities                                      CF      D      B                       487                     407
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Excise Taxes                                            N                 (487)                    (407)                    (407)                      0
Total:                                                                     487                      407                      407                       0

Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 26 Amounts Provided to Fund the Federal Government                                    CF      D      B                 1,963,228                2,366,126
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Expenditure Transfers-out of financing sources         F                      (61)                      13                     13                      0
Other budgetary financing sources                      F               (1,963,289)              (2,366,113)            (2,366,113)                     0
Total:                                                                  1,963,228                2,366,126              2,366,126                      0
Line Agency Line Description                                                  Status Account NB       F/N     2009-SEPTEMBER           2008-SEPTEMBER
                                                                                      Type
 29 Non-cash revenue - Beneficial Interest in Trust                                    CF      D      B                    23,472                          0
                                                                                     Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER           2008-SEPTEMBER        Previously Reported       Line Item Changes
Other budgetary financing sources                       F                (23,472)                    0                          0                      0
Total:                                                                    23,472                     0                          0                      0




                                                                               - 27 -
                                                                U.S. Department of the Treasury                                      01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2009                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                     Type
 30 Accrual Adjustment                                                                CF      D       B                    (1,097)                  3,132
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                 1,000                  (3,000)                   (3,000)                     0
Other Taxes and Receipts                                N                    97                    (132)                     (132)                     0
Total:                                                                   (1,097)                  3,132                     3,132                      0
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                     Type
 31 Amounts Provided to Non Federal Entities                                    I     CL      D       B
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Total:                                                                      0                       0                           0                      0


Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER           2008-SEPTEMBER
                                                                                     Type
 32 Amounts Provided to Fund the Federal Government                             I     CL      D       B
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported       Line Item Changes
Total:                                                                      0                       0                           0                      0




                                                                              - 28 -
                                                                U.S. Department of the Treasury                                     01/07/2010 06:33:34
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2009                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2009-SEPTEMBER          2008-SEPTEMBER
                                                                                     Type
 33 Accrual Adjustment - (See Same Line Item Above)                             I     CL      D       B
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2009-SEPTEMBER          2008-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                      0                       0                           0                     0




                                                                              - 29 -
